 Office of Inspector General

SEMIANNUAL REPORT TO
    THE CONGRESS
   October 1, 2011–March 31, 2012
OFFICE OF INSPECTOR GENERAL

    SEMIANNUAL REPORT
     TO THE CONGRESS

 October 1, 2011²March 31, 2012
                                Inspector General
                                         HOTLINE
The hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or misconduct in the
programs and operations of the United States Agency for International Development (USAID), the Millennium
Challenge Corporation (MCC), the Inter±American Foundation (IAF), and the United States African
Development Foundation (USADF). Employees of USAID, MCC, USAID, and IAF, as well as contractors,
program participants, and members of the general public, may report allegations directly to the Office of
Inspector General (OIG). Complaints may be submitted electronically by using e±mail or OIG¶s online complaint
form.

E±mail                  ig.hotline@usaid.gov
Complaint form          http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic communication may
submit allegations by telephone or mail.

Telephone        1±202±712±1023
                 1±800±230±6539
Mail             USAID OIG HOTLINE
                 P.O. Box 657
                 Washington, DC 20044±0657

The Inspector General Act of 1978, as amended, and other laws protect those who make hotline complaints.
Individuals who contact the hotline are not required to identify themselves and may request confidentiality
when submitting allegations. However, OIG encourages those who report allegations to identify themselves so
that they can be contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, MCC, USADF, or IAF who provides
information unless that employee consents or unless the Inspector General determines that such disclosure is
unavoidable during the course of an investigation.


            Semiannual Report to the Congress: October 1, 2011³March 31, 2012
                                     USAID Office of Inspector General


                                                  Contents


Message from the Acting Inspector General««««««««««««««««««.............. 1

,QWURGXFWLRQ««««««««««««««««««««««««««««...............                    3

5HSRUWLQJ5HTXLUHPHQWV««««««««««««««««««««««««««««««««««««««                                                   6

6XPPDU\7DEOHRI$XGLWV&RQGXFWHG««««««««««««««««««««««««««..............                                    8

Investigative Activities«««««««««««««««««««««««««««««««««««««««                                              10
)UDXG$ZDUHQHVV%ULHILQJV&RQGXFWHG:RUOGZLGH«««««««««««««««««««««««« 11

3HHU5HYLHZV«««««««««««««««««««««««««««««««««««««««««««««                                                       13

United States Agency for International Development

Significant Findings and Activities««««««««««««««««««««««««««««««.««.                                          15

       Response to Crisis, Conflict, and Instability««««««««««««««««««««««««««« 15

       Democracy««««««««««««««««««««««««««««««««««««««««««22

                *RRG*RYHUQDQFH««««««««««««««««««««««««««««««««                                               22

                5XOHRI/DZDQG+XPDQ5LJKWV««««««««««««««««««««««««..                                        26

       Economic Growth «««««««««««««««««««««««««««««««««««««                                                 28

       Education«««««««««««««««««.............. 34

       Food Security««««««««««««««««««««««««««««««««««««««««                                                 36

       Global Health and Health Systems««««««.««««««««««««««««««««««««                                          39

                   HIV/AIDS«««««««««««««««««««««««««««««««««««                                                 39

                   Malaria, Tuberculosis, and Neglected Tropical Diseases««««««««««««                            45

                   General Health Programs««««««««««««««««««««««««««««                                           47




          Semiannual Report to the Congress: October 1, 2011²March 31, 2012
                                    USAID Office of Inspector General




       Management ««««««««««««««««««««««««««««««««««««««««                                                  49

                Science and 7HFKQRORJ\««««««««««««««««««««««««««««« 49
                )LQDQFLDO0DQDJHPHQW«««««««««««««««««««««««««««««                                        50
                Management Capabilities««««««««««««««««««««««««««««                                         56

                (PSOR\HH0LVFRQGXFW«««««««««««««««««««««««««««««« 58

                ([SDQGLQJ$FFRXQWDELOLW\««««««««««««««««««««««««««««                                       59

                Accountability Over Contractors and Grantees²Audits«««««««««««« 61

                Accountability Over Contractors and Grantees²Investigations««««««««                         63

Significant Recommendations Described Previously Without Final Action«««««««««««                           65
,QFLGHQWVLQ:KLFK2,*:DV5HIXVHG$VVLVWDQFHRU,QIRUPDWLRQ««««««««««««««««                                70

6WDWLVWLFDO5HSRUWV««««««««««««««««««««««««««««««««««««««««« 71

       Financial Audits««««««««««««««««««««««««««««««««««««««                                             71

       Performance Audits««««««««««««««««««««««««««««««««««««« 107

       Miscellaneous Reports«««««««««««««««««««««««««««««««««109

       Reports With Questioned and Unsupported Costs««««««««««««««««««««...... 112

       Reports With Recommendations that Funds Be Put to Better Use«««............................... 113

5HSRUWV2YHU0RQWKV2OG:LWK1R0DQDJHPHQW'HFLVLRQ««««««««« 114

6LJQLILFDQW5HYLVLRQVRI0DQDJHPHQW'HFLVLRQV«««««««««««««««««««««««««« 115

Management Decisions With Which the Inspector General DiVDJUHHV«««««««««««««« 115

Noncompliance With the Federal Financial Management Improvement Act of 1996«««««« 116

6LJQLILFDQW)LQGLQJV)URP&RQWUDFW$XGLW5HSRUWV«««««««««««««««««««««««« 117

Millennium Challenge Corporation

Significant Findings and Activities««««««««««««««««««««««««««««««««                                       119

       Good Governance«««««««««««««««««««««««««««««««««««««« 119

       Economic Growth «««««««««««««««««««««««......................................... 119

       Other MCC Programs and Operations««««««««««««««««««««««««««««. 120

          Semiannual Report to the Congress: October 1, 2011²March 31, 2012
                                                  USAID Office of Inspector General




            Management Capabilities«««««««««««««««««««««««««««««««««« 130

6LJQLILFDQW5HFRPPHQGDWLRQV'HVFULEHG3UHYLRXVO\:LWKRXW)LQDO$FWLRQ«««««««««««« 131

,QFLGHQWVLQ:KLFK2,*:DV5HIXVHG$VVLVWDQFHRU,QIRUPDWLRQ«««««««««««««««« 133

6WDWLVWLFDO5HSRUWV«««««««««««««««««««««««««««««««««««««««««« 134

            Financial Audits««««««««««««««««««««««««««««««««««««««« 134

            Performance Audits««««««««««««««««««««««««««««««««««««« 138

            Miscellaneous Reports«««««««««««««««««««««««««««««««««««« 139

            Reports With Questioned and Unsupported Costs««««««««««««««««««««««.. 140

            Reports With Recommendations that Funds Be Put to Better Use««««««««««««««« 141

Reports 2YHU0RQWKV2OG:LWK1R0DQDJHPHQW'HFLVLRQ««««....................... 142

Significant Revisions of Management DeciVLRQV«««««««««««««««««««««««««« 143

0DQDJHPHQW'HFLVLRQV:LWK:KLFKWKH,QVSHFWRU*HQHUDO'LVDJUHHV«««««««««««««« 143

Noncompliance With the Federal Financial Management Improvement Act

            RI«««««««««««««««««««««««««««««««««««««««««« 144

6LJQLILFDQW)LQGLQJV)URP&RQWUDFW$XGLW5HSRUWV««««««««««««««««««««««« 144

United States African Development Foundation

Significant Findings««««««««««««««««««««««««««««««««««««««««« 145

2WKHU5HTXLUHG5HSRUWV«««««««««««««««««««««««««««««««««««««« 146

Inter±American Foundation

Significant Findings««««««««««««««««««««««««««««««««««««««««« 153

2WKHU5HTXLUHG5HSRUWV«««««««««««««««««««««««««««««««««««««« 154

Abbreviations.................................................................................................................................... 160




               Semiannual Report to the Congress: October 1, 2011²March 31, 2012
                  USAID Office of Inspector General




Semiannual Report to the Congress: October 1, 2011²March 31, 2012
                                       USAID Office of Inspector General


                     Message From the Acting Inspector General
I am pleased to present the Semiannual Report to          Malaria deaths reported by district hospitals fell
the Congress for the period October 1²                    from 1,445 in 2005 to 670 in 2010²a reduction
March 31, 2012. This report features highlights           of 54 percent. Although in 2005 only 18 percent
of oversight activities of the Office of Inspector        of households owned a bed net, in 2010, the
General (OIG) for the United States Agency for            percentage had increased to 83.
International Development (USAID), the
                                                          In terms of overall program management, MCC
Millennium Challenge Corporation (MCC), the
                                                          has been making some positive changes. In
United States African Development Foundation
                                                          January 2012, the Corporation revised its
(USADF), and the Inter±American Foundation
                                                          compact development guidelines to include
(IAF).
                                                          practices OIG identified to strengthen due
                                                          diligence activities as well as compact planning.
During this reporting period:
                                                          MCC is also making a concerted effort to
$110.7 million in questioned costs and
                                                          expeditiously address OIG audit
funds recommended to be put to better
                                                          recommendations. As of the end of this reporting
use
                                                          period, MCC had no audit recommendations
$49.3 million in investigative recoveries                 pending management decisions for more than
and savings                                               6 months, whereas it previously had 15 such
                                                          audit reports with recommendations awaiting
3 convictions
                                                          decision.
31 administrative actions
                                                          Oversight challenges remain, however. We
                                                          continue to commit ourselves to working with
In the past 6 months, we have seen several                the agencies to help improve programs. In our
accomplishments in programs and operations of             audits, we focus on determining the sustainability
the organizations for which we provide oversight.         and efficiency of programs and operations and on
                                                          making recommendations for program
For example, USAID¶s National Malaria Control             improvement. In addition, our investigations
Program in Rwanda that we audited during this             help maintain the integrity of agencies¶ activities,
reporting period has demonstrated notable                 saving millions of taxpayer dollars each year.
success. Following the implementation of malaria
prevention activities, confirmed cases of the
disease decreased between 2010 and 2011.


          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 1
                                       USAID Office of Inspector General


Programs that USAID is implementing in Asia,              need to recruit, develop, and maintain high±
the Middle East, and Africa have received                 quality employees. Further, we are revising our
particular focus during this reporting period.            5±year strategic plan with input from all offices
For example, several members of an Islamic                throughout OIG. We have also reorganized our
charity with ties to international terrorism were         audit functions, consolidating oversight of
sentenced in January for their roles in illegally         USAID and MCC under one directorate.
channeling more than $1 million to Iraq. In               Separate staff members are still assigned to MCC
October, the former president and CEO of an               oversight, but this reorganization should result in
engineering consulting company was indicted on            greater consistency of operations and the ability
six counts of conspiring to defraud USAID over a          to use field resources to conduct MCC
20±year period.                                           operations to augment this oversight.

OIG noted concerns about sustainability in                We have decreased resources in Iraq and
USAID/Angola¶s Civil Society Strengthening                channeled them to provide oversight of pressing
Program, primarily because of the inability to fill       programs elsewhere in the Middle East. We
key positions and the resulting lack of program           recognize that we will still need to safeguard
oversight. Other problems included cultural               resources for planned projects in contingency
reluctance by program±trained employees to                areas, despite changing military priorities. As I
share their knowledge with fellow employees and           testified before Congress earlier this fiscal year,
hesitancy on the part of officials from the               we believe that our office²and other statutory
Ministry of Health to engage in joint training or         inspectors general responsible for oversight in
supervision.                                              those countries²are well placed to address the

In order for OIG to be an effective oversight             challenges in this region.

organization, we must ensure that our own
                                                          We look forward to continuing to work with the
operations are efficient and properly focused, and
                                                          Congress and our partners and stakeholders to
we have undertaken several initiatives toward that
                                                          improve the efficiency and effectiveness of U.S.
end. We have begun to implement our newly
                                                          foreign assistance programs.
issued human capital plan to address our critical




          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 2
                                       USAID Office of Inspector General


                                               Introduction

                               History and Mandated Authority

USAID¶s OIG was established on December 16,               and effectiveness and safeguards the integrity of
1980, by statutory amendment1 to the Foreign              programs and operations under our jurisdiction.
Assistance Act of 1961.2 On December 29, 1981,            Some of our work is mandated by statute or other
the International Security and Development                requirements; other work is performed at the
                           3
Cooperation Act of 1981 brought the USAID                 discretion of OIG. When identifying and
Inspector General under the purview of the                prioritizing appropriate audit and investigative
                                 4
Inspector General Act of 1978. OIG assumed                activity, we consider stakeholder interests and
audit and investigative oversight of USADF and            needs, alignment with strategic goals, program
IAF in 19995 and of MCC in 2004.6                         funding levels, and the risks associated with the
                                                          agency programs, including potential vulnerabilities
The Inspector General Act authorizes the Inspector
                                                          in internal controls.
General to conduct and supervise audits and
investigations. Our mission is to provide
                                                                    Areas of Responsibility
independent oversight that promotes efficiency
                                                          Audits. OIG audits activities relating to
1
 International Security and Development
                                                          worldwide foreign assistance programs
Cooperation Act of 1980, Public Law 96±533.
2
    Public Law 87±195.                                    and agency operations of USAID, MCC,
3
    Public Law 97±113.                                    USADF, and IAF. Audit activities include
4
    Public Law 95±452.                                    performance audits and reviews of programs and
5
  Consolidated Appropriations Act, 2000, Public Law
106±113, Division B, Section 1000(a)(7), Admiral          management systems, financial statement audits
James W. Nance and Meg Donovan Foreign Relations          required under the Chief Financial Officers Act
Authorizations Act, Fiscal Years 2000 and 2001.
6
 Established in 2004 by the Millennium Challenge          of 1990,7 and audits related to financial
Act of 2003 (Pub. L. 108-199, Div. D.), MCC is a U.S.     accountability of grantees and contractors.
Government corporation that works to reduce poverty
and stimulate economic growth in some of the poorest
countries in the world. It has committed more than $8     Investigations. OIG investigates allegations of
billion in foreign aid to 38 countries.
                                                          fraud, mismanagement, and misconduct relating
When a country meets the performance standards of
0&&¶V22 policy indicators, it may become eligible to     to the foreign assistance programs and agency
receive a compact²the chief grant instrument between      operations of our client agencies. Investigations
MCC and the country to fund specific programs. Each
compact country identifies an entity or organization      of criminal, civil, and administrative violations
that will manage the compact funds and oversee
compact implementation. Such entities are usually
                                                          7
called Millennium Challenge Accounts (MCAs).                  Public Law 101±576.


            Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 3
                                      USAID Office of Inspector General


cover all facets of these worldwide operations.          Southwest Asia Joint Planning Group. This
OIG also works proactively by providing fraud            group was formed to coordinate oversight
awareness training and literature, audiovisual           activities in Afghanistan and other countries in
aids, and advice on fraud prevention strategies          the region. The group comprises representatives
for agency personnel and employees of foreign            of the Offices of Inspector General for USAID
assistance implementers worldwide.                       and the Department of State, the Government
                                                         Accountability Office (GAO), the Special
Locations of OIG Offices. OIG carries out its
                                                         Inspector General for Iraq Reconstruction, the
audit and investigative work in about
                                                         Special Inspector General for Afghanistan
100 countries from offices in:
                                                         Reconstruction, the U.S. Army Audit Agency,

   Baghdad, Iraq                                        the Naval Audit Service, the Air Force Audit

   Cairo, Egypt                                         Agency, and the Defense Contract Audit Agency
   Dakar, Senegal                                       (DCAA).
   Islamabad, Pakistan
                                                         Department of Justice Task Forces. OIG
   Kabul, Afghanistan
                                                         actively participates on two Department of Justice
   Manila, Philippines
                                                         task forces²the National Procurement Fraud
   Port±au±Prince, Haiti
                                                         Task Force and the International Contract
   Pretoria, South Africa
                                                         Corruption Task Force. The mission of both task
   San Salvador, El Salvador
                                                         forces is to promote the early detection,
   Tel Aviv, Israel
   Washington, DC                                       prevention, and prosecution of procurement and
                                                         grant fraud associated with increased contracting
      Joint Work and Partners                            activity for national security and other
                                                         government programs.
OIG participates in task forces and cooperates
with other interagency groups. In this reporting         Working With BiLateral Donors. OIG is
period, for example, OIG contributed to task             participating in a group of eight bilateral donors,
forces to provide oversight for accountability and       who are working to harmonize audit standards
transparency in USAID operations in                      and improve transparency and accountability of
Afghanistan and Pakistan and to assist the               multilateral organizations, and are taking on
Department of Justice in addressing procurement          other issues of mutual interest. In support of the
and grant fraud.                                         group's efforts, OIG is preparing an analysis of
                                                         the differences between the audit standards



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 4
                                     USAID Office of Inspector General


issued by the U.S. Government Accountability            efficiencies and reduce the audit burden on aid
Office, the International Federation of                 recipients who receive funding from multiple
Accountants, and the International Organization         sources.
of Supreme Audit Institutions. Harmonization of
audit standards has the potential to achieve




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 5
                                      USAID Office of Inspector General


                                    Reporting Requirements

The Inspector General Act of 1978, as amended            8. Statistical tables showing:
(5 U.S.C. Appendix 3), and other public laws set
                                                             (a) The total number of reports at the
forth congressional reporting requirements for
                                                                 beginning of the period for which a
the Offices of Inspector General. There are
                                                                 management decision had not been
15 general categories of reporting requirements:
                                                                 made, including the total dollar values of
                                                                 questioned and unsupported costs
1. Significant problems, abuses, and deficiencies
                                                                 associated with these reports.
    uncovered.
                                                             (b) The total number of reports during the
2. Recommendations for corrective action
                                                                 reporting period, including the total
    identified.
                                                                 dollar value of questioned costs and
3. Recommendations described previously for
                                                                 unsupported costs associated with these
    which corrective action has not been
                                                                 reports.
    completed.
                                                             (c) The total number of reports during the
4. Investigative activities, including matters
                                                                 reporting period for which a
    referred to prosecutive authorities.
                                                                 management decision was made,
5. Reports of incidents in which OIG was                         including the dollar value of disallowed
    refused assistance or information.                           costs and the dollar value of costs

6. Questioned costs (QC), unsupported costs                      allowed.

    (UN), and the dollar value of                            (d) The total number of reports for which
    recommendations that funds be put to better                  no management decision had been made
    use (BU).                                                    by the end of the reporting period.

7. A summary of each particularly significant            9. Statistical tables showing:
    report.




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 6
                                        USAID Office of Inspector General



    (a) The total number of reports at the                     end of the reporting period (including the
        beginning of the period for which a                    date and title of each such report), an
        management decision had not been                       explanation of the reasons such management
        made, including the total dollar values of             decision has not been made, and a statement
        recommendations that funds be put to                   concerning the desired timetable for
        better use.                                            achieving a management decision on each
                                                               such report.
    (b) The total number of reports issued
        during the reporting period, including             11. Revisions of management decisions,
        the total dollar value of funds put to                 including a description and explanation of
        better use.                                            the reasons.

    (c) The total number of reports during the             12. Management decisions with which the

        reporting period for which a                           Inspector General is in disagreement.

        management decision was made,                      13. Noncompliance with the Federal Financial
        including the dollar value of                          Management Improvement Act of 1996.
        recommendations that were agreed to by
                                                           14. Significant audit findings from contract audit
        management, and the dollar value of
                                                               reports.
        recommendations that were not agreed
        to by management.                                  15. Peer review results, including the following:

    (d) The total number of reports for which                  (a)    Reviews conducted on OIG during

        no management decision had been made                          the reporting period, or the date of its

        by the end of the reporting period.                           last peer review and any
                                                                      unimplemented recommendations.
    (e) A list of reviews conducted by OIG
        during the reporting period.                           (b)    A list of reviews conducted by OIG
                                                                      during the reporting period.
    (f) A list of outstanding recommendations
        made by OIG during the reporting
                                                               (c)    A list of outstanding
                                                                      recommendations made by OIG
        period.
                                                                      during the reporting period.
10. Reports previously issued for which no
    management decision had been made by the




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 7
                              USAID Office of Inspector General




                   Summary Table of Audits Conducted
                       USAID, USADF, and IAF
                      October 1, 2011²March 31, 2012
                                                                     Amount of
                                                 Number of
            Type of Report                                        Recommendations
                                                  Reports
                                                                       ($)
Financial Audits
American Recovery and Reinvestment Act
                                                        1               100,440
of 2009, Public Law III²5 (ARRA)
USAID programs and operations                           1                    0

Foundations· programs and operations                    2                    0

U.S.²based contractors                                 29            53,511,436

     Quality control reviews                            0                    0

U.S.²based grantees                                    69            19,073,190

      Quality control reviews                           0                    0

Foreign²based organizations                           190            21,417,617

      Quality control reviews                          11                  604

Enterprise funds                                        0                    0

Performance Audits

USAID economy and efficiency                           34             8,975,859

Foundations· economy and efficiency                     2                    0

Other                                                  11             6,575,911

Total                                                350           109,655,057




  Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 8
                                         USAID Office of Inspector General




                             Summary Table of Audits Conducted
                                            MCC8
                                October 1, 2011²March 31, 2012
                                                                                    Amount of
                                                          Number of
                    Type of Report                                               Recommendations
                                                           Reports
                                                                                      ($)
          Financial Audits
          U.S.²based contractors                                  0

          U.S.²based grantees                                     0

          Foreign²based organizations                           15                    1,052,408

          Performance Audits

          Economy and efficiency                                  4

          Other

          Totals                                                19                   1,052,408




8
    MCC oversight is reported separately because operations are funded by reimbursable agreement.


            Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 9
                                            USAID Office of Inspector General


                            Investigative Activities Including Matters
                              Referred to Prosecutive Authorities
                                      October 1, 2011²March 31, 2012


                     Workload                                                       Civil Actions

 Investigations opened                              115           Civil referrals                              3
 Investigations closed                               74           Civil declinations                           1
                                                                  Complaints                                   0
                                                                  Judgments                                    0
                                                                  Settlements                                  1
                                                                  Total                                            5

                Criminal Actions                                            Administrative Actions

 Prosecutive referrals                                9           Reprimands/demotions                         2
 Prosecutive declinations                             4           Personnel suspensions                        4
 Arrests                                              5           Resignations/terminations                    6
 Indictments                                          7           Recoveries                                   7
 Convictions                                          3           Savings                                      0
 Sentencing                                           7           Suspensions/debarments                       9
 Fines/assessments                                    8           Systemic changes                             0
 Restitutions                                         2           Other                                        3
Total                                                45         Total                                         31
 Judicial recoveries (criminal and civil)                                                            $48,985,093
 Administrative recoveries                                                                             $446,606
 Savings
 Total savings / recoveries                                                                         $49,431,699




           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 10
                                 USAID Office of Inspector General


        Fraud Awareness Briefings Conducted Worldwide
               October 1, 2011²March 31, 2012

Month          Location               Sessions     Attendees                 Affiliation
        Baghdad, Iraq                      3            136          Personnel

        Kabul, Afghanistan                 5            90           Personnel and contractors
 OCT
        Manila, Philippines                1            32           Personnel and contractors



        Kabul, Afghanistan                 1            10           Personnel

        Windhoek, Namibia                  2            39           Personnel

        San Salvador, El Salvador          1             8           Contractors
 NOV
        West Bank and Gaza                 2            160          Personnel and contractors

        Quezon City, Philippines           1            29           MCC personnel



        Washington, DC                     1            14           Contractors

        Islamabad, Pakistan                1            20           Personnel and contractors
 DEC
        Dhaka, Bangladesh                  1            55           Personnel and contractors



        Baghdad, Iraq                      1            21           Personnel

        Santa Domingo, Dom. Rep.           3            88           Personnel and contractors

        Washington, DC                     3            140          Personnel and contractors

 JAN    Kabul, Afghanistan                 7            197          Personnel and contractors

        Islamabad, Pakistan                4            88           Personnel and contractors

        Pretoria, South Africa             1            47           Personnel and contractors




  Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 11
                                  USAID Office of Inspector General


Month           Location               Sessions     Attendees                 Affiliation


         Kabul, Afghanistan                 8            113          Personnel and contractors

         Skopje, Macedonia                  7            78           Personnel and contractors

         Washington, DC                     6            212          Personnel and contractors

         Jakarta, Indonesia                 4            189          Personnel

         Pristina, Kosovo                   2            76           Personnel
 FEB
         Beirut, Lebanon                    2            31           Personnel

         Islamabad, Pakistan                2            82           Personnel and contractors

         Dili, Timor²Leste                  2            43           Personnel and contractors

         Pretoria, South Africa             1            47           Contractors




         Pristina, Kosovo                   2            82           Personnel and contractors

         Maputo, Mozambique                 2             8           Contractors

         Kabul, Afghanistan                 7            104          Personnel and contractors

         Sarajevo, Bosnia                   4            62           Personnel and contractors

         Washington, DC                     1            34           Contractors

 MAR     Mexico City, Mexico                1            23           Personnel

         Khartoum, Sudan                    1            23           Personnel

         Islamabad, Pakistan                1            105          Personnel

         Pretoria, South Africa             1            10           Contractors

         Port²au²Prince, Haiti              1            34           Personnel and contractors




Totals                                     93           2,530




  Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 12
                                     USAID Office of Inspector General




                                              Peer Reviews
                              USAID, USADF, IAF, and MCC
                              October 1, 2011²March 31, 2012



The Dodd±Frank Wall Street Reform and                   Audit: September 2009
Consumer Protection Act (Public Law 111±203)
                                                        Investigations: April 2011
requires federal inspectors general to report on
results of peer reviews in their semiannual             Outstanding recommendations for any
reports.                                                peer review conducted on USAID OIG
                                                        that have not been fully implemented.
Results of any peer reviews conducted on
USAID OIG during the reporting period.                  Audit: None
                                                        Investigations: None
Audit: No peer reviews were conducted during
this period.                                            Peer reviews conducted by USAID OIG
Investigations: No peer reviews were conducted          during the reporting period and any

during this period.                                     outstanding recommendations from any
                                                        previous peer review.
Date of the last peer review conducted on
USAID OIG.                                              Audit: None
                                                        Investigations: None




           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 13
                     USAID Office of Inspector General




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 14
                                       USAID Office of Inspector General

                               Significant Findings and Activities

               United States Agency for International Development


                                                          Security costs were also questionable. Chemonics
Response to Crisis, Conflict, and
          Instability                                     paid $1.2 million for personal security details for
                                                          staff members who lived on military bases and
Audit of USAID/Afghanistan·s                              traveled exclusively in military convoys, even
Afghanistan Stabilization Initiative for the              though no other contractor incurs this type of
Southern Region (Report No. F²306²12²
                                                          cost when the contractor¶s staff members are on a
001²P). In June 2009, the USAID Office of
                                                          military installation. Furthermore, Chemonics
Transition Initiatives (USAID/OTI) signed a               officials stated that the company had leased 13
3±year, $159.6 million contract with Chemonics            armored vehicles because it felt the vehicles were
International, Inc. (Chemonics) to implement              needed to provide sufficient security. However,
the Afghanistan Stabilization Initiative for the          Chemonics¶ security personnel prohibited
Southern Region (ASI±SR). ASI±SR has                      expatriate staff from traveling into the field, and
implemented project activities through grants in          to maintain a low profile, local staff members
districts and municipalities in Kandahar and              were using unarmored vehicles. They also leased
Helmand Provinces.                                        them at a significantly higher cost than other
                                                          implementers did.
OIG was unable to reach a conclusion about
whether the program as a whole was achieving its          The long±term benefits of the initiative were
goal because of multiple issues with the program.         undercut by a lack of planning. Although some
Many of these problems stemmed from program               key districts were ready for longer±term
implementation, which was delayed by a lack of            development projects, no comprehensive plans
formal work plans, inadequate USAID/OTI                   were in place to guide this transition. Without
oversight, staffing difficulties, and poor quality        such plans, key districts may not be able to
subcontractors. In addition, ASI±SR did not               sustain gains in stability, as district governors may
properly manage its budget and began running              not have the resources to meet the needs of their
out of funds in the first quarter of fiscal year          communities. Further, financial controls were
2011.                                                     problematic. For example, Chemonics was using
                                                          cash to make large tax payments to the Afghan
                                                          Government, increasing the risk that a payment


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 15
                                     USAID Office of Inspector General

may be stolen. In May 2011, an employee sent to         connection with hundreds of millions of dollars
a bank in Lashkar Gah with $62,398 to pay taxes         reconstruction contracts in Iraq and Afghanistan
to the Ministry of Finance disappeared with the         over a nearly 20±year period. The indictment
money. Although all but $80 was ultimately              charges the former president and CEO of LBG
recovered VHH³$IJKDQ&RQWUDFWRU(PSOR\HH             with one count of conspiring to defraud USAID
$UUHVWHGDQG'HEDUUHG´EHORZ, this incident            and five counts of making false claims in
revealed a serious weakness in Chemonics¶               connection with those billings. The conspiracy
internal cash controls.                                 charge carries a maximum potential penalty of
                                                        10 years in prison; each of the false claims counts
OIG made 18 recommendations. Management
                                                        carries a maximum potential penalty of 5 years in
decisions have been made on 12, and final action
                                                        prison. Each of the six counts also carries a
has been taken on 3. OIG also questioned
                                                        maximum $250,000 fine, or twice the loss from
$6.5 million in security costs.
                                                        the offense. USAID has suspended the
Afghan Contractor Employee Arrested                     individual.
and Debarred. In May 2011, a Chemonics
                                                        Two Employees of USAID Contractors
senior director reported to OIG that a locally
                                                        Suspended for Sharing Sensitive
employed financial assistant stole $62,398 in cash
                                                        Information Inappropriately. An
from the ASI±SR program. OIG agents
                                                        investigation was initiated into allegations that an
interviewed the senior director and learned that
                                                        employee of a USAID contractor illegally
shortly after the money was stolen, the employee
                                                        obtained and shared confidential information
surrendered to the Afghan police and his brother
                                                        with his friend from the existing security
returned all but $80 of the cash. Chemonics
                                                        contractor during the rebidding of a contract for
terminated the employee, and he was
                                                        the Kabul Power Plant. The investigation
subsequently debarred from doing business with
                                                        confirmed that, during the bidding process, one
the U.S. Government.
                                                        of the employees who worked for a project under
Former Louis Berger Group, Inc. Chief                   Louis Berger Group/Black & Veatch and
Executive Officer Arrested. On October 20,              participated in the selection committee gave
2011, the former president and CEO of New               confidential procurement information from the
Jersey±based international engineering consulting       incumbent firm to a friend who worked for a
company Louis Berger Group (LBG) was                    security company bidding for the upcoming
arrested. The defendant allegedly conspired to          contract. The information gave an unfair and
defraud USAID by leading a scheme to                    illegal advantage to the firm competing for the
intentionally overbill the United States in

         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 16
                                       USAID Office of Inspector General

security contract. As a result of the investigation,      DAI reported that one of its local procurement
USAID suspended both employees.                           employees solicited and received a kickback from
                                                          an ASMED grantee. The investigation proved
Australian Man Sentenced to Prison for
                                                          that the employee solicited bribes from the
Steering $15 Million in U.S.²Funded
                                                          president of the grantee company, which was
Contracts in Afghanistan. On December 16,
                                                          obtained through the traditional Hawala system.
2011, an Australian program consultant for the
                                                          OIG presented the case to the Afghan Attorney
International Organization for Migration (IOM),
                                                          General¶s office, and the individual was indicted
a contractor with USAID, was sentenced to
                                                          for violating the Afghan bribery law. In
22 months in prison. The individual had sought
                                                          December 2011, OIG assisted Afghan law
$190,000 in payments as a reward for steering
                                                          enforcement authorities with arresting the
U.S.±funded contracts to build a hospital and a
                                                          employee outside of the DAI compound in
provincial teaching college in Afghanistan. This
                                                          Kabul, Afghanistan. DAI immediately terminated
case involved the efforts of USAID¶s Office of
                                                          the individual, who is currently in custody
Inspector General, the Special Inspector General
                                                          awaiting trial.
for Afghanistan Reconstruction, the FBI¶s
Washington Field Office, members of the                   USAID Foreign Service National
International Contract Corruption Task Force              Contracting Officer·s Representative in
(ICCTF), and the Indian Central Bureau of                 Afghanistan Suspended for 10 Days for
Investigation, whose agents arrested the suspect          Conflict of Interest Issues. As a result of an
in New Delhi, India.                                      OIG investigation, a USAID contracting officer¶s
                                                          representative was suspended for 10 consecutive
Afghan Staff Member of a USAID
                                                          business days without pay for violating ethical
Contractor Arrested by Afghan National
                                                          standards. The employee approved the hiring of
Police on Bribery and Kickback Charges.
                                                          his brother as a construction supervisor on the
In October 2011, OIG received a mandatory
                                                          USAID Sustainable Water Supply and Sanitation
self±disclosure of fraud from Development
                                                          project in Afghanistan without disclosing it to
Alternatives, Inc. (DAI). DAI is implementing the
                                                          USAID.
$114 million Afghanistan Small and Medium±
Sized Enterprise Development Activity (ASMED)             Three USAID Contractor Employees
contract, which provides technical and financial          Terminated in Connection With
development assistance to small± and medium±              Construction Fraud in the Federally
sized organizations in Afghanistan.                       Administered Tribal Areas of Pakistan
                                                          (FATA). During the fall of 2010 and spring of


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 17
                                       USAID Office of Inspector General

2011, USAID OIG and the Pakistan Anti±Fraud               contract in September 2009 to implement a
Hotline received information regarding alleged            portion of the Pakistan Transition Initiative (PTI)
construction fraud on a USAID project in FATA.            in FATA and KPK. USAID¶s OTI9 manages the
OIG determined that three employees of IOM                program with a staff of seven located at
had submitted false documentation on the                  USAID/Pakistan.
construction of two flood±protection walls. As a
result of these false submissions, USAID paid
more than $33,000 for a wall that was not built
to specifications and more than $36,000 for a
separate wall, of which only a small portion was
completed.

In addition to falsifying documentation about the
walls¶ specifications, all three employees lied
about the matter when questioned by OIG. As a
result, the contractor¶s team leader in charge of
                                                           Before PTI, residents used an automobile to power a
the project, the site engineer who certified that           cable to carry one person at a time across the river
                                                                             (photo by OIG).
the incomplete wall was built to specifications,
and the head engineer, who certified completion           OIG confirmed that the PTI is a quick, efficient
to specification of the first wall, have all been         mechanism to deliver projects that the local
terminated. USAID¶s contracting officer                   communities want²such as the suspension
determined that USAID would pay the full                  bridge pictured below²and it has allowed the
amount for the first wall but that the contractor         Government of Pakistan to cultivate trust and
should credit USAID $36,719 for the cost of the           confidence in its services. Key accomplishments
incomplete wall.                                          include 48,000 meters of streets paved,
                                                          22,800 meters of drainage and sanitation piping
Audit of USAID·s Pakistan Transition
                                                          constructed, and 7,000 meters of retaining walls
Initiative Program (Report No. G²391²
                                                          built to withstand flooding.
12²003²P). Assisting the Government of
Pakistan in bringing peace and security to the            PTI formed committees for each project that
unstable regions of Pakistan²FATA and Khyber              were made up of community representatives who
Pakhtunkhwa (KPK)²is pivotal to U.S. foreign
                                                          9
policy objectives and national security. To achieve        The Office of Transition Initiatives is part of
                                                          86$,'¶V%XUHDXIRU'HPRFUDF\&RQIOLFWDQG
this goal, USAID awarded a 3±year, $102 million           Humanitarian Assistance.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 18
                                      USAID Office of Inspector General

then conducted inspections and evaluations               the Government Girls¶ High School. After the
throughout project implementation. For                   school closed for several months to house
example, the audit team interviewed the                  displaced persons during military operations and
community members who had overseen the                   sustained significant damage, the program
installation of a water supply system. They              rehabilitated the school and provided school
explained that, after extremists destroyed               supplies.
portions of their water system, villagers had been
                                                         However, OIG found that the mission had not
                                                         developed a formal written plan with clear
                                                         criteria linking the implementation of program
                                                         activities with the larger, mission±wide
                                                         development portfolio for FATA and KPK. As a
                                                         result, OTI officials agree that, if funding stops,
                                                         the program will collapse.

                                                         A management decision has been made on the
                                                         one recommendation.
A PTI±funded bridge allows for quick and safe river
           crossing (photo by OIG).                      Audit of USAID/Iraq·s Community Action
forced to get water from a distant well, exposing        Program Activities Implemented by
themselves to danger along the path. After the           International Relief and Development
Pakistani military cleared the area, PTI installed a     (Report No. E²267²12²001²P). USAID
new water tank and pumps.                                awarded a $39.1 million cooperative agreement
                                                         in September 2008 to International Relief and
An overarching goal of the program is to improve
                                                         Development, Inc. (IRD) for the implementation
relations between the Government of Pakistan
                                                         of the Iraq Community Action Program (ICAP)
and communities in FATA and KPK, thereby
                                                         activities. As of September 2010, USAID/Iraq
reducing violence and extremism. In addition to
                                                         had increased the total estimated costs to
the infrastructure projects, the program
                                                         $91 million and extended the period of
rehabilitated 92 educational facilities, including
                                                         performance to September 2012.




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 19
                                      USAID Office of Inspector General




       Substandard desks from IRD were delivered to a primary school in Baghdad and discarded (photo by
      Combined Consultancy Company for Legal and Economic Investment Consultation LLC of Karradah,
                                    Baghdad, under contract with OIG).

There were some notable improvements, such as             In 2009, USAID approved IRD¶s request of a
the creation of community action groups and the           57 percent reduction in projects in order to
completion of 51 projects. However, most                  reduce the number of small, supply±type projects
completed projects did not target the identified,         (such as providing student desks, office
prioritized needs of the communities. In fact, of         equipment, and toys to kindergartens). However,
146 completed projects surveyed, 50 (34 percent)          out of more than 500 projects IRD completed by
did not match any needs identified by the                 2011, more than 50 percent were supply±type
neighborhoods and 45 others (31 percent) did              and over 60 percent were funded for less than
not match the first or second priorities. In              $25,000. OIG found that IRD had a financial
November 2009, USAID/Iraq issued a notice of              interest in programming its projects to not exceed
material noncompliance to IRD for vacant key              $25,000 as it could collect overhead only for the
personnel positions and IRD¶s lack of                     first $25,000 of an individual subaward, and
programmatic progress.                                    supply±type projects most easily fit within this
                                                          parameter. In contrast, other implementers on




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 20
                                           USAID Office of Inspector General

the project had between 7 and 25 percent of                   Rehabilitation Fund Inc. (WRF) approximately
projects under $25,000.                                       $10 million through two cooperative agreements
                                                              to implement the Landmines and War Victims
In addition, IRD reported that more than
                                                              Project. Under the project, WRF seeks to create
2.4 million Iraqis had benefitted from the
                                                              economic opportunities through viable
projects completed and material delivered. In one
                                                              businesses and jobs for disadvantaged victims of
case, IRD stated that 72,000 people benefited
                                                              war, including landmine survivors. The project
from the supply of vaccination and office
                                                              also seeks to create a viable, bankable, and
equipment valued at less than $800 dollars to a
                                                              sustainable legal organization through a
health center for allergic diseases. In another,
                                                              development cooperative in Jezzine, Lebanon
37,440 beneficiaries were reported from the
                                                              NQRZQDV³WKHFR±RS´
supply of office equipment valued at $4,875 to a
health center in Sadr City. OIG did not find it
plausible that IRD¶s activities, with projects worth
an estimated $11.8 million, could have directly
benefited half the city¶s population. Furthermore,
OIG determined that 31 percent of the value of
all IRD completed projects was programmed to
benefit just 2 of 36 neighborhoods, Baquba
Center and Khan Dhari.

OIG made ten recommendations to improve
ICAP, including requiring improvements for
projects with safety hazards, poor±quality work,
and potential overcharges. Management decisions
have been made on four.
                                                                The development cooperative in Jezzine sells
Audit of USAID/Lebanon·s Landmines                            these herbs, chicken products, and honey under
and War Victims Program (Report No.                               the brand B. Balady to various venues in
                                                                         Lebanon (photo by OIG).
6²268²12²004²P). Since June 1998,
USAID/Lebanon, with funding from the Leahy                    Although the project has had some successes in
War Victims Fund,10 has awarded the World                     providing income±generating opportunities to

10
  The /HDK\:DU9LFWLPV)XQGLVRQHRI86$,'¶V               particularly those who have sustained mobility±related
efforts to provide a dedicated source of financial and        injuries from unexploded ordnance or antipersonnel
technical assistance for people living with disabilities,     landmines.


          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 21
                                         USAID Office of Inspector General

some beneficiaries, its sustainability is                   approval of subawards. Further, the mission
questionable because of the co±op¶s limited                 acquired 118 Saanen goats from France and
success. Between 2009 and 2010, WRF reported                mated them with local goats without examining
that 169 beneficiaries earned a total net income            the environmental consequences. As reported by
of $403,000. From the numbers of beneficiaries,             WRF, some Saanen goats were infected by
the average annual income targets earned                    bluetongue disease, which affected all goats
through the project was $2,400 per beneficiary,             throughout Europe during 2008.
but only 64 of 169 beneficiaries (38 percent) met
                                                            OIG made 14 recommendations. Management
or exceeded their expected net income.
                                                            decisions have been made on 12, and final action
Furthermore, WRF reported that the co±op did
                                                            has been taken on 8.
not generate profit without the mission¶s
assistance for 4 of 8 years of its operation                                 Democracy
(beginning in 2003) and experienced an average
annual net loss of approximately $8,800.                                   Good Governance

                                                            Review of Responses to Internal Audit
                                                            Findings on the Local Governance and
                                                            Community Development Project
                                                            (Report No. F²306²12²001²S). Launched in
                                                            October 2006, the Local Governance and
                                                            Community Development Project (LGCD)
                                                            sought to promote stability in Afghanistan.
                                                            Focused in Kandahar City and the Maywand
 Goats like this one belong to a project beneficiary in     District, DAI implemented the project through a
Jezzine who sell their meat and dairy products (photo
                       by OIG).                             $349 million contract that ended in August
                                                            2011.11
Other problems stemmed from project
management at the mission. The mission
                                                            11
                                                              As reported in our previous semiannual reports to
awarded funds to WRF from June 1998 to                      the Congress, DAI, the USAID contractor managing
August 2012, more than 10 years beyond the                  LGCD, terminated multiple employees because of
                                                            information revealed by ongoing internal
agreement¶s original award date and without the
                                                            investigations being conducted in conjunction with
required approval of USAID Office of                        OIG. USAID also has debarred several former DAI
Acquisition and Assistance. The mission also did            employees who were implicated in misconduct,
                                                            including solicitation of kickbacks and conflicts of
not obligate project funds appropriately or seek            interest.


          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 22
                                       USAID Office of Inspector General

The project had many successes, including the             accounts, lease payments needed to be in cash.
completion of more than 2,500 community                   OIG found no documentation showing that the
stabilization projects; generation of immediate           lessors had signed for receipt of their monthly
short±term employment totaling 1.5 million                rents.
employment days through cash±for±work
                                                          Furthermore, OIG determined the contract files
activities; and completion of significant and
                                                          for three vehicle leasing companies lacked
lasting improvements in rural infrastructure,
                                                          preaward documents, bid solicitations, other
including gravel roads, footbridges, and irrigation
                                                          vendors¶ quotations, and approvals from DAI
systems. However, in March 2011, OIG received
                                                          procurement managers. In one incident, a bid
a copy of a DAI internal audit report detailing
                                                          submitted for one procurement (to provide
financial and internal control problems occurring
                                                          armored and unarmored vehicles) was copied and
from August 2008 through August 2009. DAI
                                                          included as proof of competitive bidding in
had not provided this report to USAID or
                                                          another procurement, and correction fluid had
returned any funds related to questioned
                                                          been used to obscure relevant information.
expenditures identified in the report.
                                                          DAI staff members were also unable to locate the
Procurements for the project, including service
                                                          contract file, payment vouchers, or project
contracts, fuel supply, and building and vehicle
                                                          receipts for fuel purchases totaling more than
leasing had several deficiencies. For instance,
                                                          $3 million from Khyber Afghan Petroleum, one
analysis of payment vouchers and the associated
                                                          of DAI¶s suppliers. DAI staff had no explanation
procurement documents revealed more than
                                                          for this lack of documentation.
$2 million in noncompetitive procurements. In
addition, OIG¶s review of leases for office space         OIG made seven recommendations and
and guesthouses, at an amount of $6.7 million             identified $6.6 million in questioned costs.
over 4½ years, revealed that project personnel            Management decisions have been made on all
had entered into several leases without the               seven recommendations.
required competition, and without required
                                                          Audit of USAID/Regional Development
approvals. In addition, some rental payments
                                                          Mission for Asia·s Sapan Program in
were apparently made to the project cashier,
                                                          Thailand (Report No. 5²493²12²004²P).
instead of to the lessors identified in the lease
                                                          In March 2010, USAID awarded a 3±year,
agreements. DAI staff explained that because
                                                          $19.7 million contract to Development
many of the property owners did not have bank
                                                          Alternatives, Inc., to foster a constructive civil
                                                          society engagement with the Royal Thai


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 23
                                       USAID Office of Inspector General

Government. The program faced numerous                    just 5 months but did not modify the established
challenges, including having to recreate                  12±month targets accordingly. Even though the
relationships with the targeted independent               program had a more cautious start than
government agencies and civil society                     anticipated, the lack of reportable achievements,
organizations (CSOs). These challenges delayed            compared with these 12±month targets, was
implementation, forcing program officials to take         exacerbated by the shortened time frame. This
a more cautious approach.                                 misalignment cast a particularly negative light on
                                                          the program, and OIG found that it may inhibit
Despite several difficulties, mostly outside the
                                                          appropriate management decision making about
mission¶s control, OIG determined that USAID
                                                          whether to extend the program. The mission¶s
had made some limited progress in achieving the
                                                          ability to make decisions is further impaired by
program¶s goals. Originally, USAID envisioned
                                                          delays in its receipt of reported results from the
working with a core group of CSOs in different
                                                          contractor.
regions of Thailand that would then reach out to
a larger pool of organizations. Program                   Reporting challenges also occurred in the
representatives soon found out, however, that             training program. According to one contractor,
Thailand¶s CSOs were far less developed than              documentation was lacking because of confusion
they anticipated. To adapt to this situation, an          as to whether the contractor or the externally
empowerment training course called OPERACY                hired trainer should perform the monitoring. As
was begun to introduce new ideas to potential             a result, OIG found 27 percent of the training
program participants, increase their exposure to          courses to be unsupported by daily attendance
USAID, and enhance their receptiveness to                 documents, and 40 percent showed a daily
technical capacity±building efforts. Following the        absence rate up to 32 percent. Some participants
training course, however, the mission did not             who did not attend the training sessions were
appear to have followed up with participants to           also paid for lodging and per diem as a result of
emphasize the key messages incorporated in the            this deficient monitoring.
training nor to initiate any technical skill
                                                          Management decisions were made on all nine
building.
                                                          recommendations, and final action was taken on

Another issue stemmed from inadequate                     four.

program reporting. In an effort to synchronize            USAID Subcontractor Billed Haiti
the reporting of program results with the                 Mission $31,408 in Unallowable Costs. As
mission¶s reporting to Washington, the Agency             reported in our previous semiannual report,
shortened the second annual reporting period to           USAID awarded funds to the International

         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 24
                                       USAID Office of Inspector General

Foundation for Electoral Systems (IFES) to                agreement with IFES, totaling $36 million, for
provide support for the electoral process in Haiti.       the following 3 fiscal years.
Through a subaward, IFES awarded $132,550 to
                                                          The program and UNAMI provided technical
Foyer Civique de la Jeunesse Haitienne
                                                          assistance to Iraq¶s Independent High Electoral
(FOCIJH) to purchase equipment and provide
                                                          Commission (IHEC) to conduct elections in Iraq
electoral outreach. An investigation revealed that
                                                          and to build a sustainable electoral institution
the president of FOCIJH created false invoices
                                                          that would require minimal international
from nonexistent vendors as supporting
                                                          assistance. OIG determined that the program did
documentation to receive payment from the
                                                          provide assistance to conduct elections. For
USAID/Haiti mission. OIG coordinated with
                                                          example, the program provided assistance in
the Haitian National Police and the Bureau des
                                                          establishing the voter registration and polling
Affairs Financiers et Economiques, who arrested
                                                          center databases, as well as databases to tabulate
the president. As a result of the investigation and
                                                          election results, register political parties, track
referral, the mission requested a billing offset to
                                                          complaints, and maintain candidate information.
recover the funds, and the president of FOCIJH
was suspended indefinitely from doing business            However, all parties acknowledged that although
with the United States Government.                        technical assistance provided during elections did
                                                          build capacity to some extent, IHEC is not
Audit of USAID/Iraq·s Electoral Technical
                                                          sustainable at this point and needs more
Assistance Program (Report No. E²267²
                                                          assistance before it can stand on its own
12²003²P). To help strengthen the Iraqi
                                                          operationally, administratively, and financially.
electoral system, USAID/Iraq entered into a
                                                          For instance, the program focused on the
cooperative agreement, totaling $40 million, with
                                                          immediate election cycles instead of devoting
the International Foundation for Electoral
                                                          sufficient attention to building IHEC¶s
Systems (IFES) to implement the Electoral
                                                          institutional capacity and organizational
Technical Assistance Program. The program was
                                                          sustainability. As a result, IHEC did not have a
intended to coordinate and work closely with the
                                                          strategic plan to become sustainable.
United Nations Assistance Mission in Iraq
(UNAMI) to establish and strengthen the Iraqi             The organization still lacks a reliable voter
electoral system. The agreement covered the               registration system, permanent staff, up±to±date
period of September 2004 to September 2011.               computer equipment, plans for training and
After the program started, USAID/Iraq increased           outreach, financial transparency, and political
funding to $103 million and signed a follow±on            independence²all prerequisites for



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 25
                                      USAID Office of Inspector General

sustainability. Training to develop necessary skills     For the USAID/Egypt contracts reviewed, there
to build a professional electoral administration         was no indication that the mission¶s contractors
was neglected at the 18 Governate electoral              and subcontractors engaged in trafficking of
offices, further hindering sustainability.               persons. In addition, the mission has taken steps
                                                         to comply with the Agency¶s Counter Trafficking
In addition, IFES did not coordinate with
                                                         in Persons Code of Conduct, including
UNAMI to identify the institutional gaps within
                                                         designating a mission coordinator, providing
IHEC, such as financing, procurement, and
                                                         training to employees and implementers, and
human resources. Further, the mission also does
                                                         ensuring that newly hired employees are aware of
not know whether the two duplicated efforts or
                                                         the code.
gave conflicting advice, either of which would
have prevented the efficient use of program              However, 60 percent (9 of 15) of USAID/Egypt¶s
funds.                                                   active contracts, valued at $130.5 million, did not
                                                         include the required Federal Acquisition
OIG made 11 recommendations. Management
                                                         Regulation (FAR) clause13 related to trafficking in
decisions were made on eight, and final action
                                                         persons. Because the mission did not verify that
was taken on three.
                                                         the FAR clause related to human trafficking was
        Rule of Law and Human Rights                     included in some of its contracts, at least one
                                                         contractor and many contracting officers¶
Review of USAID/Egypt·s Contractors·
                                                         representatives were not aware of the U.S.
Compliance With the Trafficking Victims
                                                         Government¶s policy on human trafficking or the
Protection Reauthorization Act of 2008
                                                         related FAR requirements.
(Report No. 6²263²12²001²S). From 2010
through 2012, the William Wilberforce                    Management decisions have been reached on all

Trafficking Victims Protection Reauthorization           four recommendations.

Act of 2008 (the Wilberforce Act)12 requires OIG
                                                         Audit of USAID/Cambodia·s Program on
to investigate contracts and subcontracts under          Rights and Justice II (Report No. 5²442²
which there is a high risk that the contractor may       12²003²P). After decades of conflict, Cambodia
engage in acts related to trafficking in persons
                                                         is experiencing peace and strong economic
(TIP). As of September 2011, USAID/Egypt had
                                                         growth that has lifted many Cambodians out of
15 active contracts valued at approximately
$192 million.                                            13
                                                           FAR 22.17 and 52.222±50, both entitled
                                                         ³&RPEDWWLQJ7UDIILFNLQJLQ3HUVRQV´require that
                                                         specific language related to combating trafficking in
12
     Public Law 110±457.                                 persons be incorporated in all contracts.


           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 26
                                      USAID Office of Inspector General

poverty. Fundamental improvements in                     rights violations, government land concessions,
governance, however, are still needed to secure          and other information.
the country¶s democratic transition and to
                                                         Program±supported activities also contributed to
provide a better future for the Cambodian
                                                         the production of a television serLHVFDOOHG³6FDOHV
people. USAID/Cambodia signed a $20 million
                                                         RI-XVWLFH´which seeks to provide the public with
cooperative agreement with the East±West
                                                         information on legal rights and procedures. In
Management Institute, Inc., to implement the
                                                         addition, the program worked to improve court
Program on Rights and Justice II,14 between
                                                         administration. A database of Supreme Court
October 2008 and September 2013.
                                                         judgments from 1996 to 2006, created under the
The program has been successful in improving             program, is the first such system available to legal
the collection of and access to Cambodian justice        professionals and academics in Cambodia.
system data, improving legal education, and
                                                         Further, the program has provided grants totaling
promoting transparency within the system. For
                                                         approximately $1.4 million to six local partners
instance, the implementer launched the Justice
                                                         who provide legal aid to indigent clients. Because
Documentation Training Program, an intensive
                                                         of this financial support, the legal aid providers
6±month training series designed to develop
                                                         have been able to work on more than 4,000 cases
Ministry of Justice (MOJ) staff skills. Program
                                                         involving almost 17,000 beneficiaries.
activities included the creation of several
databases, including a Justice Statistics Database       However, OIG noted a lack of established end±

to track court information, as well as an MOJ            of±program targets, and the implementer¶s

Trafficking Database that tracks all human               quarterly progress reports failed to show the

trafficking prosecutions in the country. Use of          progress achieved against the end±of±program

the latter database reportedly resulted in a             targets that had been established.

200 percent increase in documented trafficking
                                                         OIG made two recommendations, and
prosecutions and convictions, prompting the
                                                         management decisions have been made on both.
MOJ to request a similar database for tracking
criminal cases. The program also created a Web±
based database that tracks and maps human


14
  Program on Rights and Justice II carries out
activities similar to those implemented under the
original Program on Rights and Justice, implemented
by East±West Management Institute, Inc., from 2003
to 2008.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 27
                                      USAID Office of Inspector General

             Economic Growth

Audit of USAID/Pakistan·s Energy
Efficiency and Capacity Program (Report
No. G²391²12²002²P). To help address
power blackouts and other severe supply
shortages, USAID/Pakistan awarded a 3±year,
$23.5 million contract in March 2009 to the
International Resources Group to focus on
training in the energy sector and on a variety of
conservation activities throughout Pakistan.

In April 2010, in response to a shift in U.S.
Government strategy, the mission modified the               Irrigation water flows from a USAID±provided
                                                              pump in Punjab Province (photo by OIG).
program¶s goal to focus on reducing energy
demand through an activity to improve the                This shortfall was a result of multiple problems,

efficiency of tube wells. This activity was designed     including the mission¶s setting unrealistic goals

to replace irrigation pumps used by farmers with         and budgets. For example, the mission budgeted

more energy±efficient models.                            almost $1,500 per pump but actually paid almost
                                                         $9,000. In addition, partners and beneficiaries
In the first year of the program, OIG found that
                                                         often did not participate as intended. The
the mission had not achieved the majority of its
                                                         regional energy distribution company, a key
targets, which were intended to help with energy
                                                         partner, did not fully support the program, and
conservation and efficiency projects, to upgrade
                                                         farmers would not pay the additional costs of
equipment, and to conduct training.
                                                         installing the pump, including masonry and

After the shift in strategy, the mission planned to      electrical work.

install 11,000 energy±efficient irrigation pumps.
                                                         Management decisions have been reached on two
Although a pilot phase determined that the
                                                         recommendations, and final action has been
activity was unlikely to succeed, the mission
                                                         taken on one.
proceeded with the program. By September 2011,
fewer than 1,000 pumps, or 9 percent, had been           Audit of USAID/Pakistan·s Firms Project

installed.                                               (Report No. G²391²12²001²P). To help
                                                         improve Pakistan¶s economic stability,
                                                         USAID/Pakistan awarded a 4±year,


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 28
                                       USAID Office of Inspector General

$89.8 million contract to Chemonics                       site visits to the project. Consequently, the
International to implement the Firms Project. In          mission did not discover several problems in the
2010, 14 months after the project began, USAID            process.
modified the project goal to promote economic
                                                          OIG made nine recommendations, including
development in vulnerable areas as an alternative
                                                          determining the allowability of more than
to extremism.
                                                          $1.3 million in questioned costs. Management
Despite the mission¶s attempt to increase sales           decisions have been made on eight
and employment in a number of sectors²                    recommendations, and final action has been
leather, livestock, textiles, dates, and mangoes²         taken on five.
project activities did not increase sales or
                                                          USAID Issues a $336,603 Bill for
employment. Efforts to boost sales and jobs were
                                                          Collection to CHF International for Fraud
stalled, and activities to improve competitiveness
                                                          and Theft in a Livelihoods Project in the
through economic policy reform were behind
                                                          Federally Administered Tribal Areas of
schedule, in part because shifts in the mission¶s
                                                          Pakistan. The Pakistan Branch of the
strategy resulted in the cancellation of activities.
                                                          Cooperative Housing Foundation (CHF), a
In addition, the mission did not set realistic
                                                          prime USAID implementing partner, received a
targets. Though tasked with working with the
                                                          5±year, $150 million cooperative agreement for
Government of Pakistan to enact regulatory
                                                          the FATA±Livelihoods Development Program.
reform, Chemonics is not expected to achieve
this goal by 2013. According to Chemonics,                In April 2008, the organization entered into a
regulatory reform is a long±term process that             subcontract with ABT Associates, Inc., to
takes 10± to 12±years because of all the                  undertake a US $6 million cash±for±work tree
stakeholders involved.                                    planting program in the FATA to create job
                                                          opportunities for youth and locally unemployed
Although a performance management plan was
                                                          individuals. In turn, ABT sought competitive
approved by the mission, it did not comply with
                                                          bids from vendors to supply the tree saplings
Agency standards. In addition, sales and
                                                          needed. As a result of allegations made to OIG,
employment figures were overstated, and
                                                          CHF conducted an audit of the program.
methods for collecting data were inconsistent and
unreliable. Further, the contracting officer¶s            The independent auditors determined that, of
representative did not provide sufficient                 the 2.2 million trees contracted to be planted,
monitoring and oversight, especially of the               only 1.2 million trees were documented as
procurement process, and did not conduct any              purchased. In addition, three of the five vendors


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 29
                                     USAID Office of Inspector General

that ABT selected through the competitive bid           By funding operational costs, the project has
process to procure saplings were owned and              enabled ATVI and KVO to continue conducting
controlled by the same family. The investigation        vocational training. In addition, the project has
substantiated that USAID funds were lost as a           trained staff at ATVI and KVO in financial
result of theft, overpayment, fraud and                 management, procurement, and reporting.
mismanagement by ABT Associates. USAID                  However, after 16 months, little evidence exists
directed CHF to submit a reimbursement check            that the project has made progress toward
for $336,603.                                           strengthening the overall technical capacity of
                                                        these institutions or empowering youth.
Audit of USAID/Afghanistan·s Skills
Training for Afghan Youth Project                       7KH³GHVLJQDQGEXLOG´VWUDWHJ\XVHGIRUWKH
(Report No. F²306²12²002²P). In April                   project, which was incorporated in the
2010, USAID awarded the Education                       cooperative agreement program description,
Development Center (EDC) a $49.9 million, 3±            allowed EDC to design and present its
year cooperative agreement to design and                implementation plan to USAID for approval
implement the Skills Training for Afghan Youth          after the award. However, the STAY program
Project (STAY). An important element of the             description included in the cooperative
project is providing financial and technical            agreement was loosely defined and largely
assistance to two Afghan vocational skills training     illustrative, and there was little to demonstrate
centers: the Afghanistan Technical Vocational           that USAID and EDC agreed on key elements of
Institute (ATVI) and the Kunar Vocational               the design. Further, USAID and EDC differed
Organization (KVO).                                     on whether the design had been approved and on
                                                        what specific activities were to be implemented
                                                        during the second phase. OIG determined that
                                                        without a clearly defined program description
                                                        outlining USAID¶s expectations for results and a
                                                        mutual understanding of an approved design, the
                                                        project is less likely to implement activities that
                                                        contribute to the overall goals of the mission.


  A carpentry student works at Kunar Vocational         The program description also did not clearly
Organization in Shigal, Laghman Province (photo by      communicate the project¶s purpose, goals,
                        OIG).
                                                        objectives, priorities, and activities. In fact, a
                                                        report by an education specialist who assessed the


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 30
                                        USAID Office of Inspector General




   The Kamanga suspension footbridge in Sultan Kudurat Province, Philippines, at left, gives villagers, including
schoolchildren, a safe and convenient means of crossing a stream they previously had to cross via a dirt trail shown at
                                              right (photos by OIG).

project in May 2011 noted that the mission could              22 million people, or approximately one±fifth of
aid program progress by clearly articulating its              the total Philippine population.15 About
priorities to EDC and that it should address key              20 percent of Mindanao¶s inhabitants are
issues such as what deliverables are of critical              Muslim, many of whom live in a region known as
importance, what targets are acceptable, and                  the Autonomous Region in Muslim Mindanao,
which program areas should be prioritized for                 created by the Philippine Government in 1989.
implementation. These factors contributed to the              Since 1996, the Growth with Equity in
lack of a clear purpose, goals, objectives,                   Mindanao (GEM) Program has been
priorities, and activities in the project.                    USAID/Philippines¶ flagship activity in
                                                              Mindanao and is the largest program in the
OIG made four recommendations. Management
                                                              mission¶s portfolio. Originally conceived as a 5±
decisions were made on all four, and final action
                                                               year program, GEM is now in its 15th year. The
has been taken on two.
                                                              current program (known as GEM±3) is being
Audit of USAID/Philippines· Growth with                       implemented by the Louis Berger Group, Inc.
Equity in Mindanao (GEM²3) Program
                                                              OIG determined that the GEM±3 program was
(Report No. 5²492²12²002²P). The
                                                              generally achieving its objectives. The program
southern Philippines island of Mindanao,
including the Sulu Archipelago, is the country¶s
                                                              15
                                                                The Philippines in Figures 2011, The Republic of the
second largest island and is home to almost                   Philippines National Statistics Office.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 31
                                        USAID Office of Inspector General

was not expected to achieve anywhere near the              many of the program¶s smaller barangay
level of outputs originally envisioned in its              infrastructure projects were running behind
contract for a number of its activitiesʊpartly             schedule. Auditors also noted supply problems
because the program¶s authorized funding level             that hindered the success of the program¶s
was reduced from approximately $126 million to             aquaculture producers.
$98.9 million. Nevertheless, through its diverse
                                                           Management decisions have been made on all
activities, the program has benefited tens of
                                                           four recommendations, and final action has been
thousands of people living in the conflict±
                                                           taken on two.
affected areas of Mindanao. Among other things,
the program¶s efforts have resulted in improved            Audit of USAID/Jordan·s Design for
infrastructure at the barangay (village) level,            Sustainability in its Water Resources
better access to local markets, higher incomes for         Program (Report No. 6²278²12²002²P).

farmers (including former combatants), increased           Jordan faces a severe water shortage because of
domestic shipments and international exports of            depletion of nonrenewable water resources and
targeted aquacultural and agricultural                     projected population growth. Accordingly,
commodities, the provision of computers and                USAID/Jordan entered into an agreement with
Internet connectivity to a number of high                  the Government of Jordan to improve water and
schools, and improved English proficiency among            wastewater infrastructure, water conservation and
college students preparing to enter a competitive          efficiency, and policy. The mission obligated
labor market.                                              approximately $186 million to enhance the
                                                           productivity of agriculture per unit of water,
                                                           support new initiatives to reuse wastewater,
                                                           improve water efficiency, promote multiple uses
                                                           of water, and provide solutions to address water
                                                           quality and conservation.
At the Basilan Aquamarine Products Cooperative on
 Basilan Island, fish cages had been sitting empty for     As of July 2011, USAID/Jordan had developed
months while waiting to be restocked with additional       19 water projects that included water and
fingerlings that were on order from the fish hatchery
                    (photos by OIG).                       wastewater infrastructure, water reuse and
                                                           environmental conservation, water demand
However, the audit disclosed that a number of
                                                           management, community±based initiatives for
the program¶s regional infrastructure projects did
                                                           water demand management, construction supply,
not fully meet prescribed criteria and were
                                                           and information technology master plans.
smaller in scale than what was envisioned, while


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 32
                                      USAID Office of Inspector General

USAID/Jordan¶s water program has achieved                Instead, the mission¶s Water Resources and
notable successes. For example, the construction         Environment Office strategy has focused on
of a desalination plant, a water demand project,         funding water projects valued at approximately
and a community±based initiative for water               $212 million for the urban and industrial sectors
demand management, designed to increase the              during fiscal year 2011. According to mission
availability of water and improve water efficiency,      officials, the mission did not design projects that
have benefited more than 1 million people in the         would include Jordan¶s agriculture sector because
cities of Amman and Jerash.                              of a lack of government support from both
                                                         Jordan and the United States to enforce
However, despite the successes achieved by the
                                                         agriculture sector policy reforms that have been
mission, some of the mission¶s projects to assist
                                                         politically unfavorable.
the Jordanian water sector may not be sustainable
after USAID funding ceases because the projects          In addition, mission staff did not complete
have not addressed Jordan¶s main water                   contractor performance reports because USAID¶s
management concerns²specifically, water                  Office of Acquisition and Assistance (OAA) did
consumption by Jordan¶s agriculture sector.              not train the staff on the Agency¶s new
Although the agriculture sector is the largest           Contractor Performance Assessment Reporting
consumer of Jordan¶s water supply, the mission           System. Moreover, although it has been more
does not have any current projects that address          than a year since OAA launched the new system,
this sector¶s water use.                                 mission staff members have no access to the
                                                         system, and the former regional contracting
                                                         officer has not requested training and does not
                                                         know when OAA will provide the necessary
                                                         training for mission staff.

                                                         Management decisions have been made on all
                                                         seven recommendations.

                                                         Audit of USAID/Morocco·s Economic
                                                         Competitiveness Project (Report No. 7²
                                                         608²12²002²P). The Government of Morocco

 Water passes through reverse osmosis membranes          seeks to increase competitiveness in its leading
 that are used to remove dissolved impurities from
                                                         sectors²energy, fisheries, industry, commerce,
water at the Zara Ma¶in Desalination Plant (photo by
                       OIG).                             agriculture, and tourism²to continue growth



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 33
                                         USAID Office of Inspector General

and reduce unemployment, especially among                   partners. For the sustainable water use for
young Moroccans. Under the current strategy,                agriculture component, activities generally have
the USAID/Morocco economic growth portfolio                 been proceeding smoothly, and strong results are
includes five projects with total estimated                 expected soon.
funding of approximately $30 million. The
                                                            OIG made 12 recommendations, and
Morocco Economic Competitiveness Project
                                                            management decisions have been reached on all
(MECP) represents about 90 percent of the
                                                            of them. Final action has been taken on six.
mission¶s economic growth portfolio and
provides technical assistance to improve                                      Education
Morocco¶s economic enabling environment,
                                                            Nine Education Officials Suspended for
primarily in the Oriental and Doukkala±Abda
                                                            Theft and Diversion of Commodities
regions.
                                                            From Food for Education Program in
Even though the majority of the project¶s                   Pakistan. The United Nation¶s World Food
activities were still in their early stages of              Programme (WFP) Food for Education Program
development, OIG found that the project likely              gives parents an incentive for their children,
will not achieve its expected results. Inadequate           especially girls, to attend school by providing one
communication has led to project delays, as well            can of fortified cooking oil to each student who
as continued disagreement between USAID and                 meets monthly attendance requirements.
the implementer, DAI, about which tasks to
                                                            After receiving complaints through the Anti±
implement and how and when they should be
                                                            Fraud Hotline and coordinating with USAID
accomplished. OIG found other areas that
                                                            OIG, WFP dispatched a monitoring team to
needed improvement, such as training to produce
                                                            Sindh Province, reviewed documentation, and
commodities, the inclusion of women and youths
                                                            conducted interviews with the students and
in training activities, and performance indicator
                                                            community members. WFP field monitoring
development and approval.
                                                            visits revealed numerous instances of
Despite these problems, the mission and DAI                 documentation falsified by schools participating
reported that other activities have been making             in the program and 50 district warehouses, as
progress and that project management has                    well as instances in which students who should
improved. USAID and DAI have developed good                 have, but did not receive cooking oil.
relationships with their partners, which are                WFP field monitoring personnel also learned
essential because MECP requires collaboration               that one school participating in the program was,
from many national, regional, and local                     in fact, a private residence. WFP was able to

           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 34
                                     USAID Office of Inspector General

recover the amount spent on cooking oil for this        number of colleges and universities offering the
location from a participating organization. Nine        new degrees over the next 2 years by supporting
education officials²including teachers,                 their implementation at target colleges and
headmasters, and warehouse personnel²were               universities and expanding the number of
suspended.                                              students enrolled in the new degree programs.

Audit of USAID/Pakistan·s Pre²Service                   Despite the progress in developing and
Teacher Education Program (Report No.                   implementing policy reforms at the provincial
G²391²12²004²P). To improve teacher                     and national levels, the program did not achieve
education in Pakistan, in September 2008                most of the set targets. For example, USAID
USAID/Pakistan awarded a $37 million                    funded only 410 of 2,297 planned scholarships
cooperative agreement to Academy for                    to students enrolled in the new teaching
Educational Development (AED) to implement              curriculum and only distributed 10 of
the Pre±Service Teacher Education Program               36 planned research grants with an average value
(Pre±STEP). After the Government of Pakistan            of $9,000 to teaching institutions in 2011. These
terminated its memorandum of understanding              shortfalls occurred in part because key personnel
with AED, USAID canceled the cooperative                hired to manage the program did not have the
agreement as well and awarded the program to            necessary management skills. Another
Education Development Center, Inc. (EDC).               contributing factor occurred when the mission
                                                        terminated its agreement with AED and awarded
In its first 3 years, the program made progress
                                                        the new agreement to EDC. Even though the
toward achieving improved teacher education by
                                                        mission awarded the new agreement the day after
developing and helping the Pakistani
                                                        terminating the AED agreement, EDC still
Government implement education policy
                                                        needed time to hire additional staff, find new
reforms. The Higher Education Commission
                                                        office space, develop work plans, and establish
approved two new education degree programs
                                                        internal controls.
based in part on Pre±STEP recommendations.
These programs, introduced with USAID¶s                 In addition, the mission¶s technical office had
support, should ultimately affect teacher training      many competing priorities and lacked time to
colleges and universities throughout Pakistan and       provide adequate oversight. During the period
help improve the overall quality of education. In       under review, the mission assigned one
part because of Pre±STEP¶s efforts, 16 Pakistani        agreement officer¶s representative to manage Pre±
teaching institutions have adopted the new              STEP¶s $75 million agreement. This individual
degree programs. Pre±STEP plans to increase the         was assigned to manage three other projects


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 35
                                     USAID Office of Inspector General

whose average budget was $9 million. This               as how to track the contributions higher
situation contributed to the failure of achieving       education makes to international development.
targets.                                                Positive contributions were also made in
                                                        addressing violence and social disintegration
OIG made two recommendations, and
                                                        along the U.S.±Mexico border through
management decisions have been made on both.
                                                        community outreach activities. For instance,
Audit of Selected Activities Under                      HED conducted community outreach activities
USAID·s Higher Education for                            along the U.S.±Mexico border. At±risk youths in
Development Program (Report No. 9²                      grades 6 through 12 who live in low±income
000²12²003²P). In October 2005, USAID¶V                neighborhoods of Ciudad Juarez participated in
Bureau for Economic Growth, Agriculture and             three afterschool sessions per week, integrating
Trade (USAID/EGAT) awarded a 5±year,                    sports and related social skills with academic
estimated $319 million cooperative agreement to         instruction and visits to cultural organizations in
the American Council on Education (ACE) to              the city.
implement the Higher Education for
                                                        Despite these positive outcomes, OIG revealed
Development Program (HED). In September
                                                        that USAID/EGAT needs to strengthen its
2010, USAID/EGAT extended HED¶s period of
                                                        monitoring of HED activities to ensure that
performance by 5 years and increased the
                                                        intended results are being achieved. For instance,
estimated cost by $17 million, bringing the total
                                                        USAID/EGAT, ACE, and the mission did not
to $336 million. As of March 2011, HED
                                                        make enough site visits to monitor HED¶s
managed 69 active higher education partnerships
                                                        activities effectively. In addition, the agreement
in 30 countries involving 71 host±country and 54
                                                        officer¶s representative responsible for
U.S. higher education institutions. USAID¶s
                                                        monitoring HED did not effectively carry out all
Latin America and the Caribbean Region had
                                                        of his responsibilities. There was no performance
nearly half the partnerships, followed by Sub±
                                                        management plan, which led to several problems
Saharan Africa and the Asia and Near East,
                                                        including ACE¶s ability to establish a consistent,
Europe, and Eurasia regions.
                                                        reliable system of data collection. Further, the
OIG confirmed that HED has had some success             agreement officer¶s representative gave advice to
in improving human and institutional capacity           ACE that was misguided and contrary to USAID
development in host±country institutions. HED           policy directives. In May 2010, the individual
was effective in bringing stakeholders and higher       gave ACE approval to issue subawards to three
education experts together to discuss ideas such        partnerships regardless of the uncertainty of



           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 36
                                        USAID Office of Inspector General

funding. As a result, USAID entered into an                Despite the need to track the achievements of key
unauthorized commitment totaling $3.3 million.             program activities, the mission and implementing
                                                           partner did not formally track or report on the
OIG made 14 recommendations. Management
                                                           program¶s most significant activity, voucher
decisions were made on all of them, and final
                                                           distribution. As a result, the mission did not
action was taken on three.
                                                           know how many people were receiving or
               Food Security                               redeeming vouchers and therefore could not
                                                           measure how many beneficiaries were actually
Audit of USAID/Tajikistan·s Productive
                                                           receiving assistance.
Agriculture Program (Report No. 5²119²
12²001²P). In 2009, USAID/Central Asian                    Another issue was that the vouchers would

Republics awarded a 5±year, $9.8 million                   sometimes be delivered too late for farmers to

contract to ACDI/VOCA to assist in the                     use, often just weeks before they were due to

development of the agriculture sector of                   expire. Farmers who did receive the vouchers

Tajikistan and to increase the productivity of             sometimes did not understand the purpose of

traditional agricultural crops.                            them and, as a result, used some materials
                                                           incorrectly. Further, more than half of the
OIG found that the program has made some
                                                           beneficiaries interviewed failed to meet certain
progress toward increasing the productivity and
                                                           guidelines for participation in the program. In
profitability of traditional crops, such as onions,
                                                           addition, the reported number of people who
tomatoes, watermelons, lemons, and apricots. In
                                                           participated in training activities was not reliable
addition, the material provided through the
                                                           and contained multiple and duplicative entries,
voucher program²i.e., certified seed, complex
                                                           which inflated the program¶s numbers.
fertilizer, and pesticides²has been well received.
Farmers interviewed during the audit voiced                Grants made through the credit and investment

appreciation for the training provided as well.16          activity were also problematic. This part of the

However, even with these moderate successes, the           program was meant to increase beneficiaries¶

program has serious problems with monitoring               access to credit and to help them with purchasing

and evaluation.                                            items like tractors. However, despite the
                                                           program¶s $11.6 million end±of±program target,
                                                           only about $95,000 in loans had been made at
                                                           the time of the audit, partly because the review
16
  The program also offers training on improved             and approval process for farmer and agribusiness
cultivation techniques, the application of fertilizers
and pesticides, and post±harvest handling techniques.      grant applications was too slow.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 37
                                      USAID Office of Inspector General




 A farmer tends a program±sponsored demonstration plot in Tajikistan showing the effects that different fertilizers
                        have on tomato plants grown with certified seed (photo by OIG).

Some farmers and agribusinesses had waited                   Programme (CAADP).17 USAID/Sierra Leone
months²if they heard anything at all²before                  aligned its assistance to Sierra Leone with
learning about the status of their applications or           CAADP goals through the 4±year, $13.2 million
before completing the financial package.                     cooperative agreement, Promoting Agriculture,
                                                             Governance, and the Environment (PAGE)
Management decisions have been reached on all
                                                             Program. A consortium of implementing partners
eight OIG recommendations.
                                                             led by ACDI/VOCA (Agricultural Cooperative
Audit of USAID/Sierra Leone·s                                Development International/Volunteers in
Agricultural Activities (Report No. 7²                       Overseas Cooperative Assistance), which
636²12²003²P). In hopes of building its                      included World Vision and Associates in Rural
agricultural sector, the Government of Sierra
Leone developed a country compact under the
                                                             17
Comprehensive Africa Agriculture Development                   Established in 2003, CAADP is a program under
                                                             WKH$IULFDQ8QLRQ¶V1HZ3DUWQHUVKLSIRU$IULFD¶V
                                                             Development.



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 38
                                       USAID Office of Inspector General

Development,18 started implementing PAGE in               though information was clearly stated in the
2008.                                                     cooperative agreement that World Vision would
                                                          share office space and resources with partners, it
OIG found that the program had a significant
                                                          was not in the subagreement between World
positive effect on the beneficiaries visited.
                                                          Vision and ACDI/VOCA. As a result,
Farmers and representatives praised the program
                                                          ACDI/VOCA had to relocate staff members and
for not only teaching them improved farming
                                                          open its own office.
and business techniques but also helping to
empower the women in their communities. The               This issue was just one of several conflicts among
audit team also met with representatives of               the partner and subpartners. USAID
marketing associations that had united hundreds           involvement helped resolve the most pressing
of farmers to combine yields and sell crops               issues, but the audit team noted that the
through bulk contracts to the United Nations              relationship among the implementers remained
World Food Program.                                       strained.

Although many successes were noted, OIG still             OIG made 14 recommendations, including
found multiple issues. In disbursing its budgeted         determining the allowability of over $800,000 in
funds, ACDI/VOCA focused little on program                questioned costs. Management decisions have
activities while overspending significantly on            been reached on 12.
administrative costs. Questioned costs include
                                                               Global Health and Health
travel reimbursements without receipts or
approval by the program, unreasonable amounts                                Systems
paid for lodging, payment of unnecessary taxes,
                                                                             HIV/AIDS
and payments made without official invoices. As
of July 2011, with 1 year of implementation               Audit of USAID/Southern Africa·s
remaining, ACDI/VOCA had expended about                   Regional HIV/AIDS Program in Lesotho
97.5 percent of its total funding; however, it had        (Report No. 4²632²12²001²P). In response
issued only $508,433 of the $1 million program            to Lesotho¶s HIV/AIDS epidemic, U.S.
budget allocated for grants to beneficiaries.             Government support through the President¶s
                                                          Emergency Program for AIDS Relief (PEPFAR)
Problems existed with communications and
                                                          has steadily increased, from $1 million prior to
relationships between partners. For instance,
                                                          2005 to $37 million in 2010. In partnership with
18
  In 2007, ARD was purchased by Tetra Tech, Inc.
                                                          the Government of Lesotho, USAID is
and subsequently changed its name to Tetra Tech
ARD.                                                      implementing multiple programs with the


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 39
                                      USAID Office of Inspector General

Elizabeth Glaser Pediatric AIDS Foundation,              Management decisions were made on four
Pact, IntraHealth, and John Snow, Inc., with             recommendations, and final action was taken on
obligated funds totaling almost $12 million.             one.

Although the programs have helped mitigate the           Audit of USAID/Democratic Republic of
impact of the HIV/AIDS epidemic in Lesotho,              Congo·s HIV/AIDS Program (Report No.
progress was hampered by deficiencies in the             7²660²12²001²P). In 2010, USAID obligated
implementation and supervision of several                $18 million for its HIV/AIDS program activities
activities. For instance, one of Pact¶s main             in the Democratic Republic of Congo. The
responsibilities was to strengthen local                 largest projects are ProVIC (Projet Intégré de
nongovernmental organizations (NGOs) and help            VIH/SIDA au Congo), begun in 2009 for
them to become more effective, sustainable               $44.9 million and implemented by a consortium
organizations. Despite the program¶s focus on            led by PATH, and the Advanced Social
smaller, local groups, several large international       Marketing for Health Program (ASMHP), also
NGOs were included as subgrantees, including             begun in 2009 for $22.8 million and
CARE, Catholic Relief Services, and Population           implemented by Population Services
Services International. These three NGOs are             International (PSI).
already prime implementing partners with
                                                         Although the programs were helping improve
USAID; including them was contrary to the
                                                         access to quality HIV/AIDS prevention, care,
purpose of the program and led to an increase in
                                                         and support services, they were not making a
overall costs.
                                                         measurable impact because USAID has not
Another issue with the activities was the lack of        adequately supervised the activities of the two
coordination and disagreements with other                implementing partners. For instance, PSI¶s social
health programs run by USAID and MCC. One                marketing program, which featured a condom
official from the Ministry of Health and Social          distribution campaign, was not well
Welfare said that the conflict and difficulties with     implemented. A lack of follow±up and
coordination compromised performance, limited            monitoring by USAID led to significant delays in
the effectiveness of the MCC program, and                receiving the condoms. Further, PSI made only
hindered the decentralization process.                   minimal marketing efforts to improve condom
Deficiencies in oversight were most likely due to        sales and failed to address competition from
USAID¶s high staff turnover and the extended             another brand.
vacancy of key positions such as the country
director.


            Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 40
                                       USAID Office of Inspector General

PATH has not been able to fulfill its obligation          its goals under the existing project, much less
concerning the procurement of HIV                         expand into another region.
commodities (e.g., test kits), a significant
                                                          Management decisions have been made on all
component of the project. Not having budgeted
                                                          12 recommendations, and final action has been
for these commodities, PATH used funding
                                                          taken on 6.
intended for other items in an attempt to meet its
obligations. The irregular, insufficient supply of        Audit of USAID/Southern Africa·s
test kits has had a significant negative impact on        Regional HIV/AIDS Program in Swaziland
the project and targeted communities. Some of             (Report No. 4²645²12²004²P). Swaziland
the project¶s testing sites were without supplies         faces the enormous burden of having the highest
for as long as 2½ months, and others closed               HIV/AIDS prevalence rate in the world²
because of the lack of test kits.                         estimated at about 26 percent in 2009,19²while
                                                          being in the midst of a fiscal emergency made
In addition, PATH poorly managed its local
                                                          worse by the global financial crisis. AIDS
partners. Although the program had been active
                                                          organizations are struggling to survive Swaziland¶s
for 19 months, the second round of agreements
                                                          growing financial predicament. For example, one
with local partners had not been finalized at the
                                                          of the oldest and largest organizations, the
time of the audit. The local partners were
                                                          Swaziland AIDS Support Organization²whose
operating under short±term agreements,
                                                          programs reach six out of ten Swazis needing
memorandums of understanding, or no
                                                          such services²is on the brink of closure.
agreements at all. Existing agreements were
vague, providing little or no detail as to what was       As a result, Swaziland is reliant on foreign aid,
expected from the local partners.                         receiving about $26.6 million in HIV/AIDS
                                                          funding from the U.S. Government alone in
Furthermore, PATH encountered problems
                                                          fiscal year 2010. USAID/Southern Africa,
regarding payments of salaries and other
                                                          through its Regional HIV/AIDS Program
operating expenses to some of its local partners.
                                                          (RHAP) Office, is one of several U.S.
As of April 2011, PATH had expended
                                                          Government agencies that support HIV/AIDS
approximately $9 million of the $45 million
                                                          activities in Swaziland. Three of the programs
contract and may receive $9 million more for
                                                          being supported by RHAP are Pact, the Southern
project expansion. Given the problems and
                                                          African Human Capacity Development Coalition
challenges it has encountered, OIG believes that
it is unlikely the program will be able to achieve        19
                                                            UNAIDS Report on the Global AIDS Epidemic 2010,
                                                          Joint United Nations Programme on HIV/AIDS.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 41
                                       USAID Office of Inspector General

(the Coalition) and John Snow Inc. for combined           unclear. Furthermore, the Coalition did not work
funding of $15 million.                                   side by side with the MOH to develop the system
                                                          to ensure that the information technology
OIG found that USAID/Southern Africa¶s
                                                          department and key personnel had a clear
HIV/AIDS activities partially achieved their goals
                                                          understanding of the system.
but had issues with data collection and
sustainability. For instance, USAID is supporting         Three recommendations have been made to
salaries for public sector health±care workers in         improve the program. Management decisions
Swaziland, including three positions in the               have been made on all three, and final action has
Swaziland Ministry of Health (MOH). However,              been taken on one.
no plan exists for shifting the salaries that the
                                                          Audit of USAID/Kenya·s Assistance to
U.S. Government supports to the payroll of the
                                                          Orphans and Other Vulnerable Children
Government of the Kingdom of Swaziland or a
                                                          (Report No. 4²615²12²002²P). Kenya, one
civil society organization because USAID does
                                                          of the 12 sub±Saharan African countries selected
not have reliable information to do so.
                                                          as focus countries during the first phase of
Therefore, there is a risk that health services
                                                          PEPFAR, has a large population of AIDS
currently provided by USAID will be
                                                          orphans. The 2009±2013 Kenya National AIDS
discontinued if U.S. Government funding is
                                                          Strategic Plan estimated that 2.5 million Kenyan
reduced. Furthermore, the absence of an effective
                                                          children under the age of 18 would be orphans
transition plan hinders the sustainability of
                                                          by 2010, approximately 700,000 of them
USAID¶s efforts in building public sector health±
                                                          (28 percent) as a result of AIDS. During fiscal
care capacity.
                                                          year 2010, PEPFAR provided support to orphans
In addition, the Coalition fell short of meeting          and other vulnerable children through
program objectives before terminating its                 partnerships with 23 implementing partners in
activities early in Swaziland. A USAID official           Kenya. These partnerships include the JHPIEGO
stated that the Human Resource Information                Corporation (an affiliate of Johns Hopkins
System developed by the Coalition was well                University), Family Health International (FHI),
under way, but how the system would feed into             and PATH, which were collectively awarded
another MOH human resource system was                     cooperative agreements valued at $120.9 million.




         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 42
                                       USAID Office of Inspector General

                                                          USAID officials did not monitor the amount of
                                                          money that implementing partners were spending
                                                          on OVC activities because officials believed that
                                                          the expenditure information would be very
                                                          difficult and time±consuming to collect.

                                                          They also stated that the information collected
                                                          would not be very precise because funding for
                                                          many of the activities spanned multiple categories
 This sign advertises the Njoro Drop±In Centre in         of funding (such as OVC and prevention).
.HQ\D¶V Rift Valley Province implemented by Family
       Health International (photo by OIG).               USAID¶s inability to track the expenditures
                                                          related to each program area makes it impossible
OIG determined that USAID/Kenya¶s assistance
                                                          to evaluate the program¶s cost±effectiveness and
was achieving its goal of providing care and
                                                          will make it difficult for PEPFAR to set targets
support to orphans and other vulnerable children
                                                          for OVC activities in future years based on the
(OVC). Specifically, OIG validated that the
                                                          level of funding provided.
mission provided care and support to
651,556 children during 2010, exceeding the               Management decisions have been made on four

U.S. Government goal of 650,000. However,                 of five recommendations.

OIG found that FHI had multiple weaknesses in
                                                          Audit of USAID·s HIV/AIDS Activities in
its data reporting system. For instance, FHI did
                                                          Côte d·Ivoire (Report No. 7²681²12²004²
not always clearly identify the status of the child       P). Over the past 6 years, USAID/West Africa
assisted, and one beneficiary was listed as 23 years
                                                          has worked with multiple partners to implement
old. This inconsistent application of the OVC
                                                          HIV/AIDS activities in Côte d¶Ivoire. Three of
definition could misrepresent the actual number
                                                          these agreements are valued at more than
of beneficiaries.
                                                          $17 million, and implementers include AVSI

According to PEPFAR guidance, the statutory               (Associazione Voluntari per Servici

set±aside requirement to spend not less than              Internationale, an Italian NGO), Save the

10 percent of the amounts appropriated for                Children, and PATH. OIG found that although

HIV/AIDS assistance each year on orphans and              the beneficiaries visited felt that the program has

other children affected by or vulnerable to               had a positive impact, evidence was lacking to

HIV/AIDS is essential for countries with a                support the results reported by program officials

generalized epidemic, such as Kenya. However,



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 43
                                      USAID Office of Inspector General

and to determine whether the activities were             reached 12,843 OVCs and their family members;
achieving their goals.                                   however, OIG could not verify the eligibility of
                                                         recipients because the centers providing services
At the time of the audit, six USAID staff
                                                         did not maintain records documenting how or
members were in Côte d¶Ivoire administering
                                                         why beneficiaries had been admitted to the
daily program activities. These personnel rely
                                                         program.
heavily on USAID/West Africa for
administrative matters, such as filling vacancies.       In addition, AVSI and its subpartners follow
This reliance caused unnecessary delays and              different rules for eligibility. For example, AVSI
difficulties for program implementation.                 does not require verification of HIV/AIDS status
USAID¶s PEPFAR program in Côte d¶Ivoire is               for acceptance to its program, but a subpartner
approved for 18 positions, yet filling these             requires all OVC and their family members to
vacancies is difficult not only because of the           provide evidence of direct impact of HIV/AIDS.
recent civil unrest in the country, but also             AVSI personnel usually determine the
because USAID/West Africa must approve most              beneficiaries¶ HIV/AIDS status merely by noting
personnel decisions. Although the managers in            their physical appearance or asking them about
Côte d¶Ivoire are acutely aware of their needs and       their status, but they do not require any evidence
know local personnel available to fill the               or information about the impact of the disease
positions, the in±country managers have little           on their lives.
input in the final decisions. When explaining its
                                                         Management decisions have been made on all six
slowness to fill vacancies in Côte d¶Ivoire,
                                                         OIG recommendations, and final action has
USAID/West Africa cited a lack of adequate
                                                         been taken on two.
staffing to provide support services to USAID
field offices while implementing new Agency±             Audit of USAID/Haiti·s Community
                                                         Health and AIDS Mitigation Project
wide initiatives related to contracting and
                                                         (Report No. 1²521²12²002²P).
procurement.
                                                         USAID/Haiti¶s Community Health and AIDS
Other issues stemmed from documentation that             Mitigation Project was designed to improve the
was disorganized or unverifiable. For example,           health and quality of life of vulnerable families
AVSI reported that 450 beneficiaries were                and people living with AIDS, in accordance with
assisted during the second quarter of 2010 by the        the Government of Haiti¶s strategic plan. To
Koumassi social center, but the implementer was          implement the project, USAID/Haiti signed a 5±
unable to provide any documentation to support           year, $65 million cooperative agreement with
this result. In another instance, AVSI reportedly        Family Health International (FHI) from May

         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 44
                                          USAID Office of Inspector General

2009 to April 2014. FHI implements this project              FHI also struggled to report data accurately. Each
with two key partners²Catholic Relief Services               PDSC had its own method of using sign±in
and International Child Care²both of which                   sheets to track and document activities.
have many years of experience in Haiti.                      Important information needed for internal
                                                             controls²such as dates, type of services or
OIG found that the project was making some
                                                             activities, and signatures²was also missing.
progress. The project had established 44
                                                             Similarly, each PDSC used its own method to
community service delivery points, also known
                                                             report and track key services, including
as PDSCs;20 trained more than 250 individuals to
                                                             transportation and school fees paid, thereby
deliver integrated health services; and served
                                                             raising questions about the accuracy of reporting.
more than 6,500 people living with HIV/AIDS
and almost 11,600 orphans and vulnerable                     In addition, the second annual work plan
children. The project had also provided school               contained several errors related to the results for
fees for children and vocational and literacy                the first± and second±year targets. These
training and transportation fees for adults. In              problems occurred partially because FHI was
addition, FHI played a key role during the 2010              significantly delayed in implementing its
cholera outbreak by proving safe water and                   monitoring and evaluation activities. As a result,
hygiene kits to beneficiaries.                               FHI did not have a monitoring and evaluation
                                                             staff in place until almost a year after the project
Despite the positive findings, OIG identified
                                                             started.
multiple areas for improvement. For instance,
FHI¶s midterm evaluation acknowledged that                   Management decisions have been made on
there is no consistent rationale for the target              10 out of 14 recommendations.
number of PDSCs or for the location of existing
                                                               Malaria, Tuberculosis, and Neglected
PDSCs. Enrollment at some PDSCs has been
much lower than anticipated, and in some areas,                             Tropical Diseases
several PDSCs were competing for the same
                                                             Supplier to Compensate USAID $180,507
targeted population.
                                                             for Theft of Bed Nets. In connection with an
                                                             OIG initiative to track and prevent the diversion
                                                             of the President¶s Malaria Initiative (PMI)
20
  PDSCs (in French, points de déliverance des services       products throughout Africa, a USAID supplier
communautaires) offer orientation, information,              agreed to reimburse USAID $180,507 or
essential commodities, and referrals related to
HIV/AIDS, maternal/child health, tuberculosis,               purchase an equivalent amount of antimalarial
family planning, nutrition, and safe drinking water.


          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 45
                                     USAID Office of Inspector General

bed nets in order to replace approximately              In addition, the malaria deaths reported by
35,000 nets that were stolen from its warehouse         district hospitals fell from 1,445 in 2005 to
in Mozambique. In addition, three of the                670 in 2010²a reduction of 54 percent.
supplier¶s employees were terminated for their          Furthermore, while in 2005 only 18 percent of
involvement in the theft.                               households owned a bed net, in 2010, the
                                                        percentage had increased to 83.
Audit of USAID/Rwanda·s
Implementation of the President·s                       Despite these many successes, the program still
Malaria Initiative (Report No. 4²696²12²                needs to improve its branding strategy. Many
003²P). Since 2007, USAID/Rwanda has been               beneficiaries²who, like most Rwandans, are
working with the National Malaria Control               generally aware of USAID and its activities²
Program (NMCP) to determine how PMI funds               were mostly unaware that USAID was funding
can best support the national system. In 2010,          indoor residual spraying and a portion of the bed
USAID/Rwanda implemented PMI activities                 net distributions in their communities.
through partnerships with 13 organizations,
                                                        OIG made one recommendation, for which a
including John Snow, Inc., PSI, and RTI
                                                        management decision has been reached.
International. Projects involved indoor residual
spraying, procuring and distributing bed nets and       Audit of USAID/Malawi·s Implementation
lab equipment, packaging combination drugs,             of the President·s Malaria Initiative
community outreach, case management, and                (Report No. 4²612²12²005²P). Between
technical assistance activities.                        2007 and the beginning of 2011, USAID/Malawi
                                                        disbursed $53 million for PMI activities.
Excellent coordination with NMCP is one of the
                                                        Implementers for these multiple programs
reasons that the mission¶s efforts to reduce the
                                                        include Chemonics International, John Snow,
malaria burden in the country have been
                                                        Inc., Management Sciences for Health/BASICS,
successful. Health center staff members reported
                                                        PSI and Jhpiego Corporation/MC HIP.
a decrease in confirmed cases between 2010 and
2011, following the implementation of malaria           According to the 2010 Malawi Demographic and
prevention activities funded by PMI, the Global         Health Survey, the mortality rate for children
Fund, and the Rwandan Government. Most                  under 5 years old has been steadily declining in
notably, the 2010 Demographic and Health                the country since 1992; in the last decade alone,
Survey show a 50 percent reduction in all±cause         rates have dropped by 22 percent. Because the
mortality for children under 5, from 152 to             mission began its activities in 2007, OIG cannot
76 deaths per 1,000 live births.                        reasonably conclude that the mission¶s PMI±led


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 46
                                       USAID Office of Inspector General

interventions contributed to this decline. In             During the course of the audit, allegations arose
addition, OIG determined that the mission¶s               that workers were intentionally using less than
annual targets were not achieved, threatening the         the required amount of insecticide for spraying
sustainability of efforts to strengthen the health        houses and selling the excess. In fact, in
system.                                                   September 2010, the mission became aware that
                                                          antimalarial drugs with batch numbers from
USAID/Malawi¶s indoor residual spraying
                                                          shipments originally sent to Malawi were being
activities did not meet the annual target in 2011;
                                                          sold in other countries, and these issues were
the number of structures sprayed was just
                                                          reported to OIG investigators.
73 percent of the 134,000 targeted structures in
Nkhotakota and Salima Districts. Mosquitos in
the region had developed a resistance to the
insecticide being used, and implementers did not
have sufficient quantities of the proper
insecticide available. Without a vector
specialist²whom the mission does not employ²
officials said that they had no way of knowing
what the proper quantities of the new insecticide
should have been.                                          Some 12,000 insecticide±WUHDWHGQHWVVLWLQ36,¶V
                                                           Lilongwe warehouse while no nets are available at
                                                           the Bwaila Maternity Ward just a few miles away
The distribution of bed nets was also a problem.
                                                                          (photo by OIG).
Multiple PSI warehouses were found to be fully
stocked with nets, but three out of six health care       Management decisions have been made on all

facilities OIG visited did not have any.                  three recommendations, and final action has

Furthermore, although the mission stated in its           been taken on one.

2010 annual report that it had purchased
                                                                    General Health Programs
1.1 million nets, only 320,000 (approximately)
were received in the country during that fiscal           Audit of USAID/Haiti·s Social Marketing
year and only 234,000 were actually distributed.          Project (Report No. 1²521²12²001²P). In
                                                          Haiti, USAID seeks to make health±related
In 2007, PMI began using Malawi Central
                                                          information, products, and services easily
Medical Stores to distribute malaria
                                                          available and affordable²especially to low±
commodities, on the condition that the stores
                                                          income populations²while promoting the
would ensure commodity security and tracking.
                                                          adoption of healthier behavior through social


          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 47
                                       USAID Office of Inspector General

marketing. In April 2009, USAID/Haiti awarded             lacked adequate sales data needed to formulate
PSI a 3±year, $13.5 million contract to                   its marketing strategy. For instance, PSI did not
implement a social marketing project called               capture data on distribution, coverage, consumer
PROMARK.                                                  knowledge and behavior, or the consumer¶s
                                                          ability to pay. Beneficiaries interviewed provided
OIG¶s audit determined that PROMARK has
                                                          candid input on their dislikes of the products. In
somewhat expanded social marketing in Haiti
                                                          addition, interviews with field coordinators and
and in certain areas has improved access to,
                                                          sales agents revealed that wholesalers and retailers
availability of, and continuing use of some health
                                                          were losing sales because of competition with
products. However, after 2 years of implementa±
                                                          USAID projects that were giving out free generic
tion, the project had not advanced as far as
                                                          condoms.
USAID anticipated it would, despite the fact that
PSI has a longstanding presence in Haiti and              Management decisions have been reached on all
extensive experience in social marketing.                 seven recommendations.

As of March 2011, PSI had not completed many              Audit of USAID/West Bank and Gaza·s
of the key elements of the implementation                 Palestinian Health Sector Reform and
strategy. A communications plan for HIV                   Development Project (Report No. 6²294²

scheduled to be completed by December 2009                12²003²P). In September 2008, USAID

was still not finished as of June 2011. A planned         awarded a 5±year, $56.9 million dollar contract
radio soap opera was scheduled to be launched in          to Chemonics International to implement the
February 2010 but had not aired. Moreover,                Palestinian Health Sector Reform and
confusion existed about why project trainers              Development Project, known as the Flagship
deployed to rural communities were not                    Project, to support efforts to reform the
equipped with adequate training material.                 Palestinian health sector. USAID/West Bank
According to PSI officials, the mission was               and Gaza provided supplemental funding of
responsible for the delay because it needed to            $28.5 million in September 2009, bringing the
print the material. However, the mission asserted         total contract amount to $85.4 million.
that PSI should first use previously printed
                                                          A midterm evaluation conducted through
material.
                                                          USAID¶s Global Health Technical Assistance
Another issue stemmed from data collection. In            Project noted that the project endeavored to
addition to the training data not meeting data            strengthen the entire health sector, not just part
quality standards for validity and reliability, PSI       of it. The evaluation also noted many ambiguous



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 48
                                        USAID Office of Inspector General

deliverables that complicated project                      characterized the health information system as up
performance and lacked clarity of outcome. OIG             and running, which was not true at the time.
confirmed the midterm evaluation, finding that
                                                           In addition, in March 2011, a promotional video
the project¶s initial lack of focus kept it from
                                                           was developed and placed on USAID¶s Web site
achieving core reform efforts. The ambitious
                                                           promoting the purchase of a medical linear
design and large number of deliverables resulted
                                                           accelerator21 and showing a patient using the
in the project team¶s responding to Ministry of
                                                           machine as if she were benefiting from it. This
Health requests that may not have been directly
                                                           impression was misleading because the linear
in line with the project¶s strategic vision.
                                                           accelerator was not yet operational or licensed
USAID/West Bank and Gaza allowed an                        until 8 months after the creation of the video.
unreliable partnership with the Minister of                Eight recommendations were made, and
Health to develop by approving whatever the                management decisions have been reached on all
minister requested, regardless of whether the              of them. Final action has been taken on four.
requests fit into the mission¶s vision and focus for
the project. In one case, the team leader and
                                                                          Management
contracting officer¶s representative described a
                                                                      Science and Technology
situation in which the minister was holding
USAID±procured equipment in storage. They                  Audit of USAID·s Fiscal Year 2011
believed he did this in order to pressure USAID            Compliance With the Federal
to implement the health information system in              Information Security Management Act of
the hospital of his choice.                                2002 (Report No. 9²000²12²002²P). The
                                                           Federal Information Security Management Act of
In several instances, the mission and
                                                           2002 requires federal agencies to develop,
implementers also reported misleading
                                                           document, and implement an agency±wide
information regarding accomplishments in
                                                           information security program to protect their
progress reports and other promotional
                                                           information and information systems, including
information. For example, a consultant report
                                                           those provided or managed by another agency,
gives the project credit for establishing a
                                                           contractor, or other source. The act also requires
residency program in emergency medicine;
                                                           agencies to have an annual independent
however, this program existed before the start of
the project. The mission staff also shared with
OIG a document in which Chemonics                          21
                                                             A linear accelerator is a device that produces high±
                                                           energy x±rays for use in radiation therapy.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 49
                                      USAID Office of Inspector General

evaluation of their information security program         other cases, the mission implemented programs
and practices.                                           using IT systems to achieve broader goals such as
                                                         to increase transparency and accountability or
An OIG contractor concluded that USAID had
                                                         reduce fraud and corruption.
generally implemented selected security controls
for selected information systems in support of the       OIG found that 10 of the 24 systems, which cost
act. However, the auditors found areas in which          $62.1 million, were not completed, were not
USAID could improve its information security             functional when delivered, or were not used by
program. OIG made recommendations for                    the Government of Iraq as intended. Two other
improvements. Management decisions have been             systems, costing $2.5 million, were partially used,
on made on most of the recommendations, and              and three systems, totaling $1.5 million, were
final action has been taken on one.                      used as intended. For the remaining systems, the
                                                         mission was neither able to provide
Audit of the Sustainability of USAID/Iraq²
                                                         documentation that the systems were used nor
Funded Information Technology Systems
                                                         provide direct contact information for the end
(Report No. E²267²12²002²P). Between
                                                         users so that OIG could follow up with them.
2003 and 2011, USAID implemented programs
                                                         Nevertheless, the director of the mission¶s
across several sectors to assist the Government of
                                                         technical office said that the Government of Iraq
Iraq. These programs were intended to stabilize
                                                         likely was not using the systems.
communities, foster economic and agricultural
growth, and build the capacity of the national,          OIG determined that the IT system endeavors
local, and provincial governments. Some of these         failed and that 19 of the 24 programs did not use
programs included the financing and                      taxpayer money appropriately. For instance, one
development of information technology (IT)               of the programs, GAPTIS, was intended to
systems.                                                 improve the transparency of accounting practices
                                                         in the governorates. However, according to State
During this period, the mission funded at least
                                                         Department officials from a Provincial
24 IT systems, 2 totaling $73.2 million, through
                                                         Reconstruction Team, USAID and its
awards to various contactors and grantees. These
                                                         implementer, Research Triangle Institute,
USAID±financed IT systems were intended to be
                                                         assumed that the Government of Iraq wanted to
delivered to and used by Government of Iraq
                                                         improve transparency²which was not the case.
entities to allow them to operate more efficiently
                                                         This lack of user agreement, coupled with only
and effectively. In some cases, the awards
                                                         limited, rudimentary training, led to disuse of the
included IT systems as specific deliverables; in



           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 50
                                       USAID Office of Inspector General

system in some governorates. 22 In another                team considered a material weakness, related to
program, the database system supplied contained           USAID¶s process for reconciling its fund balance
DYLUXVDQGWKHEDFNXSYHUVLRQZDV³UHDGRQO\´         with the U.S. Treasury.
As a result, the system was not usable.
                                                          OIG also found six significant deficiencies in
Management decisions have been made on all                internal control related to the following aspects
seven recommendations.                                    of USAID¶s financial management processes:
                                                          reconciling loans receivable and inter±
            Financial Management
                                                          governmental transactions; accounting for

OIG·s Oversight Activities in the West                    unliquidated obligations; accounts receivable;

Bank and Gaza. During this period, OIG                    advances; and property, plants, and equipment.

issued 20 final audit and examination reports of
                                                          OIG made six recommendations to improve
contractors and grantees in West Bank and Gaza.
                                                          USAID¶s internal controls over financial
The reports identified questioned costs of
                                                          reporting. Management decisions were made on
approximately $465,000 of the $53 million
                                                          all of them.
audited. In addition, the reports identified areas
for improvement in internal control and                   Audit of the Management of Grants
                                                          Awarded by USAID·s Office of American
instances of noncompliance with awards.
                                                          Schools and Hospitals Abroad (Report
Audit of USAID·s Financial Statements                     No. 9²000²12²002²P). The American Schools
for Fiscal Years 2011 and 2010 (Report
                                                          and Hospitals Abroad (ASHA) program provides
No. 0²000²12²001²C). USAID¶s consolidated
                                                          grants to competitively selected private, nonprofit
balance sheets, consolidated statements of net            universities and secondary schools, libraries, and
cost, consolidated statements of changes in net           medical facilities outside the United States.
position, and combined statements of budgetary            ASHA was founded in 1959, which predates the
resources present fairly, in all material respects,       creation of USAID by 2 years, and differs
the financial position of USAID as of                     somewhat from the development assistance and
September 30, 2011, and 2010. OIG identified              humanitarian aid objectives typical of USAID
one deficiency in internal control that the audit         programs.

22
  Although the mission could provide no evidence,         Although ASHA consequently became a USAID
USAID/Iraq stated that two current implementing           program, because of the program¶s unique
SDUWQHUVZRUNLQJZLWKSURYLQFLDOJRYHUQRUV¶RIILFHV
reported that GAPTIS is in use and that at least some     nature, USAID determined that certain standard
governors find it valuable. Therefore, we have
classified this system as partially in use.               requirements for program management were not


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 51
                                       USAID Office of Inspector General

applicable. Without clear, written exclusions and         verbal or written approvals to grantees without
exemptions from various policies, procedures,             first consulting direct±hire staff. In addition, the
and regulations, the audit team applied industry          management of information on grant recipients
best practices as the primary form of criteria to         was inconsistent and caused duplication of
evaluate the ASHA program.                                records, mismatched information, and improper
                                                          filing. OIG detected a discrepancy of nearly
OIG concluded that the ASHA office did not
                                                          $9 million in grant balances between ASHA¶s
manage its grants portfolio in accordance with
                                                          system and the records of 60 grantees contacted.
industry best practices. The program had several
significant deficiencies in internal control,             Management decisions have been made on all
including information management and                      seven recommendations, and final action has
monitoring practices. ASHA¶s outdated policies            been taken on four.
and procedures were a contributing cause of
                                                          Audit of USAID·s Unliquidated
these deficiencies. Without appropriate Agency
                                                          Obligations for Selected Expired Awards
and federal guidance, the ASHA office developed
                                                          at the Bureau for Global Health (Report
its own policies and procedures manual in 1993.
                                                          No. 9²000²12²001²P). USAID¶s Global
With changes in Agency standard procedures and
                                                          Health Bureau supports field health programs. In
applicable laws over nearly 20 years, many of the
                                                          fiscal year 2010, Global Health obligated
procedures drafted by ASHA are now contrary to
                                                          $2.1 billion in program funds to support
best practices in grants management. As a result,
                                                          activities such as HIV/AIDS and malaria
ASHA staff members were reluctant to reference
                                                          prevention, family planning, and reproductive
and adhere to the outdated information. Instead,
                                                          health care.
they opted to create and follow their own
operating procedures, leading to gaps and                 The Global Health Bureau has sufficient controls
inconsistencies in the management of grants.              in place for managing expired awards and
                                                          conducting annual reviews of unexpended
Staff responsibilities and reporting relationships
                                                          obligations (known as section 1311 reviews) so
were often poorly defined. While ASHA staff
                                                          that funds can be reprogrammed before the end
members individually managed sections of the
                                                          of the fiscal year.
grant management process, no individual was
formally identified to oversee the grant through          During the past year, the bureau took steps to
its entire life cycle. Sometimes the responsibilities     strengthen its review of expired awards with
of ASHA contactors stretched beyond their                 unliquidated obligation balances by updating and
defined boundaries, as contractors provided               streamlining its financial review process.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 52
                                      USAID Office of Inspector General

However, documentation was not available for             incurred by the Agency through program funds
2 of 24 expired awards in OIG¶s sample. The two          awarded to implementing partners are supposed
awards expired as far back as 1992 and 1995, and         to be included. However, the COO¶s e±mails
they were still pending final closeout and               issued every quarter to offices, missions, and
deobligation of more than $50,000. This issue            bureaus explicitly stated they should not include
illustrates the delays in the closeout process and       these costs.
deobligation of unliquidated obligations from
                                                         According to Agency policy officials, because
expired awards, leading to a large backlog of
                                                         USAID¶s conference policy documents do not
awards awaiting closeout.
                                                         cross±reference the Federal Travel Regulation,
OIG made three recommendations, and                      Agency conference planners are unaware of
management decisions have been made on all of            certain conference±related federal regulations. As
them, and final action has been taken on one.            a result, planners did not minimize any costs,
                                                         including administrative costs or conference
Review of USAID·s Compliance With
                                                         attendees¶ travel or time costs. For instance, for a
Procedures for Approving Conference
                                                         USAID±hosted conference in Washington, DC,
Expenses (Report No. 2²000²12²001²S).
                                                         planners appraised five commercial hotels and
At USAID, employees attending and planning
                                                         selected one that cost more than $15,000, when
conferences must comply with federal regulations
                                                         they could have used the General Services
and agency policies on all conference±related
                                                         Administration conference facilities for free.
expenses; however, OIG determined that
employees did not always comply with these               Other problems stemmed from conference per
regulations and policies. These instances of             diem expenses that were paid out unnecessarily.
noncompliance often resulted in excess                   Employees often claimed per diem for meals
expenditures and overpayments.                           when attending conferences in which meals were
                                                         provided for free. In several cases, employees
In fiscal year 2010, the Chief Operating Officer
                                                         submitted for per diem lodging when their hotel
(COO) approved approximately $5 million in
                                                         actually cost much less than the per diem rate.
estimated conference costs; however, actual
                                                         OIG has recommended that USAID be
agency costs were much higher. This problem
                                                         reimbursed by the employees who were overpaid.
stemmed from incorrect guidance that the
COO¶s Office provided for estimating these               Management decisions have been made on all
costs. When total costs for a conference are             14 OIG recommendations.
estimated, mission staff costs and expenses



         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 53
                                        USAID Office of Inspector General

Review of Audits of Foreign                                performed because the Contract Audit and
Organizations Expending Centrally                          Support Division had not maintained a key
Funded Assistance (Report No. 2²000²                       supporting system to produce an inventory of all
12²002²S). USAID policy requires that foreign              organizations receiving USAID awards and has
nonprofit organizations, governments, and                  not created awareness about sources of funding
subrecipients that expend $300,000 or more                 that should be audited. However, the system is
under USAID agreements and awards during                   being upgraded and has a target date of May
their fiscal year must have an annual audit of             2012 to become operational.
those funds. Concerned about whether required
                                                           OIG made four recommendations to improve
audits have been performed, in April 2011 OIG
                                                           oversight of USAID/Washington±issued awards,
surveyed USAID to determine whether required
                                                           and management decisions have been made on
audits of foreign recipients were being performed
                                                           all of them.
and to quantify the amount of money being
audited. Few USAID headquarters organizations              Survey of USAID/Iraq·s Awards and
responded to the survey. Accordingly, OIG                  Subawards (Report No. E²267²12²001²S).
conducted this review to determine whether                 Each year, federal agencies award more than a
required audits of foreign recipients of centrally         trillion dollars in contracts and financial
funded awards were performed in fiscal year                assistance. The Federal Funding Accountability
2009.                                                      and Transparency Act of 2006 (Public Law 109±
                                                           282) was enacted to increase the transparency of
Only 32 of 84 foreign recipients (38 percent) 23
                                                           federal government expenditures by providing
had an audit performed, and 13 of the audits
                                                           access to information on federal awards through
were incomplete because they did not cover all
                                                           a single, searchable, publicly available Web site.
USAID awards to the recipient. As a result, about
a half a billion dollars in USAID±provided                 The act required the federal government to
funding was not audited. These audits were not             provide more user±friendly and detailed
                                                           information about government spending. The act
23
  Because an inventory for foreign organizations           also required the Office of Management and
receiving centrally funded awards was not available to     Budget (OMB) to establish a public Web site that
OIG, this review used an estimation procedure to
determine where recipient audits were required. To         included data on federal awards and subawards.24
address this issue, OIG recommended that the
Contract Audit and Support Division develop and            In accordance with the Transparency Act,
publish inventories for fiscal years 2009, 2010, and       USAID is compiling and reporting data on
2011 of foreign organizations receiving centrally
funded awards to make clear which recipients must          24
                                                                USASpending.gov.
undergo audits and what awards should be audited.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 54
                                     USAID Office of Inspector General

awards and subawards funded by USAID¶s                  Specifically, IPIA required agencies to review all
mission in Iraq and determining whether                 programs and activities annually and identify
recipients of USAID awards have complied with           those that may be susceptible to improper
applicable audit requirements for their                 payments.25 Despite IPIA, improper payments
subawardees.                                            continued to increase throughout government
                                                        agencies, and federal agencies reported
From March 2003 to June 2011, USAID/Iraq
                                                        approximately $100 billion in improper payments
managed a portfolio of $6.72 billion that
                                                        for fiscal year 2009.26 In response, the President
included 24 expired awards with total estimated
                                                        signed Executive Order 13520, Reducing
costs of $4.95 billion. As of June 30, 2011, there
                                                        Improper Payments and Eliminating Waste in
were 15 active awards with total estimated costs
                                                        Federal Programs, on November 20, 2009. The
of $1.77 billion.
                                                        purpose of the Executive order was to increase
Implementers of five of the ten USAID±funded            transparency and hold federal agencies
programs included in this survey awarded                accountable for reducing improper payments.
subgrants during fiscal year 2010. However, only        2,*¶VHYDOXDWLRQ determined that USAID
two of the USAID programs, provincial                   complied, in all material respects, with these
economic growth and agribusiness²both                   requirements as of September 2011, and as
implemented by LBG²provided grants to Iraqi             reported in November 2011, in its annual
nonprofit organizations of amounts that                 financial report.
necessitated audits. According to information
                                                        OIG disclosed one area of USAID¶s internal
provided by the implementer, the programs are
                                                        controls that needs improvement. Specifically,
in the process of implementing these audit
                                                        OIG determined that USAID did not ensure that
requirements.
                                                        audits of costs incurred by contractors are
OIG made no recommendations.                            completed in a timely manner to identify,
                                                        prevent, and recover improper payments. USAID
Independent Auditor·s Report on
                                                        contracts with for±profit organizations to
USAID·s Compliance With the Improper
                                                        perform various types of services around the
Payments Elimination and Recovery Act
                                                        world. USAID has all costs incurred by these
of 2010 (Report No. 0²000²12²001²S). On
                                                        contractors to be audited by the Defense
November 26, 2002, Congress passed the
                                                        Contract Audit Agency (DCM). During 2,*¶V
Improper Payments Information Act of 2002
(IPIA), requiring federal agencies to provide           25
                                                             IPIA, Public Law 107±300, Section 2(a).
estimates and reports of improper payments.             26
                                                             0MB Memorandum M±10±13, March 22, 2010.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 55
                                     USAID Office of Inspector General

review, it was noted that DCM was not                   process for reviewing, approving, and paying
conducting the audits or reporting the results in a     Recovery Act invoices.
timely manner. As of October 2010, 176 audits
                                                        OIG made two recommendations. Management
requested by USAID had not been completed
                                                        decisions have been made on both, and final
and after meeting with OIG, DCM agreed to
                                                        action has been taken on one.
complete 62 of these audits in 2011. However, it
completed only eight of the audits and 168 audits                   Management Capabilities
were still outstanding as of September 2011.
                                                        Audit of USAID/Angola·s Public²Private
USAID should try to expedite these audits to
                                                        Partnerships for Development (Report
improve its performance in identifying,
                                                        No. 4²654²12²006²P). Since 2001, USAID¶s
preventing, and recovering improper payments.
                                                        Global Development Alliance initiative has
A management decision has been made on the              promoted strategic partnerships between USAID
one recommendation.                                     and public and private sector partners as a
                                                        business model for achieving development
Improper Payments Made Under the
                                                        assistance objectives. In 2011, USAID/Angola
American Recovery and Reinvestment
                                                        reported having four active public±private
Act of 2009 (Report No. 0²000²12²001²
                                                        partnerships²²two with Chevron and two with
K). As part of the Recovery Act, USAID received
                                                        Esso Angola.27 With Chevron, USAID is
$38 million for immediate information
                                                        implementing the Agriculture Development and
technology security and upgrades to support
                                                        Finance Program (locally branded as ProAgro)
mission critical operations. On the basis of
                                                        and the Municipal Development Program. As of
USAID¶s information technology priorities,
                                                        September 2011, USAID had contributed nearly
USAID determined that the funding would be
                                                        $20 million and Chevron had contributed $5.3
used for the development and deployment of the
                                                        million respectively to these programs. Esso
Global Acquisition and Assistance System over a
                                                        Angola had contributed $4 million to USAID¶s
2±year period.
                                                        activities under PMI in one of its two alliances
Although USAID has implemented procedures               with the mission.
for separating Recovery Act payments from other
                                                        OIG determined that partners did not benefit
payments, it erroneously used Recovery Act funds
                                                        from partnerships as anticipated and programs
to pay for services that were not authorized under
                                                        implemented as a part of these partnerships
the Act¶s obligations. These errors occurred
because USAID did not follow its established
                                                        27
                                                             This is done through the ExxonMobil Foundation.


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 56
                                          USAID Office of Inspector General

either did not achieve their goals or were not               when conditions warranted, primarily because of
sustainable. For example, one of the programs                difficulties in staffing. Though the mission is
reported assisting a greater number of                       authorized to have nine U.S. direct hires, since
organizations and had many more beneficiaries                2005 it has never had a full complement of U.S.
than planned, but key indicators of success fell             staff. Of the 32 positions designated for local
behind. ProAgro had a target of helping                      hires, 12 were unfilled.
beneficiaries get $4.1 million in loans in 2010,
                                                             The high turnover and vacancies resulted in a
but reported loans amounting to less than
                                                             lack of consistent champions for the Agency¶s
$930,000. In addition, total agricultural sales by
                                                             alliance initiative. Turnover in the mission¶s
beneficiaries, targeted at $9.8 million, ended up
                                                             program office, even at the mission director level,
at only $748,800 for the year.28
                                                             led to differing levels of alliance interest²and
OIG noted concerns about the sustainability of               therefore guidance and involvement²in the
PMI activities under USAID/Angola¶s Civil                    initiative during these partnerships.
Society Strengthening Program, primarily because             Implementers noted that the selected
of the program¶s lack of focus on preparing                  partnerships were not as successful as they once
individuals to continue activities on their own,             were because there had been less focus on the
high turnover in the health±care field, cultural             parties¶ relationships in recent years.
reluctance by trained employees to share their
                                                             OIG also found that partners did not benefit
knowledge, and reluctance on the part of officials
                                                             from partnerships as anticipated because joint
from the Ministry of Health to engage in joint
                                                             monitoring plans were not in place; certain
training or supervision. While some of these
                                                             aspects of the partnerships, like in±kind
factors are outside of the mission¶s control,
                                                             contributions, were not planned for, existed only
officials did not consider these factors in
                                                             in limited cases, and were not systematically
planning or make adjustments when conditions
                                                             tracked. In addition, there was an absence of any
warranted, largely because of insufficient staffing.
                                                             contingency plans in memorandums of
External factors often affected the programs¶
                                                             understanding and awards. For example, an
abilities; however, the mission did not consider
                                                             original partner in one alliance pulled out in
these factors in planning or make adjustments
                                                             2008 for economic reasons, and without this
28
  Because the program did not report on its                  partner¶s support, USAID did not have funding
performance indicators in the second or third quarters
of fiscal year 2011 and because site visits were limited,
                                                             to continue activities. The program therefore had
WKHDXGLW¶VGDWDYDOLGDWLRQSURFHGXUHVGLGQRWDOORZ        to curtail activities in one province, meaning that
for a conclusion on the accuracy of the reported
results.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 57
                                     USAID Office of Inspector General

USAID forfeited costs that had already been             entered into agreements with other potential
incurred.                                               bidders on the contract to ensure that the joint
                                                        venture would win the bid. Other potential
Further, the mission did not adequately monitor
                                                        bidders agreed to either not bid or bid
the recipients and did not ensure that program
                                                        intentionally high in return for a payoff. In
costs were properly reviewed. The implementer
                                                        March 2012, the companies agreed to pay the
for the Municipal Development Program, CARE,
                                                        U.S. Government $47 million to settle claims
had attempted several times to get inappropriate
                                                        that they submitted false claims and caused
cost approvals. Moreover, USAID determined in
                                                        others to submit false claims to USAID.
October 2010 that $1.7 million in costs related to
a CARE Angola program implemented from                  Former USAID Controller Sentenced to
2003 to 2005 were unallowable²facts that if             29 Months· Imprisonment. As reported in
promptly disclosed might have disqualified              our previous semiannual report, a former USAID
CARE from getting further funding. Key officials        controller pled guilty to embezzlement in
with financial management responsibilities at           September 2011. He was sentenced in December
CARE Angola have resigned, reportedly because           2011 to a 29±month term of imprisonment. He
of management issues.                                   was also required to pay more than $36,000 in
                                                        restitution to USAID and must pay a
Management decisions have been reached on
                                                        $1.9 million penalty to the Internal Revenue
eight of nine recommendations. Final action has
                                                        Service for his failure to report his foreign bank
been taken on five.
                                                        account. In addition, he must file accurate
            Employee Misconduct                         amended U.S. individual income tax returns and
                                                        pay all taxes and any interest and penalties owed
USAID Contractors Agree to Pay
                                                        on those returns to the Internal Revenue Service.
$47 Million to Resolve False Claims Act
Allegations. As reported in previous                    The former controller was debarred and began

semiannual reports to congress, the Harbert             serving his sentence in January 2012. Upon

Companies violated the false claims act when            completion of his prison term, he will be placed

they conspired to rig the bids on a USAID±              on 3 years of supervised release and required to

funded construction contract that was bid and           perform 100 hours of community service.

performed in Cairo, Egypt, in the late 1980s and        USAID Foreign Service National
early 1990s. The companies were part of a joint         Employee Terminated for Falsifying
venture that bid on and was ultimately awarded a        Biographical Information. OIG investigated
contract to build a sewer system. The entities


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 58
                                       USAID Office of Inspector General

an allegation that a USAID/Afghanistan Foreign            Expanding Supreme Audit Institutions·
Service National (FSN) employee provided false            Capabilities. OIG continues to work closely
information about his previous salary history in          with selected Supreme Audit Institutions (SAIs)
order to obtain a higher salary offer. OIG                in countries where USAID is present. SAIs are
confirmed the information and made a referral to          the principle government audit agencies in the
USAID for administrative action; the employee             recipient countries and are often the only
was subsequently terminated. The FSN appealed             organizations that have a legal mandate to audit
the decision to the U.S. Mission of Afghanistan¶s         the accounts and operations of their
Grievance Board which, after hearing the appeal,          governments.
upheld USAID¶s decision.
                                                          Thus, SAIs may be called upon to audit funds
USAID Locally Employed Staff Member                       provided to host governments by USAID or
Receives Suspension and Bill of                           other donors. OIG and USAID missions have
Collection. OIG conducted an investigation                signed memorandums of understanding (MOUs)
into allegations that a USAID locally employed            with SAIs in 22 countries.
staff member serving in Pretoria as a program
                                                          Before SAIs can conduct audits for USAID, they
development specialist submitted a fraudulent
                                                          must have professional capacity and
travel claim. As a result of the investigation, the
                                                          independence. OIG often provides training to
employee received a 3±day suspension and was
                                                          SAIs in how to conduct financial audits of
issued a $3,230 bill of collection.
                                                          USAID funds in accordance with Agency
          Expanding Accountability                        guidelines and U.S. Government auditing
                                                          standards.
Corruption and lack of accountability are major
impediments to development. These issues                  This training helps build capacity within SAIs to

threaten to negate years of economic growth,              enhance their ability to audit all public funds.

especially in the areas of the world subject to           The SAI, the USAID mission, and OIG then sign

political instability and violence.                       an MOU that outlines the standards and
                                                          procedures to be used in auditing USAID funds
OIG audits and investigations afford two
                                                          provided to the host government.
methods of safeguarding USAID funds; however,
OIG pursues additional methods to promote                 As part of the shift to use host±country systems

accountability and transparency, described below.         to deliver foreign assistance, USAID and OIG
                                                          intend to rely more heavily on SAIs and continue
                                                          working to build their capacity.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 59
                                        USAID Office of Inspector General

During this reporting period, the SAI in Pakistan          text of these cost principles is contained in the
conducted a financial audit of budgetary support           FAR and various OMB circulars, USAID
provided through USAID/Pakistan Program                    agreements generally contain only a single
Assistance and managed by the Benazir Income               sentence that refers to these principles.
Support Program (BISP) for the period from
                                                           To increase awareness of²and compliance
September 30, 2009, to March 31, 2011. This
                                                           with²cost principles and to promote the highest
$85 million program aims at providing cash
                                                           standards, OIG conducts training for overseas
assistance to the poorest families. One major
                                                           USAID staff, contractors, grantees, and others.
finding by the SAI identified $38 million in
funds that had not been disbursed to                       This training provides a general overview of U.S.
beneficiaries. These funds remained in accounts            Government cost principles and actual examples
maintained by the Pakistan Post Office. Periodic           of instances that demonstrate concepts such as
reconciliations had not been made by the                   reasonableness, allocability, allowability, and
disbursing organizations to facilitate the                 various specific cost principles (e.g., travel
disbursement of funds to eligible beneficiaries.           expenses or entertainment costs). The training
OIG recommended that USAID/Pakistan                        also includes financial audit requirements and
develop a plan with BISP to (1) perform periodic           accountability issues.
reconciliations of program funds and (2) disburse
                                                           During this reporting period, OIG provided
all undelivered and unsettled BISP funds to
                                                           training in cost principles and related subjects in
eligible beneficiaries. A management decision has
                                                           4 countries and trained about 240 individuals.
been made.
                                                           These individuals included USAID/Iraq¶s newly
Training USAID Staff and Others. OIG                       hired field monitors, SAI staff, USAID staff and
remains committed to preventing losses of                  partners, and auditors from local, public
development funds and continues to provide                 accounting firms.
training in cost principles and fraud
                                                           Fraud Awareness Training. OIG also
awareness to USAID employees, contractors,
                                                           provided 93 fraud awareness training sessions to
grantees, SAIs, and auditors from local
                                                           2,530 individuals during the reporting period.
accounting firms.

Cost Principles Training. USAID¶s contracts
and grants include cost principles provisions that
define the types of costs can be legitimately
charged to USAID programs. Although the full


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 60
                                      USAID Office of Inspector General

     Accountability Over Contractors and                 organizations that, in turn, assist their citizens or
                                                         members in improving their homes and
                Grantees³Audits
                                                         communities. The purpose of the examination
Overall Audit Activity. USAID is required by             was to determine whether direct costs incurred
FAR, the Single Audit Act,29 OMB circulars, and          and billed were allowable, allocable, and
its own internal policies and procedures to obtain       reasonable. DCAA questioned costs of
appropriate and timely audits of its contractors,        $2,943,880 that included ineligible, unsupported
grantees, and enterprise funds. OIG provides             direct costs billed by CHF and its subrecipients.
oversight of these audit activities, ensuring that       OIG recommended that USAID/Iraq¶s Office of
audits are conducted in accordance with                  Acquisition and Assistance determine the
appropriate quality standards and that they              allowability of the costs and collect them, as
enhance accountability over USAID contractors            appropriate. In addition, OIG recommended that
and grantees.                                            the mission request supporting documentation to
                                                         verify $12,387,460 of cost±sharing reported by
Also, in accordance with provisions in USAID
                                                         CHF. Management decisions are pending.
contracts and agreements, OIG reviews reports of
audits conducted on foreign organizations that           During this reporting period, OIG reviewed and
receive USAID funds.                                     transmitted 17 DCAA reports covering
                                                         approximately $661 million in costs (with
Audits of U.S.²Based Companies. U.S.±
                                                         questioned costs of more than $50 million).
based companies carry out many USAID±funded
activities. DCAA conducts audits, reviews, and           Audits of U.S.²Based Grantees and
preaward surveys of U.S.±based contractors on            Enterprise Funds. U.S.±based nonprofit
USAID¶s behalf. OIG then reviews DCAA¶s                  organizations also receive significant USAID
reports and transmits them to USAID                      funds to implement development programs
management.                                              overseas. As required by OMB Circular A±133,
                                                         ³$XGLWVRI6WDWHV/RFDO*RYHUQPHQWVDQG1RQ±
During the reporting period, DCAA issued an
                                                         3URILW2UJDQL]DWLRQV´QRQIHderal auditors
audit of CHF under a cooperative agreement in
                                                         perform annual financial audits of USAID
Iraq. CHF provides technical and capital
                                                         grantees that spend more than $500,000 in
assistance to individuals, international
                                                         federal funds annually. These auditors are
government organizations, and private
                                                         required to identify:

29
  Single Audit Act of 1984, Public Law 98±502, as
amended.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 61
                                        USAID Office of Inspector General

       Significant deficiencies involving major            subject to annual audits of financial statements
       programs.                                           performed by private accounting firms and
       Material noncompliance with laws and                reviewed by OIG.
       regulations.
                                                           During the reporting period, OIG issued 55 desk
       Known fraud affecting a federal award.
                                                           reviews for A±133 Single Audit Act reports and
       Misrepresentations of the status of prior
                                                           issued 10 desk reviews for Agency±contracted
       audit findings.
                                                           audit reports covering USAID funds of
       Reasons why the auditor¶s report on
                                                           approximately $3.3 billion spent by U.S.±based
       compliance for major programs is other than
                                                           grantees.
       unqualified.
                                                           Audits of Foreign²Based Contractors and
OIG provides oversight for the nonfederal
                                                           Grantees. OMB Circular A±133 does not apply
auditors performing these audits and reviews to
                                                           to foreign±based contractors and grantees. Given
determine whether auditors have prepared audit
                                                           the high±risk environment in which USAID
reports in accordance with the reporting
                                                           operates, however, USAID has extended similar
requirements of OMB Circular A±133.
                                                           audit requirements to its foreign±based

OIG also conducts quality±control reviews to               contractors and grantees through standard

determine whether the underlying audits                    provisions included in grants, cooperative

complied with OMB A±133 audit requirements                 agreements, and contracts through OIG¶s

and generally accepted government auditing                 Guidelines for Financial Audits Contracted by Foreign
standards. In some instances, OIG contracts with           Recipients (February 2009). Financial audits of

DCAA to perform special financial audits and               foreign±based contractors and grantees are

with independent public accounting firms to                normally conducted by independent audit firms

perform Agency±contracted financial audits of              approved by OIG¶s overseas regional offices.

U.S.±based grantees.                                       Under the recipient±contracted audit programs,
                                                           audits are required for all foreign nonprofit
Enterprise funds are U.S.±based nonprofit
                                                           organizations that spend $300,000 or more
organizations established under the Support for
                                                           during their fiscal year. USAID may also request
East European Democracy (SEED) Act of 1989.30
                                                           financial audits of nonprofit organizations that
USAID currently has two enterprise funds, one
                                                           fall below the $300,000 threshold.
that invests in Eastern Europe and the other that
invests in South Africa. Enterprise funds are              USAID¶s financial audit requirements
                                                           concerning its contracts, grants, and cooperative
30
     Public Law 101±179.


           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 62
                                      USAID Office of Inspector General

agreements are normally satisfied under the              not allowable to USAID±supported programs,
recipient±contracted audit program. However,             costs that were not supported with adequate
agency±contracted audits may be initiated by             documentation, and income generated from SFH
either USAID or OIG to provide additional audit          cost±sharing contributions that were not used to
coverage or address specific concerns.                   further program activities. In addition, a theft
                                                         occurred at SFH that caused losses of more than
A concern was addressed during this reporting
                                                         $7,000 in commodities provided by USAID.
period as a result of a quality control review
                                                         OIG recommended that USAID/Nigeria recover
conducted by OIG staff. The Society for Family
                                                         the amounts determined to be unallowable.
Health (SFH) has been audited on a yearly basis
                                                         Management decisions are pending.
since the inception of its program. It is one of the
largest health nongovernmental organizations in          OIG reviews all audit reports and, if they are
Nigeria. Its mission is to empower Nigerians,            found to be in compliance with Guidelines for
particularly the poor and vulnerable, to lead            Financial Audits Contracted by Foreign Recipients,
healthier lives by promoting and providing health        transmits the reports to the appropriate USAID
and family planning products and services to             mission for corrective actions. Audit firms are
motivate adoption of healthy behaviors.                  also notified of any problems identified in the

OIG received audit reports of SFH for the years          audit reports.

2009, 2008, 2006, and 2005. However, a quality           During this reporting period, OIG reviewed and
assurance review (QAR) conducted by OIG                  transmitted 190 audits of foreign±based
recently found that the audits were not fully            organizations, covering more than $1 billion in
conducted in accordance with U.S. Government             expenditures and resulting in about $21 million
Auditing Standards. Specifically, the QAR could          in questioned costs. OIG also completed
not ensure that SFH¶s expenses were fully                11 quality control reviews to ensure that the
reviewed to determine their allowability,                audits were completed in accordance with
allocability, and reasonableness in accordance           appropriate audit standards.
with government regulations and grant
                                                            Accountability Over Contractors and
agreements. As a result, OIG recommended that
                                                                   Grantees³Investigations
USAID/Nigeria conduct a closeout audit.

The closeout audit disclosed questioned costs of         Five Individuals, Including a Former
more than $3.5 million. The questioned costs             Member of Congress, Sentenced in U.S.
included international travel costs that were            District Court for Violations of the

neither budgeted nor approved, costs that were           International Economic Powers Act and


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 63
                                      USAID Office of Inspector General

Other Felonies. A former Member of                       IARA removed from the USAID list of debarred
Congress from Michigan and U.S. Ambassador               entities, and to remove IARA from the Senate
to the United Nations was sentenced in federal           Finance Committee¶s list of charities suspected of
court in January 2012 for obstruction of justice         funding terrorism.
and for acting as an unregistered foreign agent
                                                         The five defendants in this case received
related to his work for an Islamic charity with ties
                                                         sentences ranging from 6 months¶SUREDWLRQ to
to international terrorism. Several officials and
                                                         QHDUO\\HDUV¶LPSULVRQPHQW
employees of the now±defunct Islamic American
Relief Agency (IARA) charity, formerly                   The case was investigated by USAID¶s OIG, the
headquartered in Columbia, Missouri, also were           FBI, and IRS±Criminal Investigation.
sentenced in federal court.
                                                         Investigation Leads to Two Guilty Pleas
IARA was closed in October 2004, after being             Involving Conspiracy to Commit Wire
identified by the U.S. Treasury Department as a          Fraud Regarding USAID Funds. OIG
specially designated global terrorist organization       investigated allegations that a contractor¶s
with ties to Osama bin Laden, al±Qaida, and the          employee embezzled $1 million in USAID funds
Taliban. IARA secretly funneled more than                by creating fictitious invoices for services not
$1 million to Iraq in violation of U.S. economic         rendered. The investigation confirmed the
sanctions. IARA then hired the former Member             allegation and identified co±conspirators who
of Congress to lobby the U.S. government on its          contributed to the fraud against USAID. As a
behalf.                                                  result of the investigation, two defendants
                                                         pleaded guilty to conspiracy to commit wire
In exchange for the payments, the Member of
                                                         fraud. OIG, with the assistance of the
Congress acted as an agent for IARA by contacting
                                                         Department of Justice, was also able to recover
persons at the U.S. Senate Finance Committee,
                                                         $49,000 in proceeds from the subject and a
USAID, the Department of Justice, and the
                                                         related party¶s bank accounts.
Department of the Army, in an effort to have




          Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 64
                                    USAID Office of Inspector General




          Significant Recommendations Described Previously Without
                                              Final Action
                                                     USAID
                                  October 1, 2011²March 31, 2012

  Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector general to identity
  each significant recommendation described in previous semiannual reports on which corrective
  action has not been completed.

                                                                                          Final
      Report                                          Issue      Rec.   Management       Action
                         Subject of Report
      Number                                          Date       No.    Decision Date    Target
                                                                                          Date
                                                                  2        01/15/09      09/30/12
                         Audit of Engender
                                                                  3        01/15/09      09/30/12
                         Health·s Management of
  1²511²09²004²P**                                    01/15/09    5        01/15/09      09/30/12
                         Activities Financed by
                                                                  7        04/27/09      09/30/12
                         USAID/Bolivia
                                                                  8        04/27/09      09/30/12
                         Audit of USAID·s
                         Financial Statements for
   0²000²10²001²C                                     11/13/09    1        11/13/09      05/01/12
                         Fiscal Years 2009 and
                         2008
                         Audit of USAID·s
                         Compliance with the
   A²000²10²001²P        Federal Information          11/17/09    15       11/17/09      12/31/12
                         Security Management Act
                         for Fiscal Year 2009
                         Audit of USAID·s
                                                                  3        11/09/10      12/30/12
                         Compliance with the
                                                                  8        11/09/10      08/31/12
                         Federal Information
   A²000²11²002²P                                     11/09/10    9        11/09/10      06/01/12
                         Security Management Act
                                                                  10       11/09/10      10/30/12
                         of 2002 for Fiscal Year
                                                                  25       11/09/10      02/28/15
                         2010
                         Audit of USAID·s
                         Financial Statements for                 1        11/12/10      04/30/12
   0²000²11²001²C                                     11/12/10
                         Fiscal Years 2010 and                    2        11/12/10      06/30/13
                         2009
                         Audit of USAID/Pakistan·s
                         Livelihood Development
   G²391²11²001²P        Program in the Lower         12/10/10    5        04/19/11      04/18/12
                         Region of the Federally
                         Administered Tribal Area
**The vendor has appealed to the Procurement Exec.




        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 65
                                 USAID Office of Inspector General


                                                                                      Final
  Report                                       Issue      Rec.       Management      Action
                 Subject of Report
  Number                                       Date       No.        Decision Date   Target
                                                                                      Date
                 Review of the Bureau for
                 Democracy, Conflict and
2²000²11²001²S   Humanitarian Assistance·s     12/17/10     4           12/17/10     04/30/12
                 Use of Compensatory
                 Time
                 Audit of USAID·S
7²681²11²003²P   HIV/AIDS Activities in        02/04/11     2           02/04/11     09/30/12
                 Cote d·Ivoire
                                                           1.1          07/26/11     07/26/12
                                                           1.2          07/26/11     07/26/12
                 Audit of USAID·s Efforts                   3           07/26/11     07/26/12
1²521²11²003²P                                 04/19/11
                 to Provide Shelter in Haiti                5           07/26/11     07/26/12
                                                            6           07/26/11     07/26/12
                                                            7           07/26/11     07/26/12
                 Audit of USAID/
                 Tanzania·s Ongoing
4²621²11²007²P   Activities Under the          04/29/11     1           04/29/11     04/29/12
                 President·s Malaria
                 Initiative
                 Audit of USAID/Iraq·s                      3           05/16/11     04/30/12
E²267²11²002²P                                 05/16/11
                 Agribusiness Program                       9           05/16/11     04/30/12
                 Audit of USAID/
                 Vietnam·s
5²440²11²007²P                                 05/27/11     3           05/27/11     04/30/12
                 Competitiveness Initiative
                 Phase II
                                                            1           06/06/11     08/30/12
                                                            2           06/06/11     08/30/12
                                                            3           06/06/11     08/30/12
                 Audit of USAID/Liberia·s
7²669²11²007²P                                 06/06/11     4           06/06/11     08/30/12
                 Energy Activities
                                                            5           06/06/11     08/30/12
                                                            6           06/06/11     08/30/12
                                                            7           06/06/11     08/30/12
                 Audit of USAID/Haiti·s                     1           06/06/11     06/06/12
1²521²11²005²P                                 06/06/11
                 Education Activities                       2           06/06/11     06/06/12
                 Audit of USAID/Egypt·s
6²263²11²007²P   Communication for             06/09/11     2           10/17/11     05/31/12
                 Healthy Living Program
                                                            1           06/09/11     05/30/12
                 Audit of USAID·s Food
                                                            2           06/09/11     05/30/12
                 Assistance Under the
7²683²11²008²P                                 06/09/11    4.1          06/09/11     05/30/12
                 Multiyear Assistance
                                                            7           06/09/11     05/30/12
                 Program in Niger
                                                           10           06/09/11     05/30/12
                 Review of USAID/
                                                            1           10/10/11     04/30/12
F²306²11²004²S   Afghanistan·s Portion of      06/09/11
                                                            2           06/09/11     04/30/12
                 the Embassy Air Program




      Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 66
                                USAID Office of Inspector General


                                                                                     Final
  Report                                     Issue       Rec.       Management      Action
                 Subject of Report
  Number                                     Date        No.        Decision Date   Target
                                                                                     Date
                 Audit of USAID/
                 Afghanistan·s Support to
                 The Electoral Process
                                                           5           06/19/11     04/30/12
F²306²11²003²P   (STEP) and Support for      06/19/11
                                                           7           11/17/11     04/30/12
                 Increased Electoral
                 Participation In
                 Afghanistan (IEP) Program
                 Audit of USAID/Pakistan·s
                 Road Rehabilitation and
                                                           5           06/20/11     05/31/12
                 Reconstruction Activities
G²391²11²005²P                               06/20/11      8           06/20/11     05/31/12
                 Under the Quick Impact
                                                           9           06/20/11     05/31/12
                 Projects in South
                 Waziristan
                 Audit of Selected
                                                           1           06/30/11     06/29/12
                 USAID/West Bank and
                                                           2           06/30/11     06/29/12
                 Gaza·s Infrastructure
6²294²11²008²P                               06/30/11      3           09/18/11     06/29/12
                 Needs Program I:
                                                           4           06/30/11     06/29/12
                 Selected Water Task
                                                           5           09/18/11     06/29/12
                 Orders
                                                           1           07/20/11     06/30/12
                                                           2           07/20/11     07/01/12
                 Audit of USAID/Southern
                                                           3           07/20/11     06/30/12
4²674²11²009²P   Africa·s HIV/AIDS           07/20/11
                                                           4           07/20/11     08/01/12
                 Treatment Activities
                                                           5           07/20/11     06/30/12
                                                           6           07/20/11     06/30/12
                 Audit of
                 USAID/Bangladesh·s
5²388²11²008²P   Integrated Protected        07/21/11      2           07/21/11     07/15/12
                 Area Co²management
                 Project




      Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 67
                                 USAID Office of Inspector General


                                                                                      Final
  Report                                      Issue       Rec.       Management      Action
                  Subject of Report
  Number                                      Date        No.        Decision Date   Target
                                                                                      Date

                                                           1.1          07/21/11     06/30/12
                                                           1.2          07/21/11     06/30/12
                                                           1.3          07/21/11     06/30/12
                                                           1.4          07/21/11     06/30/12
                                                           1.5          07/21/11     06/30/12
                                                           1.6          07/21/11     06/30/12
                                                           2.1          07/21/11     06/30/12
                 Audit of Selected USAID
                                                           2.2          07/21/11     06/30/12
                 Missions· Efforts to
                                                           2.3          07/21/11     06/30/12
1²000²11²002²P   Mitigate Environmental       07/21/11
                                                           2.4          07/21/11     06/30/12
                 Impact in Their Project
                                                           2.5          07/21/11     06/30/12
                 Portfolios
                                                           2.6          07/21/11     06/30/12
                                                           3.1          07/21/11     06/30/12
                                                           3.2          07/21/11     06/30/12
                                                           3.3          07/21/11     06/30/12
                                                           3.4          07/21/11     06/30/12
                                                           3.5          07/21/11     06/30/12
                                                           3.6          07/21/11     06/30/12

                 Audit of USAID/Sudan·s
4²650²11²010²P   Maternal and Child           07/28/11      3           07/28/11     07/28/12
                 Health Activities
                                                           1            07/28/11     06/29/12
                                                           2            03/12/12     06/29/12
                                                           3            07/28/11     06/29/12
                                                           4            07/28/11     06/29/12
                                                           5            07/28/11     06/29/12
                 Audit of USAID/Bolivia·s
                                                           6            07/28/11     06/30/12
1²511²11²006²P   Integrated Food Security     07/28/11
                                                           7            07/28/11     06/29/12
                 Program
                                                           8            07/28/11     06/28/12
                                                           9            07/28/11     06/29/12
                                                           10           07/28/11     06/29/12
                                                           11           07/28/11     06/29/12
                                                           12           07/28/11     06/29/12

                                                            1           08/25/11     04/30/12
                 Audit of Phase III of
                                                            2           08/25/11     04/30/12
                 USAID/India·s Innovations
5²386²11²010²P                                08/25/11      3           08/25/11     04/30/12
                 in Family Planning
                                                            4           08/25/11     04/30/12
                 Services Project
                                                            6           08/25/11     07/31/12
                 Follow²up Audit of
1²514²11²008²P   USAID/Colombia·s             08/29/11      1           08/29/11     07/14/12
                 Human Rights Program
                                                            2           08/31/11     05/31/12
                 Review of
                                                            4           03/13/12     05/31/12
                 USAID/Afghanistan·s
F²306²11²005²S                                08/31/11      5           08/31/11     05/31/12
                 Afghan Civilian Assistance
                                                            6           03/13/12     05/31/12
                 Program
                                                            7           02/14/12     05/31/12


      Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 68
                                 USAID Office of Inspector General


                                                                                      Final
  Report                                      Issue       Rec.       Management      Action
                  Subject of Report
  Number                                      Date        No.        Decision Date   Target
                                                                                      Date
                                                           1.1          07/21/11     06/30/12
                                                           1.2          07/21/11     06/30/12
                                                           1.3          07/21/11     06/30/12
                                                           1.4          07/21/11     06/30/12
                                                           1.5          07/21/11     06/30/12
                                                           1.6          07/21/11     06/30/12
                                                           2.1          07/21/11     06/30/12
                 Audit of Selected USAID
                                                           2.2          07/21/11     06/30/12
                 Missions· Efforts to
                                                           2.3          07/21/11     06/30/12
1²000²11²002²P   Mitigate Environmental       07/21/11
                                                           2.4          07/21/11     06/30/12
                 Impact in Their Project
                                                           2.5          07/21/11     06/30/12
                 Portfolios
                                                           2.6          07/21/11     06/30/12
                                                           3.1          07/21/11     06/30/12
                                                           3.2          07/21/11     06/30/12
                                                           3.3          07/21/11     06/30/12
                                                           3.4          07/21/11     06/30/12
                                                           3.5          07/21/11     06/30/12
                                                           3.6          07/21/11     06/30/12
                                                            1           09/26/11     09/30/12
                                                            2           09/26/11     09/30/12
                                                            3           09/26/11     09/30/12
                 Audit of                                   4           09/26/11     09/30/12
1²518²11²009²P   USAID/Ecuador·s              09/26/11      5           09/26/11     09/30/12
                 Environment Program                        6           09/26/11     05/31/12
                                                            7           09/26/11     03/31/13
                                                            8           09/26/11     03/31/13
                                                            9           09/26/11     05/31/12
                 Audit of USAID/West
                 Bank and Gaza·s                            1           09/28/11     09/28/12
6²294²11²009²P   Palestinian Authority        09/28/11      3           09/28/11     09/28/12
                 Capacity Enhancement                       4           09/28/11     09/28/12
                 Program
                                                           1            09/29/11     05/31/12
                                                           2            09/29/11     05/31/12
                                                           3            09/29/11     05/31/12
                 Audit of
                                                           4            09/29/11     05/31/12
                 USAID/Afghanistan·s On²
                                                           5            09/29/11     05/31/12
                 Budget Funding
                                                           6            09/29/11     05/31/12
                 Assistance to the Ministry
F²306²11²004²P                                09/29/11     7            09/29/11     05/31/12
                 of Public Health in
                                                           8            09/29/11     05/31/12
                 Support of the
                                                           9            09/29/11     05/31/12
                 Partnership Contracts for
                                                           10           09/29/11     05/31/12
                 Health Services Program
                                                           11           09/29/11     05/31/12
                                                           12           01/27/12     05/31/12
                                                           13           09/29/11     05/31/12




      Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 69
                           USAID Office of Inspector General



     Incidents in Which OIG Was Refused Assistance or
                        Information
                                        USAID
                      October 1, 2011²March 31, 2012



Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
report to the head of the agency whenever requested information or assistance is
unreasonably refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 70
                              USAID Office of Inspector General



                                     Financial Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                            USAID
                            October 1, 2011²March 31, 2012
                                                                               Amt. of
 Report          Date of                                                                  Type of
                                             Report Title                      Findings
 Number          Report                                                                   Findings
                                                                                ($000)
                  American Recovery and Reinvestment Act of 2009 (ARRA)
                              Improper Payments Made Under the American
0²000²12²001²K   02/23/12     Recovery and Reinvestment Act of 2009              100        QC

                                   Programs and Operations
                              Audit of USAID·s Financial Statements for
0²000²12²001²C   11/15/11
                              Fiscal Years 2011 and 2010

                                  Foreign Based Organizations
                              Audit of the National Bank of Georgia Under
                              USAID Grant Agreement No. LSG²114²G²
0²114²12²001²R   10/03/11
                              09²00001, for Fiscal Year Ended December 31,
                              2010
                              Audit of the Mentor Initiative, Under Multiple
                              Agreements for Fiscal Year Ended                    4         QC
0²000²12²002²R   10/06/11
                              September 30, 2009                                  4         UN

                              Audit of Save the Children UK, Under USAID
0²000²12²003²R   11/01/11     Multiple Agreements for Fiscal Year Ended
                              December 31, 2010
                              Audit of the Center for Anti²Corruption
                              Research and Initiative "Transparency
0²118²12²004²R   10/06/11     International²R" Under USAID Cooperative
                              Agreement No. 118²A²00²06²00082 for Fiscal
                              Year Ended December 31, 2010
                              Audit of the Foundation for Information Policy
                              Development, Under USAID Cooperative
0²118²12²005²R   10/11/11     Agreement No. 118²A²00²04²00061, for
                              Fiscal Year Ended December 31, 2010
                              Close²Out Audit of Stavropol Regional Public
                              Charitable Organization "Faith, Hope, and
                              Love" Under USAID Cooperative Agreement
0²118²12²006²R   10/08/11                                                         3         QC
                              No. 118²G²00²02²00159 for the Period From
                              September 18, 2002, Through September 23,
                              2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 71
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of International HIV/AIDS Alliance
0²000²12²007²R   10/12/11   Under USAID Multiple Agreement for Fiscal
                            Year Ended December 31, 2010
                            Audit of the New Eurasia Foundation Under
0²118²12²008²R   10/12/11   Multiple Agreements for Fiscal Year Ended
                            December 31, 2010
                            Audit of the Center for Fiscal Policy,
                            Consulting Group Under USAID Cooperative
0²118²12²009²R   10/12/11   Agreement No. 118²A²00²03²00084 and
                            Agreement No. COMPASS²CPF²2010²01
                            Audit of Fund "Healthy Russia," Under Multiple
                            Agreements, for the Period January 1, 2006, to      41         QC
0²118²12²010²R   10/12/11
                            December 31, 2009                                   34         UN
                            Audit of the Foundation Open Society Institute
                            Macedonia Under USAID Grant No. 165²G²
0²165²12²011²R   10/14/11   00²02²00113²00 and Cooperative Agreement
                            No. 165²A²00²04²00101²00 for Fiscal Year
                            Ended December 31, 2010
                            Close²Out Audit of Junior Achievement of
                            Armenia NGO Under USAID Grant
0²111²12²012²R   10/17/11   Agreement No. 111²G²00²06²00082 for the
                            Period From September 1, 2006, Through
                            September 30, 2010
                            Audit of the Agency for Social Information,
                            Under USAID Cooperative Agreement No.
0²118²12²013²R   10/18/11
                            118²A²00²07²00059²00 for Fiscal Year Ended
                            December 31, 2010
                            Audit of the All²Ukrainian Public Organization
                            "Institute for Budgetary and Socio²Economic
0²121²12²014²R   10/19/11   Research," Under USAID Agreement No. 121²
                            A²00²08²00708²00, for the Period Ending
                            December 31, 2010
                            Audit of the Centre for Social and Labor Rights
                            Under USAID Cooperative Agreement No.
0²118²12²015²R   10/20/11   118²A²00²04²00047²00 for Fiscal Year Ended
                            December 31, 2010
                            Audit of Kindernothlife e.V. Under USAID
0²000²12²016²R   10/20/11   Grant Agreement GHO²A²00²09²00012²00
                            for Fiscal Year Ended December 31, 2010
                            Audit of Charitable Organization "Commercial
                            Law Center" Under USAID Cooperative
0²121²12²017²R   10/21/11   Agreement Nos. 121²A²00²07²00708²00 and              2         QC
                            121²A²00²08²00704 for the Fiscal Year Ended
                            December 31, 2008




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 72
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of Charitable Organization "Commercial
                            Law Center" Under USAID Cooperative
0²121²12²018²R   10/24/11   Agreement Nos. 121²A²00²07²00708²00 and             3         QC
                            121²A²00²08²00704 for the Fiscal Year Ended
                            December 31, 2009
                            Audit of The Mentor Initiative, Under Multiple
0²000²12²019²R   10/25/11   Agreements for Fiscal Year Ended
                            September 30, 2010
                            Audit of the Foundation for Independent Radio
                            Broadcasting Under USAID Multiple
0²118²12²020²R   11/01/11
                            Agreements for Fiscal Year Ended
                            December 31, 2010
                            Audit of the Institute for Urban Economics,
0²118²12²021²R   12/16/11   Under USAID Multiple Agreements for Fiscal
                            Year Ended December 31, 2010
                            Audit of Kindernothilfe e.V. Under USAID
                            Cooperative Agreement No. GHO²A²00²09²
0²000²12²022²R   11/01/11
                            00012²00 for Fiscal Year Ended December 31,
                            2009
                            Audit of RCO "GOLOS," Under USAID
                            Cooperative Agreement No. 118²A²00²07²
0²000²12²023²R   11/16/11
                            00028 for Fiscal Year Ended December 31,
                            2010
                            Audit of Norwegian Refugee Council Under
0²000²12²024²R   11/17/11   USAID Multiple Agreements for the Fiscal Year
                            Ended December 31, 2010
                            Audit of Action Contre La Faim Under USAID
0²000²12²025²R   11/21/11   Multiple Agreements for Fiscal Year Ended
                            December 31, 2010
                            Audit of Foundation for Democracy "GOLOS"
                            Under USAID Cooperative Agreement No.
0²118²12²026²R   12/01/11
                            118²A²00²10²00070 for Fiscal Year Ended
                            December 31, 2010
                            Audit of Inter²Regional Public Foundation
                            "Siberian Civic Initiatives Support Center"
0²118²12²027²R   12/06/11   Under Multiple Agreements for Fiscal Year
                            Ended December 31, 2010
                            Audit of National Foundation for the
                            Prevention of Cruelty to Children Under
0²118²12²028²R   12/02/11   USAID Multiple Agreements for Fiscal Year
                            Ended December 31, 2010
                            Close²Out Audit of MSPS Graduates
                            Community for Civil Education Under USAID
0²118²12²029²R   12/09/11   Cooperative Agreement No. 118²A²00²07²
                            00047 for the Period September 24, 2007,
                            Through September 30, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 73
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of Christian Aid, Under USAID
                            Agreement Nos. GPO²A²00²05²00021²00
0²000²12²030²R   12/09/11
                            and 620²A²00²07²00071²00, for Fiscal Year
                            Ended March 31, 2008
                            Audit Report of the Fund for Sustainable
                            Development, Under USAID Agreement No.
0²118²12²031²R   12/16/11   118²A²00²06²00060²00, for the Year Ended
                            December 31, 2010

                            Audit of Solidarites International, Under
0²000²12²032²R   12/21/11   USAID Multiple Agreements for Fiscal Year
                            Ended December 31,2010

                            Audit of the Association of Ukraine Cities and
                            Communities Under USAID Cooperative
0²121²12²033²R   01/04/12
                            Agreement No. 121²A²00²10²00703 for Fiscal
                            Year Ended December 31, 2010
                            Audit of the Foundation "Gaidar Institute for
                            the Economic Policy," Under USAID
0²118²12²034²R   01/19/12   Cooperative Agreement No. 118²A²00²00²
                            00130²00, for the Fiscal Year Ending
                            December 31, 2010
                            Audit of EveryChild Under USAID Grant
0²000²12²035²R   01/04/12   Agreement No. GPO²A²00²04²0021²00 for               4         QC
                            the Fiscal Year Ended March 31, 2011
                            Audit of Retrak, Inc. Under Grant Agreement
                                                                                8         QC
0²000²12²036²R   01/13/12   GHO²A²00²09²0006²00 for Fiscal Year
                            Ended December 31, 2010
                            Audit of Norwegian People·s Aid, Under
                                                                               33         QC
0²000²12²037²R   01/17/12   USAID Multiple Agreements for Fiscal Year
                                                                               33         UN
                            Ended December 31, 2009
                            Audit of GOAL, Under USAID Multiple
                                                                               59         QC
0²000²12²038²R   01/23/12   Agreements for Fiscal Year Ended
                                                                               59         UN
                            December 31, 2005
                            Audit of Tearfund, Under USAID Multiple
                                                                               25         QC
0²000²12²039²R   01/30/12   Agreements for Fiscal Year Ended March 31,
                                                                               17         UN
                            2010
                            Audit of Tearfund, Under USAID Multiple
0²000²12²040²R   01/30/12   Agreements for Fiscal Year Ended March 31,
                            2011
                            Close²Out Audit of the National Bank of
                            Georgia Under USAID Grant Agreement No.
0²114²12²041²R   02/10/12
                            LSG²114²G²09²00001, for the Period May 28,
                            2009, to September 30, 2011
                            Audit of GOAL, Under Multiple Agreements           954        QC
0²000²12²043²R   03/16/12
                            for Fiscal Year Ended December 31, 2006            102        UN




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 74
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of the Fund Accountability Statement of
                            the USAID Cooperative Agreement No. 596²
                            A²00²06²00092²00, for the "Custom
1²596²12²005²R   12/07/11   Harmonization," Managed by the Secretariat
                            for the Central American Economical
                            Integration (SIECA), for the Year Ended
                            December 31, 2010
                            Audit of the Fund Accountability Statement of
                            USAID Resources Provided Under Strategic
                            Agreement No. 596²A²00²06²00078²00
                            "Economic Freedom: Open Diversified
                            Expanding Economies in Central America and
1²596²12²006²R   12/07/11
                            the Dominican Republic²DR²CAFTA"
                            Managed by Comision Centroamerica de
                            Ambiente y Desarrollo (CCAD) for the Period
                            From January 1, 2009, Through December 31,
                            2010
                            Audit of the Fund Accountability Statement of
                            WKH´&RPPXQLWDULDQ+HDOWK3URMHFWµ
                            Cooperative Agreement No. 511²A²00²05²
                                                                                1         QC
1²511²12²007²R   12/13/11   00113²00, Managed and Implemented by the
                                                                                1         UN
                            Integral Health Coordination Program
                            (PROCOSI), for the Year Ended
                            December 31, 2010
                            Audit of the Fund Accountability Statement of
                            the Program to Strengthen Competitiveness of
                            Guatemalan Business and Products,
1²520²12²008²R   12/13/11   Cooperative Agreement No. 520²A²00²05²
                            00009²00, Administered by the Asociación
                            Guatemalteca de Exportadores (AGEXPORT),
                            for the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by the
                            Caribbean Community Secretariat
                            (CARICOM) Under Regional Strategic
                            Objectives Grant Agreement Number 538²
1²538²12²009²R   12/16/11                                                      12         QC
                            010²01 for the Period January 1, 2010, to
                            December 31, 2010, and Close²out Audit for
                            Grant Agreement 538²009²01 for the Period
                            January 1, 2010, to September 30, 2010
                            Audit of the Fund Accountability Statement of
                            the Project "Strengthening Health Care and
                            Basic Education" Cooperative Agreement No.
                            519²A²00²06²00033²00 Between the United
1²519²12²010²R   12/23/11   States Agency for International Development
                            (USAID), Mission in El Salvador, and Fundación
                            Empresarial Para el Desarrollo Educativo
                            (FEPADE), for the Year Ended December 31,
                            2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 76
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Financial Audit of USAID Resources Managed
                            by Joint Board of Teacher Education/University
                            of the West Indies (JBTE/UWI) for the
                                                                               368        QC
1²532²12²011²R   12/23/11   Caribbean Centre of Excellence for Teacher
                                                                               314        UN
                            Training Project Under Cooperative Agree²
                            ment 532²A²00²06²00076²00 for the Period
                            October 1, 2008, to September 30, 2009
                            Audit of the Cooperative Agreement No. 511²
                            A²00²02²00295²00²²Social Marketing and
                            Cooperative Agreement No. 511²A²00²02²
1²511²12²012²R   12/23/11   00261²00²²Partners for Development;
                            Managed by the Health Protection Association
                            (PROSALUD) for the Year Ended
                            December 31, 2010
                            Audit of USAID Grant Agreement No. 527²
                            0407/527²0423; Strengthened Environmental
                            Management (STEM) Project; Managed by the
1²527²12²013²R   12/23/11
                            "Ministerio del Ambiente²MINAM" for the
                            Period From January 1, 2010, to December 31,
                            2010
                            Audit of the Technical²Financial Cooperation
                            Agreement No. 512²A²00²08²00005²00 of
                            USAID Project Protecao Etno²Ambiental de
                                                                               132        QC
1²512²12²014²R   12/29/11   Indios Isolados na Amazonia Brasileira,
                                                                               132        UN
                            Managed by Centro de Trabalho Indigenista
                            (CTI), for the Period From October 1, 2008,
                            to December 31, 2009
                            Audit of the Fund Accountability Statement
                            USAID Donation Agreement No. 511²0660,
                            Managed by the Local Roads Project (CC.VV.)
                                                                               288        QC
1²511²12²015²R   01/12/12   for the Strategic Objective Increasingly
                                                                               288        UN
                            Sustainable Economic Diversification in Coca
                            Crop Areas and Associated Areas for the Year
                            Ended December 31, 2010
                            Close²out Audit of USAID Resources Managed
                            by the Organization of Eastern Caribbean
                            States (OECS), Under Grant Agreement No.           242        QC
1²538²12²016²R   01/18/12
                            538²009²04 "Protecting the Eastern Caribbean       202        UN
                            Region·s Biodiversity," for the Period From
                            November 1, 2008, to September 30, 2010
                            Audit of the Strategic Objective Agreement
                            No. 527²0423, Managed by the Comision
1²527²12²017²R   01/20/12   Nacional Para el Desarrollo y Vida Sin Drogas       3         QC
                            (DEVIDA) for the Period From January 1 to
                            December 31, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 77
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                           Report Title                     Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Close²out Audit of the USAID Agreement No.
                            512²A²00²03²00026² 00 Under the ALFA
                            Consortium (Sustainable Communities and
                                                                             2,003       QC
1²512²12²018²R   01/26/12   Landscapes Program), Managed by Instituto
                                                                             1,766       UN
                            Internacional de Educação do Brasil (IEB) for
                            the Period From October 1, 2006, to
                            December 31, 2007
                            Close²out Audit of the Fund Accountability
                            Statement, Grant Agreement No. 514²008 for
                            the "Reduction of Illicit Crop Production in
                                                                              448        QC
1²514²12²019²R   01/31/12   Selected Areas of Colombia," Managed by the
                                                                              439        UN
                            Colombian Agency for International
                            Cooperation (Acción Social), for the Period
                            From August 30, 1999, to September 30, 2003
                            Audit of the "Building More Inclusive and
                            Equitable Democracies in the Americas,"
                            Project RLA²A²00²09²00006²00 and the
                            "Support of Ecuador·s 2009 National
1²598²12²020²R   02/02/12
                            Elections," Project AID²518²A²09²00002,
                            Managed by the Inter²American Institute of
                            Human Rights (IIHR), for the Year Ended
                            December 31, 2010
                            Audit of the USAID Agreement No. 512²A²
                            09²00002²00 Brazil Clean and Renewable
                            Energy Program, Managed by Instituto de           37         QC
1²512²12²021²R   02/06/12
                            Desenvolvimento Sustentavel e Energias            30         UN
                            Renovaveis (IDER) for the Period From
                            October 1, 2009, to December 31, 2010
                            Close²out Audit of the Cooperative
                            Agreement No. 527²A²09²00001 for the
                            Project "Strengthen the Role of the Civil
1²527²12²022²R   02/07/12   Society in the Fight Against Corruption,"
                            Managed by Consejo Nacional Para la Ética
                            Publica (PROETICA), for the Period From
                            February 1, 2009, to July 31, 2011
                            Report on the Examination of the Financial
                            Reports for Cooperative Agreement Nos.
                            518²A²00²07²00067²00 "Integrated Municipal
                            Development Program (MIDP)," and 518²A²
1²518²12²023²R   02/22/12   10²00005, Audit of the "Program to Combat
                            the Trafficking in Persons in Ecuador (TIP),"
                            Managed by the International Organization for
                            Migration (IOM), for the Year Ended
                            December 31, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 78
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Close²out Audit of Cooperative Agreement
                            No. 518²A²00²08²00031²00, "Labor Insertion
                            Service Program For Handicapped People in
1²518²12²024²R   02/23/12   Ecuador," managed by the Federación Nacional
                            de Ecuatorianos con Discapacidad Física
                            (FENEDIF), for the Period July 1, 2008, to
                            January 31, 2010
                            Audit of the Cooperative Agreement No. 518²
                            A²00²07²00056²00, "Program for the
                            Protection of Water Resources to Keep the
                            Biodiversity: Financial Mechanisms for the
                                                                               140        QC
1²518²12²025²R   02/29/12   Protection of the Watersheds of Ecuador,"
                                                                               127        UN
                            Managed by the Fideicomiso Mercantil Fondo
                            Ambiental Para la Protección de las Cuencas y
                            Agua (FONAG), for the Period From
                            October 1, 2009, to September 30, 2010
                            Audit of Cooperative Agreement "Quality
                            Assurance and Small Business Development
                            Program," Grant Agreement No. 520²A²00²
                                                                               141        QC
1²520²12²026²R   03/06/12   06²00105²00, Managed by Fundacion de
                                                                               141        UN
                            Apoyo a la Generación de Ingresos Locales ²
                            Fundacion AGIL (AGIL) for the Period Ended
                            December 31, 2010
                            Audit of USAID Resources "MYAP ² Multiyear
                            Assistance Program," Under PL²480 Title II,
                            Cooperative Agreement No. FFP²A²00²07²
1²520²12²027²R   03/09/12                                                      21         QC
                            00010²00, Managed by the Asociación SHARE
                            de Guatemala (SHARE), for the Period
                            October 1, 2009, Through September 30, 2010
                            Audit of the Cooperative Agreement No.
                            AID²514²A²09²00004 for the "Strengthen the
                            Institutional Capacity and Governance of
                            Colombia·s Protected Areas for Long²Term
                            Environmental Conservation, Community and
1²514²12²028²R   03/15/12
                            Cultural Preservation and Improved
                            Livelihoods" Managed by PATRIMONIO
                            NATURAL ² Fondo Para la Biodiversidad y
                            Areas Protegidas, for the Period From July 24,
                            2009, to December 31, 2010
                            Audit of the Fund Accountability Statement of
                            Cooperative Agreement No. 527²A²00²08²
                            00014²02 "Youth Development in Peruvian
                            Coca Growing Areas" and Agreement No.
                            1055PER10.24, "Work Obra (International
1²527²12²029²R   03/20/12
                            Youth Foundation IYF)," Managed by the
                            Information and Education Center for the
                            Prevention of Drug Abuse (CEDRO), for the
                            Period From March 1, 2010, to February 28,
                            2011



     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 79
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of Cooperative Agreement No. AID²
                            512²A²09²00004²02 for the "Brazil Youth
                                                                                297        QC
1²512²12²030²R   03/21/12   Employability Program," Managed by Instituto
                                                                                297        UN
                            Empreender for the Period From October 1,
                            2009, to December 31, 2010
                            Audit of the Cooperative Agreement No. 521²
                            A²00²10²00014²00 for the "Promoting
                            Proactive Transparency and Accountability in
1²521²12²031²R   03/21/12                                                       26         QC
                            Haiti," Managed by La Fondation Heritage Pour
                            Haiti (LFHH), for the Period From May 1,
                            2010, to April 30, 2011
                            Close²out Audit of the "Family Planning and
                            Reproductive Health Services Program," Under
                            USAID·s Cooperative Agreement No. 511²A²
1²511²12²032²R   03/21/12   00²04²00298²00, Managed by Center for
                            Research, Education and Services (CIES), for
                            the Period From January 1 to September 30,
                            2011
                            Close²out Audit of the "Invest in the Education
                            Competitiveness Program," Agreement No.
                            517²G²00²07²00101²00, Managed by the
1²517²12²033²R   03/23/12   American Chamber of Commerce of the                 24         QC
                            Dominican Republic, Inc., (AMCHAMDR), for
                            the Period From October 1, 2008, to
                            September 30, 2009
                            Close²out Audit of the Fund Accountability
                            Statement of the Program "Support to Arising
                            Market of Certified Forest Products,"
                            Cooperative Agreement 511²A²00²02²
                            00206²00 and "Integrated Development and
                            Conservation in Bolivian Amazon Project"
1²511²12²034²R   03/23/12
                            Subcontract No. EEP²1²00²06²00013²00²
                            CADEFOR²01 and Grant Agreement No.
                            IBA²001²2010; Administered by the
                            Amazonian Forest Development Center
                            (CADEFOR), for the Period From January 1,
                            2010, to March 31, 2011
                            Audit of Fund Accountability Statement of
                            USAID Resources, Grant Agreement No. 517²
                            A²00²10²00100²00, Administered by the
1²517²12²035²R   03/30/12   American Chamber of Commerce of the                 10         QC
                            Dominican Republic, Inc., (AMCHAMDR), for
                            the Period From October 1, 2009, to
                            December 31, 2010
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by the Southern African
                            Development Community Parliamentary                 133        QC
4²674²12²001²D   12/19/11
                            Forum (SADC²PF) Under Strategic Objective            6         UN
                            Grant Agreement No. 690²0305 for the Two
                            Years Ended March 31, 2011



     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 80
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Agency Contracted Audit of USAID Resources
                            Managed by Deloitte (Uganda) Limited Under         10         QC
4²617²12²001²N   10/26/11
                            Contract No. 617²C²00²07²00004²00 for the          8          UN
                            Year Ended June 30, 2010
                            Audit of USAID Resources Managed by
                            Luapula Foundation Under Agreement No.
4²936²12²001²R   10/06/11                                                       1         QC
                            GHH²A²00²07²00021²00 for the Year Ended
                            September 30, 2009
                            Audit of USAID Resources Managed by
                            Kilimanjaro International Corporation Through
                            Contract Nos. 621²I²00²08²00002²00, 621²I²
                            00²08²00007²00, 621²C²00²09²00006²00
                                                                              1,518       QC
4²621²12²002²N   11/03/11   and 621²I²00²09²00001²00 and Close²out
                                                                               871        UN
                            Audit of Contract Nos. 621²C²00²07²00001²
                            00 and 621²C²00²08²00001²00, for the
                            Period From November 13, 2006, to
                            December 31, 2009
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare ² Centre
                            for Educational Development in Health Arusha
4²621²12²002²R   10/06/11   (CEDHA) Under the Strategic Objective Grant         6         QC
                            Agreement No. 621²0011.01, Implementation
                            Letters No. 11, 16, and 20 for the Period
                            July 1, 2008, to June 30, 2009
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by KOKA Koimburi and
                                                                               52         QC
4²615²12²003²N   11/14/11   Company Under Contract No. 623²C²00²08²
                                                                               27         UN
                            00015²00 for the Period January 1, 2009, to
                            April 30, 2010
                            Audit of USAID Resources Managed by
                            Luapula Foundation Under Cooperative               49         QC
4²936²12²003²R   10/07/11
                            Agreement No. GHH²A²00²07²00021²00 for             12         UN
                            the Year Ended September 30, 2008
                            Audit of USAID Resources Managed by Total
                            Land Care²Spice Promotion in Commercial
                            Enterprises Project (SPICE) Under
4²612²12²004²R   10/18/11
                            Cooperative Agreement No. 674²A²00²09²
                            00051²00, for the Year Ended September 30,
                            2010
                            Close out Agency Contracted Audit of USAID
                            Resources Managed by The Malawi Network
                            of AIDS Service Organizations (MANASO)             87         QC
4²612²12²005²N   01/20/12
                            Under Cooperative Agreement No. 690²A²             86         UN
                            00²03²00195²00 for the Period From May 19,
                            2004, to May 31, 2009




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 81
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Audit of USAID Resources Managed by
                            Pastoral Activities and Services for People
                            With AIDS Dar es Salaam Archdiocese
4²621²12²005²R   10/18/11
                            (PASADA) Under Development Assistance
                            Grant Agreement No. 621²A²00²06²00011²
                            00 for the Year Ended December 31, 2009
                            Audit of USAID Resources Managed by Right
                            to Care Under Cooperative Agreement Nos.
                                                                                  2         QC
4²674²12²006²R   10/20/11   674²A²00²08²00007²00 and 674²A²00²09²
                                                                                  2         UN
                            00001²00 for the Year Ended September 30,
                            2010
                            Audit of USAID Resources Managed by Imbuto
                            Foundation as Sub²Grantee Under
4²936²12²007²R   10/21/11   Mothers2mothers Cooperative Agreement                18         QC
                            No. GHH²A²00²07²0019²00 for the Year
                            Ended December 31, 2009
                            Audit of USAID Resources Managed by Total
                            Land Care Kulera Biodiversity Project Under
                                                                                 322        QC
4²612²12²008²R   10/21/11   Cooperative Agreement No. 674²A²00²09²
                                                                                 242        UN
                            00140²00, for the Year Ended September 30,
                            2010
                            Closeout Audit of USAID Resources Managed
                            by Mindset Network Under Agreement No.               980        QC
4²674²12²009²R   10/26/11
                            674²A²00²04²00071²00 for the Period                  838        UN
                            January 1, 2006, to August 31, 2008
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare Primary
                            Health Care Institute in Iringa Under Strategic
4²621²12²010²R   11/01/11
                            Objective Grant Agreement No. 621²0011.01,
                            Implementation Letters 19, 25, and 28 for the
                            Year Ended June 30, 2010
                            Audit of USAID Resources Managed by the
                            AIDS Support Organization Uganda Limited
4²617²12²011²R   11/04/11   Under Cooperative Agreement No. AID 617²
                            A²09²00005²00 for the Year Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by the
                            Foundation for Professional Development
                                                                                 26         QC
4²674²12²012²R   11/07/11   Under Cooperative Agreement No. 674²A²
                                                                                 1          UN
                            00²08²0006²00 for the Year Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by
                            Pastoral Activities and Services for People with
                            AIDS Dar es Salaam Archdiocese (PASADA)
4²621²12²013²R   11/14/11
                            Under Grant Agreement No. 621²A²0²06²
                            00011²00 for the Year Ended
                            December 31, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 82
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID Resources Managed by the
                            Association for Strengthening Agricultural
                            Research in Eastern and Central Africa
4²623²12²014²R   11/14/11
                            (ASARECA) Under Cooperative Agreement
                            No. 623²A²00²06²00082²00 for the Year
                            Ended December 31, 2010
                            Closeout Audit of USAID Resources Managed
                            by African Medical and Research Foundation
                            (AMREF) Tanzania Under Cooperative               857        QC
4²621²12²015²R   11/14/11
                            Agreement No. 623²A²00²01²000055²00 for          690        UN
                            the Period March 30, 2001, to September 30,
                            2008

                            Closeout Audit of USAID Resources Managed
                            by Luapula Foundation Under Agreement No.         1         QC
4²936²12²016²R   11/14/11
                            GHH²A²00²07²00021²00 for the Period               1         UN
                            October 1, 2009, to February 28, 2011

                            Closeout Audit of USAID Resources Managed
                            by Confederacao das Associacoes Economicas
                            de Mocambique (CTA Mozambique) Under
4²656²12²017²R   11/15/11
                            Cooperative Agreement No. 656²A²00²04²
                            00050²00 for the Period October 1, 2009, to
                            March 31, 2010
                            Audit of USAID Resources Managed by
                            Grassroots Alliance for Community Education
4²936²12²018²R   11/15/11   (G.R.A.C.E) Africa Under Cooperative
                            Agreement No. GHO²A²00²09²00004²00 for
                            the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by
                            Development Aid From People to People in
                            Zambia (DAPP) Under Cooperative
                            Agreement No. 611²A²00²09²00001²00
                            (School Washe) for the Period March 11,          14         QC
4²611²12²019²R   11/16/11
                            2009, to December 31, 2009; and Closeout         7          UN
                            Audit of USAID Resources Managed by DAPP
                            Under Sub Agreement No. GHH²A²00²07²
                            00019²00 (Mothers to Mothers) for the Period
                            January 1, 2009, to November 30, 2009
                            Audit of USAID Resources Managed by Wits
                            Health Consortium (WHC) Under
                                                                              4         QC
4²674²12²020²R   11/16/11   Cooperative Agreement No. 674²A²00²08²
                                                                              4         UN
                            00005²00 for the Year Ended September 30,
                            2010
                            Audit of USAID Resources Managed by Wits
                            Health Consortium Under Cooperative
                                                                             57         QC
4²674²12²021²R   11/16/11   Agreement Nos. 674²A²00²08²00009²00 and
                                                                             8          UN
                            674²A²00²08²00005²00 for the Year Ended
                            September 30, 2009




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 83
                            USAID Office of Inspector General


                                                                          Amt. of
  Report         Date of                                                             Type of
                                          Report Title                    Findings
  Number         Report                                                              Findings
                                                                           ($000)
                            Audit of USAID Resources Managed by Marie
                            Stopes Uganda Under Cooperative Agreement
4²617²12²022²R   11/16/11                                                    5         QC
                            No. AID 617²10²00004 for the Period May 21,
                            2010, to December 31, 2010
                            Audit of USAID Resources Managed by
                            International Peacebuilding Alliance
                            (Interpeace) Under Grant Agreement No.
                            623²G²00²06²00063²00, and Closeout Audits
4²623²12²023²R   11/23/11
                            of USAID Resources Managed by Interpeace
                            Under Grant Agreement Nos. 696²G²00²08²
                            00129²00 and 623²G²00²08²00012²00 for
                            the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by
                            Reproductive Health Uganda Under
                                                                             4         QC
4²617²12²024²R   11/28/11   Cooperative Agreement No. AID 617²A²09²
                                                                             4         UN
                            00007 for the Period September 1, 2009, to
                            December 31, 2010
                            Audit of USAID Resources Managed by Inter²
                            Religious Council of Uganda Under
4²617²12²025²R   11/28/11                                                   13         QC
                            Cooperative Agreement No. AID²617²A²10²
                            00002 for the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by
                            ANOVA Health Institute Under Cooperative
                            Agreement No. 674²A²00²08²00009²00 and          14         QC
4²674²12²026²R   11/28/11
                            Johns Hopkins Health and Education in South     14         UN
                            Africa Under Subaward No. JHHESA²01²09
                            for the Year Ended September 30, 2010
                            Audit of USAID Resources Managed by African
                            Palliative Care Association Under Award
                            Agreement No. 674²A²00²09²00112²00 and
                            Sub²Agreement Award Nos. H²F3²BOT²07²
                            P²PTR²APBO, H²F3²CDI²07²P²PTR²APTB,
                            U2GPS000631²03²07 and AIDSTAR²ONE²
4²674²12²027²R   11/28/11
                            001 and Closeout Audit of Award Agreement
                            No. 621²A²00²07²00013²00 and Sub²
                            Agreement Award Nos. H²F3²ZAM²06²P²
                            PTR²APPC²00, GPO²A²00²03²00003²00,
                            and P3125²C09²024 for the Year Ended
                            March 31, 2011
                            Audit of USAID Resources Managed by
                            Nawalife Trust Under Cooperative Agreement
4²673²12²028²R   11/29/11                                                    3         QC
                            No. 690²A²00²07²00103²00 for the Year
                            Ended February 28, 2010
                            Audit of USAID Resources Managed by
                            Intergovernmental Authority on Development
4²623²12²029²R   11/29/11   (IGAD) Under Limited Scope Grant
                            Agreement No. 6230009.02²3²60082 for the
                            Year Ended December 31, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 84
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of USAID Resources Managed by
                            Counselling Services Unit Under Grant No.
4²613²12²030²R   12/02/11
                            613²G²00²01²00244²00 for the Year Ended
                            December 31, 2010
                            Closeout Audit of USAID Resources Managed
                            by the Association of Volunteers in
                            International Service, Kenya, under                  1         QC
4²623²12²031²R   12/02/11
                            Cooperative Agreement No. AID²623²A²10²              1         UN
                            00011 for the Period July 1, 2010, to March 31,
                            2011
                            Audit of USAID Resources Managed by
                            Organization for Social Services for AIDS
                                                                                 2         QC
4²663²12²032²R   12/09/11   Under Cooperative Agreement No. 663²A²
                                                                                 2         UN
                            00²08²00423²00 for the Year Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by Link
                            Community Development Under USAID
                                                                                576        QC
4²674²12²033²R   12/09/11   Cooperative Agreement No. 674²A²00²09²
                                                                                569        UN
                            000137²00 for the Thirteen²Month Period
                            Ended October 31, 2010
                            Audit of USAID Resources Managed by
                            Tanzania Red Cross Society Under Agreement
                            Nos. 621²A²00²09²00007²00, 621²G²00²09²
4²621²12²034²R   12/19/11
                            00005²00 and 621²G²00²10²00016²00 for
                            the Twenty²Month Period Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare Zanzibar
                            Malaria Control Program Under the Strategic         44         QC
4²621²12²035²R   12/19/11
                            Objective Grant Agreement No. 6210011.01,           2          UN
                            Implementation Letters 13, 22, 23, and 31 for
                            the Period October 1, 2007, to June 30, 2010
                            Audit of USAID Resources Managed by The
                            University of the Western Cape Under
4²674²12²036²R   12/20/11   Cooperative Agreement No. 674²A²00²09²
                            00019²00 for the Two Years Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by Maasai
                            Women Development Organisation
                            (MWEDO) Under Agreement No. 621²G²00²                1         QC
4²621²12²037²R   01/09/12
                            07²00005²00 and Cooperative Agreement No.
                            621²A²00²08²00010²00 for the Period From
                            January 1, 2009, Through December 31, 2010
                            Closeout Audit of USAID Resources Managed
                            by Water For All Under Cooperative
4²674²12²038²R   01/12/12   Agreement No. RLA²A²00²06²00079²00 for
                            the Period March 1, 2011, to September 21,
                            2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 85
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                          Report Title                      Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Closeout Audit of USAID Resources Managed
                            by Mothers 2 Mothers South Africa Under Sub
                            Agreement No. 13033.00 John Snow Inc. (JSI²
                            Swaziland); and Audit of USAID Resources
                            Managed by Mothers 2 Mothers South Africa
                            Under Cooperative Agreement No. GHH²A²
                            00²07²00019²00 New Partners Initiative; Sub²
                            Agreement No. P3121A0027 President·s
                                                                              186        QC
4²674²12²039²R   01/20/12   Emergency Plan for AIDS Relief; Sub
                                                                              183        UN
                            Agreement No. 36521²02 John Snow Inc. (JSI²
                            Uganda); Sub Agreement No. LMS²Southern
                            Africa CRTA 10²1 Management Science for
                            Health Inc.; Sub Agreement No. 93.067 ²
                            Boston University; and Sub Agreement No.
                            UL²00²9²180²02068²0²00 The Elizabeth
                            Glaser Pediatric Aids Foundation for the Year
                            Ended December 31, 2010
                            Closeout Audit of USAID Resources Managed
                            by Genesis Trust Under Cooperative
                                                                              52         QC
4²969²12²040²R   01/25/12   Agreement No. GHH²A²00²07²00014²00 for
                                                                              42         UN
                            the Period From January 1, 2010, to May 31,
                            2011
                            Audit of USAID Resources Managed by the
                            Children of God Relief Institute Under
                            Cooperative Agreement No. 623²A²00²09²
                            00008²00 (Lea Toto Program) for the 22
4²615²12²041²R   01/25/12
                            Months Ended December 31, 2010, and
                            Cooperative Agreement 623²A²00²09²
                            00027²00 (Nyumbani Village Program) for the
                            24 Months Ended December 31, 2010
                            Closeout Audit of USAID Resources Managed
                            by The University of Cape Town Under Grant        49         QC
4²902²12²042²R   01/26/12
                            Agreement No. DFD²G²00²08²00097²00 for            1          UN
                            the Period March 1, 2008, to August 31, 2011
                            Audit of USAID Resources Managed by Africa
                            Centre for Holistic Management (ACHM)
4²902²12²043²R   02/22/12   Under Grant Agreement No. DFD²G²00²10²
                            00084²00 for the Year Ended December 31,
                            2010
                            Audit of USAID Resources Managed by
                            Hospice Palliative Care Association of South
                            Africa Under Cooperative Agreement No.
                            674²A²00²10²00023²00 and Close²out
                            Procedures in Respect of USAID Cooperative
4²674²12²044²R   02/22/12
                            Agreement No. 674²A²00²08²00002²00 for
                            the South Africa ASSIST Umbrella Grants
                            Management Program: AED Grant No. 3828²
                            00²HPCA²01 for the Year Ended March 31,
                            2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 86
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID Resources Managed by Selian
                            Lutheran Hospital AIDS Control Program
4²621²12²045²R   02/22/12   Under Development Assistance Award No.
                            621²A²00²07²00001²00 for the Year Ended
                            December 31, 2010
                            Audit of USAID Resources Managed by the
                            Laikipia Wildlife Forum for the Laikipia
                            Biodiversity Conservation Program Under
4²615²12²046²R   02/22/12                                                     8         QC
                            Cooperative Agreement No. 623²A²00²06²
                            00032²00 for the Fifteen Month Period Ended
                            December 31, 2010
                            Close²out Audit of USAID Resources Managed
                            by Integrated Community Based Initiatives
4²936²12²047²R   02/23/12   (ICOBI) Under Cooperative Agreement No.
                            GHO²A²00²08²00005²00 for the Period
                            July 1, 2010, to October 3, 2011
                            Close²out Audit of USAID Resources Managed
                            by KPMG Kenya Under Grant Agreement No.
4²615²12²048²R   02/23/12
                            AID²623²G²00²10²00002 for the Period
                            March 5, 2010, to April 4, 2011
                            Audit of USAID Resources Managed by
                            Botswana Retired Nurses Society Under
4²936²12²049²R   02/23/12                                                     1         QC
                            Cooperative Agreement No. GHO²A²00²09²
                            00013²00 for the Year Ended March 31, 2011
                            Audit of USAID Resources Managed by
                            PharmAccess International Under Award No.
4²621²12²050²R   02/27/12                                                    66         QC
                            621²A²00²08²00017²00 for the Period July 1,
                            2008, to December 31, 2010
                            Audit of USAID Resources Managed by Light
                            and Courage Centre Trust Under Agreement         139        QC
4²936²12²051²R   02/27/12
                            No. GHH²A²00²07²00017 for the 27 Months           54        UN
                            Ended September 30, 2010
                            Audit of USAID Resources Managed by
                            University of KwaZulu²Natal Under
                            Cooperative Agreement No. HFM²A²00²02²
                            00065²00 and Sub²Agreement Nos. GHO²A²
4²674²12²052²R   02/27/12
                            00²08²00006²00 (with Children·s Emergency
                            Relief International) and P3121A0028 (with
                            Private Agencies Collaborating Together) for
                            the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by Right
                            to Care Under Cooperative Agreement Nos.
                                                                              2         QC
4²674²12²053²R   03/23/12   674²A²00²08²00007²00 and 674²A²00²09²
                                                                              2         UN
                            00001²00 for the Year Ended September 30,
                            2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 87
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Financial Audit of the Social Marketing
                            Sustainability Program, USAID/Bangladesh
                            Cooperative Agreement No. 388²A²00²08²             832        QC
5²388²12²001²N   12/09/11
                            00020²00, Managed by the Social Marketing          613        UN
                            Company (SMC), for the Period From
                            October 1, 2008, to September 30, 2010
                            Closeout Audit of the Accelerating Economic
                            Recovery in Asia (AERA) Program, Managed by
                            the Kenan Foundation Asia (Kenan), USAID           112        QC
5²493²12²001²R   10/18/11
                            Cooperative Agreement No. 442²A²00²99²             111        UN
                            00072²00, for the Year Ended September 30,
                            2009
                            Closeout Financial Audit of USAID/India Grant
                            No. 386²G²00²06²00125²00 for the
                            Workforce Development Initiative (WDI)
                            Project and USAID/India Cooperative
5²386²12²002²R   10/18/11   Agreement No. 386²A²00²06²00180²00 for              3         QC
                            the Expansion of Madrasa Education in Andhra
                            Pradesh (Madrasa) Project, Managed by the
                            CAP Foundation, for the Period From April 1,
                            2009, to September 31, 2010
                            Financial Audit of the Program "Sustainable
                            Action Against HIV and AIDS in Community"
                            (SAHACOM), USAID Cooperative Agreement
5²442²12²003²R   10/24/11   No. AID²442²A²09²00002, Managed by the              1         QC
                            Khmer HIV/AIDS NGO Alliance (KHANA), for
                            the Period From October 1, 2009, to
                            December 31, 2010
                            Closeout Financial Audit of the Program
                            "Scaling up the Faith²Based Response to
                            HIV/AIDS in Vietnam," USAID Cooperative
                                                                               10         QC
5²440²12²004²R   10/28/11   Agreement No. GHH²A²00²07²00018²00,
                                                                               5          UN
                            Managed by Nordic Assistance to Vietnam
                            (NAV), for the Period From January 1, 2010, to
                            January 31, 2011
                            Financial Audit of the Health Policy
                            Development Program, USAID/Philippines
5²492²12²005²R   11/03/11   Cooperative Agreement No. 492²A²00²06²
                            00031, Managed by the UPecon Foundation,
                            Inc., for the Year Ended December 31, 2010
                            Financial Audit of the Support to the
                            Documentation Center of Cambodia,
                            USAID/Cambodia Cooperative Agreement No.
                                                                                5         QC
5²442²12²006²R   11/09/11   486²A²00²04²00012²00, Managed by the
                                                                                5         UN
                            Documentation Center of Cambodia (DC²
                            Cam), for the Period From January 1, 2010, to
                            December 31, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 88
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Financial Audit of the Barangay Justice and
                            Peace Project, USAID/Philippines Cooperative
                            Agreement No. 492²A²00²09²00030²00,
5²492²12²007²R   11/16/11                                                       15         QC
                            Managed by the Gerry Roxas Foundation, Inc.
                            (GRF), for the Period From January 1, 2010, to
                            December 31, 2010
                            Financial Audit of Maternal and Child Health
                            Program Managed by the Reproductive and             27         QC
5²442²12²008²R   12/14/11
                            Child Health Alliance (RACHA) for the Period        27         UN
                            From January 1, 2010, to December 31, 2010
                            Financial Audit of the Together for Good
                            Health (ToGoH) Project, Cooperative
                            Agreement No. 442²A²00²08²00007²00,
5²442²12²009²R   12/14/11                                                       25         QC
                            Managed by the Reproductive Health
                            Association of Cambodia (RHAC), for the Year
                            Ended December 31, 2010
                            Closeout Financial Audit of Improving Local
                            Level Governance by Strengthening Union
                            Parishads and Creating Citizens· Awareness          71         QC
5²388²12²010²R   01/30/12
                            (ILLG) Program, Managed by Rupantar for the         68         UN
                            Period from January 1, 2010, to March 31,
                            2011
                            Financial Audit of the Anti²Trafficking in
                            Persons Pan²Asian Campaign, USAID/RDMA
                            Cooperative Agreement No. 486²A²00²06²
5²486²12²011²R   01/30/12
                            00015²00, Managed by the MTV Europe
                            Foundation (MTV), for the Period From
                            January 1, 2009, to December 31, 2009
                            Financial Audit of the Anti²Trafficking in
                            Persons Pan²Asian Campaign, USAID/RDMA
                            Cooperative Agreement No. 486²A²00²06²
5²486²12²012²R   01/30/12
                            00015²00, Managed by the MTV EXIT
                            Foundation (MTV), for the Period From
                            January 1, 2010, to December 31, 2010
                            Closeout Financial Audit of the Program "Rural
                            Empowerment Through Renewable Energy,"
                            USAID/Bangladesh Grant Agreement No. 388²           417        QC
5²388²12²013²R   01/31/12
                            G²00²05²00060²00, Managed By Grameen                384        UN
                            Shakti, for the Period From January 1, 2010, to
                            September 30, 2010
                            Closeout Financial Audit of the Financial
                            Institutions Reform and Expansion (FIRE D²III)
                            Project, USAID/India Cooperative Agreement
                                                                                65         QC
5²386²12²014²R   02/24/12   No. 386²A²00²03²00175²00, Managed by the
                                                                                57         UN
                            National Institute of Urban Affairs (NIUA), for
                            the Period from April 1, 2008, to
                            September 30, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 89
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Financial Audit of USAID Resources Managed
                                                                               75         QC
5²386²12²015²R   02/24/12   by Voluntary Health Services, for the Year
                                                                               1          UN
                            Ended March 31, 2011
                            Financial Audit of Community Development
                            with Solar Energy Illumination Project,
                            USAID/India Cooperative Agreement No.              338        QC
5²386²12²016²R   03/12/12
                            386²A²00²09²00302²00, Managed by Humana            301        UN
                            People to People India (HPPI), for the Period
                            From April 1, 2010, to March 31, 2011
                            Financial Audit of the Enhance Karnataka
                            Project, Cooperative Agreement No. 386²A²
5²386²12²017²R   03/29/12   00²06²00144, Managed by the University of
                            Manitoba (UOM), for the Period from April 1,
                            2010, to March 31, 2011
                            Audit of the Fund Accountability Statement of
                            USAID Funds Managed by Water Environment
                            & Development Organization, Sub²Grantee
                            Under Prime Eco²Peace Friends of the Earth
6²294²12²001²N   12/22/11
                            Middle East, Under Cooperative Agreement
                            Number 294²A²00²09²00211²00, for the
                            Period From November 30, 2009, to June 30,
                            2010
                            Financial Audit of the Egyptian Foundation for
                            Enterprise Development, LEAD, Under USAID
6²263²12²001²R   12/22/11   Agreement Number 263²A²00²03²00049²00,
                            for the Period From January 1, 2009, to
                            December 31, 2009
                            Financial Audit of USAID Resources Managed
                            and Expenditures Incurred by United Group,
                            Empowering Civil Society & the Legal
6²263²12²002²N   12/27/11
                            Profession, Award Number 263²G²00²08²
                            00066²00, for the Period From September 25,
                            2008, to September 30, 2009
                            Close²out Examination of Al²Mukawilon
                            Contracting Co. Ltd.·s Compliance With
                            Terms and Conditions of Sub²Fixed Price
                            Contracts Number 2008 Road TO 3 and 2009
                            Road TO 14, Under Prime International Relief
6²294²12²003²N   01/12/12
                            and Development, Task Orders Number 3 and
                            14, Under Indefinite Quantity Contract
                            Number 294²I²00²08²00217²00,
                            Infrastructure Needs Program, for the Period
                            From October 20, 2008, to May 28, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 90
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Close²out Examination of Awad Contracting
                            Company·s Compliance With Terms and
                            Conditions of Sub²Fixed Price Contracts
                            Number 2008 Road TO 5, 2009 Road TO 12A
                            and 2009 Road TO 12B, Under Prime
6²294²12²004²N   01/12/12   International Relief and Development, Task
                            Orders Number 6 and 12, Under Indefinite
                            Quantity Contract Number 294²I²00²08²
                            00217²00, Infrastructure Needs Program, for
                            the Period From October 20, 2008, to
                            February 7, 2010
                            Close²out Examination of Osaily Trading and
                            Contracting Company·s Compliance With
                            Terms and Conditions of Sub²Fixed Price
                            Contracts, Under Prime International Relief
6²294²12²006²N   01/22/12   and Development, Task Orders Number 7 &
                            18, Under Indefinite Quantity Contract
                            Number 294²I²00²08² 00217²00,
                            Infrastructure Needs Program, for the Period
                            From October 20, 2008, to July 4, 2010
                            Close²out Examination of Al Imran Modern
                            Construction Company·s Compliance With
                            Terms and Conditions of Fixed²price Sub²
                            contract Number 24018²08²WB²SA023,
6²294²12²008²N   02/02/12   Under Prime Cooperative Housing Foundation,
                            Cooperative Agreement Number 294²A²00²
                            05²00242²00, Local Democratic Reform, for
                            the Period From September 23, 2008, to
                            March 22, 2009
                            Close²out Examination of Al Saif General
                            Contracting Company·s Compliance With the
                            Terms and Conditions of Sub²fixed Price
                            Contracts Number 24024²08²WB²SA005,
                            24024²08²WB²SA013, 24024²09²WB²SA005,
                            24024²09²WB²SA009, 24024²09²WB²SA010,
6²294²12²013²N   02/28/12
                            24024²09²WB²SA068 and 24024²10²WB²
                            SA008, Under Prime Cooperative Housing
                            Foundation·s Cooperative Agreement Number
                            294²A²00²07²00213²00, Emergency Jobs
                            Program, for the Period From June 25, 2008,
                            to April 21, 2010




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 91
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of the Fund Accountability Statement for
                            USAID Resources Managed by Right to Play,
                            Under USAID Cooperative Agreement
                            Number 294²A²00²09²00212²00, Sport and
6²294²12²017²N   03/22/12   Play as an Effective and Innovative Tool to
                            Promote Peace Building, Conflict Mitigation
                            and Reconciliation Among Palestinians in the
                            West Bank and Gaza Strip, For the Period
                            From September 29, 2009, to June 30, 2010
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by All for Peace
                            Under Grant Number 294²G²00²09²00214²
                            00, One Message to two Societies²
6²294²12²018²N   03/22/12   Broadcasting Messages of Peace²Building to
                            Enact Conflict Mediation and Reconciliation by
                            Empowering the Civil Society Sector, for the
                            Period From September 30, 2009, to June 30,
                            2010
                            Close²out Financial Audit of USAID/Egypt
                            Resources Managed and Expenditures Incurred
                            by the Egyptian NGO Support Center, New
6²263²12²022²N   03/28/12   Initiative for Leadership in Egypt (Nile II
                            Project), Grant Number 263²G²00²06²
                            00070²00, for the Period From April 1, 2008,
                            to March 26, 2009
                            Closeout Audit of USAID Resources Managed
                            by Society for Family Health Under the
                            "Improved Reproductive Health in Nigeria"
                            Program (CA No. 620²A²00²05²00098²00)
                            for the Period From June 8, 2005, to              3,586       QC
7²620²12²001²N   12/22/11
                            December 31, 2010 and the "Comprehensive           208        UN
                            Integrated Approach to HIV/AIDS Prevention
                            and Care in Nigeria" Program (CA No. 620²
                            A²00²05²00100²00) for the Period From
                            July 8, 2005, to December 31, 2010
                            Recipient²Contracted Audit of USAID
                            Resources Managed by the Women Farmers
                            Advancement Network (WOFAN) Under the
7²620²12²001²R   10/18/11   Access to Safe Drinking Water, Sanitation and
                            Hygiene Project (WASH) (CA No. 620²A²00²
                            09²00017²00) for the Period September 14,
                            2009, to December 31, 2010
                            Agency Contracted Audit of USAID Resources
                            Managed by the Morocco Ministry of
                            Agriculture Under the "Surveillance Equipment
7²608²12²002²N   03/02/12   Funded Under Limited Scope Morocco Locust
                            Abatement" Program (Project Number 608²
                            0236) for the Period From April 28, 2005, to
                            September 30, 2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 92
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                          Report Title                      Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Recipient²Contracted Audit of USAID
                            Resources Managed by Save the Children
7²620²12²002²R   11/03/11   Under the Links for Children Project (CA No.      38         QC
                            620²A²00²09²00008²00) for the Period
                            September 18, 2009, to December 31, 2010
                            Recipient Contracted Audit of USAID
                            Resources Managed by the Gembu Centre for
                            HIV/AIDS Advocacy Nigeria (GECHAAN)
7²620²12²003²R   11/10/11
                            Under Grant Agreement No. 620²A²00²08²
                            00076²00 for the Period From January 1, 2010,
                            to December 31, 2010
                            Recipient²Contracted Audit of USAID
                            Resources, Managed by Christian Health
                            Association of Nigeria (CHAN), Under the
7²620²12²004²R   11/15/11   Nigeria Indigenous Capacity Building (NICAB),     688        QC
                            Agreement No. 620²A²00²07²00180²00 for
                            the Period From January 1, 2010, to
                            December 31, 2010
                            Recipient²Contracted Audit of USAID
                            Resources Managed by Hope Worldwide
                            Nigeria Under the Assistance and Care for
                                                                              67         QC
7²620²12²005²R   11/16/11   Children Orphaned and at Risk of HIV/AIDS
                                                                              67         UN
                            Program (Grant Agreement No. 620²A²00²
                            08²00111²00) for the Period From January 1
                            to December 31, 2010
                            Recipient²Contracted Audit of USAID
                            Resources Managed by Pro²Health
                            International (PHI) Under the HIV/AIDS
7²620²12²006²R   11/17/11
                            Reduction Program in the Niger Delta (CA
                            No. 620²A²00²08²00132²00) for the Period
                            From January 1, 2010, to December 31, 2010
                            Recipient²Contracted Audit of the USAID
                            Resources Managed by Network on
                            Ethics/Human Rights, Law, HIV/AIDS
                            Prevention, Support and Care (NELA) Under
7²620²12²007²R   12/14/11
                            the NELA Consortium AIDS Initiatives in
                            Nigeria (CA No. 620²A²00²07²00211²00) for
                            the Period From January 1, 2010, to
                            December 31, 2010
                            Recipient²Contracted Audit of the USAID
                            Resources Managed by BBC World Service
                            Trust Under the USAID Media Support for
                                                                               3         QC
7²620²12²008²R   12/20/11   Strengthening Advocacy, Good Governance,
                                                                               3         UN
                            and Empowerment (CA No. 620²A²00²09²
                            00016²00) for the Period From April 1, 2010,
                            to March 31, 2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 93
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Recipient²Contracted Audit of USAID
                            Resources Managed by Cooperazione
                            Internazionale Under the Psychosocial Support
                            and Reintegration of Survivors of Sexual and        875        QC
7²623²12²009²R   02/15/12
                            Gender²Based Violence Program in Eastern            744        UN
                            Democratic Republic of Congo (CA No. 623²
                            A²00²09²00009²00) for the Period From
                            January 1, 2010, to December 31, 2010
                            Recipient²Contracted Audit of USAID
                            Resources Managed by the Agency for the
7²685²12²010²R   02/24/12   Development of Social Marketing (CA No.              1         QC
                            685²A²00²03²00118) for the Period From
                            January 1, 2011, to September 30, 2011
                            Recipient²Contracted Audit of the Local
                            Currency Expenditures Made by DAF ²
                            MEALN in Mali Under the USAID Strategic
7²688²12²011²R   03/02/12                                                       345        QC
                            Objective No. 688²0007.00 for the Period
                            From September 1, 2004, to December 31,
                            2008
                            Independent Audit of Edinburgh Risk and
                            Security Management Ltd.·s (ERSM), Report on
                            Audit of Costs Incurred and Billed From July 1,
                            2007, to September 30, 2007, Under Sub²
E²267²12²001²D   11/17/11   Award With the International Foundation for         161        QC
                            Election Systems (IFES) Through the
                            Consortium for Elections and Political Process
                            Strengthening Under USAID Cooperative
                            Agreement No. 267²A²00²04²00405²00
                            Financial Audit of the Program "Partnership
                            Contracts for Health Services (PCH)"
                            USAID/Afghanistan Grant Agreement No.
                                                                               1,328       QC
F²306²12²001²N   10/03/11   306²08²IL²06²00, Managed by the Ministry of
                                                                                 5         UN
                            Public Health, for the Period From Program
                            Inception July 20, 2008, Through
                            September 22, 2010
                            Financial Audit of the Program "MoF²Salary
                            Support Program" USAID/Afghanistan Project
                            Implementation Number (PIL). 306²IL²10²01,          356        QC
F²306²12²003²N   10/13/11
                            Managed by the Ministry of Finance, for the         355        UN
                            Period From June 6, 2010, to September 30,
                            2010
                            Financial Audit of the Budgetary Support,
                            USAID/Pakistan Program Assistance
                            Agreement No. 391²AAG²012²IL ²02,
G²391²12²001²R   10/26/11
                            Managed by the Benazir Income Support
                            Program (BISP), for the Period From
                            September 30, 2009, to March 31, 2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 94
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Financial Audit of the Budgetary Support to the
                            Government of Pakistan, USAID/Pakistan
G²391²12²002²R   11/03/11   Program Assistance Agreement No. 391²005²
                            ES²07, Managed by Ministry of Finance, for the
                            Year Ended June 30, 2008
                            Financial Audit of the Program Titled "Aga
                            Khan University·s Flood Response Program,"
                            USAID/Pakistan Cooperative Agreement No.
G²391²12²003²R   01/06/12
                            391²G²00²10²01188²00, for the Period From
                            August 30, 2010, to December 31, 2010;
                            Managed by The Aga Khan University
                            Financial Audit of the Program Titled "Anti²
                            Corruption Program Pakistan," USAID/Pakistan
                            Cooperative Agreement No. 391²A²00²09²
                            01117²00, and Program Titled "Anti²Fraud
G²391²12²004²R   01/13/12
                            Hotline," USAID/Pakistan Cooperative
                            Agreement No. 391²A²00²10²01194²00,
                            Managed by Transparency International
                            Pakistan, for the Year Ended June 30, 2011
                            Financial Audit of the Program Titled "Merit
                            and Need Based Scholarship Project,"
                            USAID/Pakistan Agreement No. 391²G²00²              428        QC
G²391²12²005²R   02/17/12
                            04²01023²00, for the Period From July 2,             8         UN
                            2004, to June 30, 2010; Managed by Higher
                            Education Commission
                            Financial Audit of the Budgetary Support,
                            USAID/Pakistan Program Assistance
                            Agreement No. 391²012, Implementation
G²391²12²006²R   02/24/12
                            Letter No.1, Managed by the Economic Affairs
                            Division of the Government of Pakistan, for
                            the Period From June 8, 2009, to June 15, 2011
                            Financial Audit of the Pakistan Competitiveness
                            Support Fund, USAID/Pakistan Grant
                            Agreement No. 391²G²00²06²01073²00,
G²391²12²007²R   03/06/12
                            Managed by Competitiveness Support Fund
                            (CSF), for the Period From July 1, 2010, to
                            June 30, 2011
                                  Local Currency Trust Fund
                            Financial Audit of USAID/Philippines· Peso
                            Trust Fund for Operating Expenses, for the
5²492²12²003²N   02/02/12
                            Period From January 1, 2010, to December 31,
                            2010
                            Financial Audit of USAID/Indonesia·s Rupiah
5²497²12²004²N   02/27/12   Trust Fund for the Years Ended September 30,
                            2010 and 2011




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 95
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Financial Audit of USAID/Pakistan·s Rupee
G²391²12²001²N   03/20/12   Trust Fund, for the Period From October 1,
                            2009, to September 30, 2011

                                    U.S.²Based Contractors
                            American Institutes for Research (AIR), Report
0²000²12²001²D   10/03/11   on Audit of Incurred Costs for Fiscal Year
                            2006
                            Report on Examination of Costs Incurred and
                            Reported by the GSA/FEDSIM Under the
0²000²12²001²N   10/20/11   USAID Inter²Agency Agreement No. IRM²P²
                            00²06²00079 for the Period September 29,
                            2006, to September 30, 2010
                            University Research Group, Report of
0²000²12²002²D   10/05/11   Compliance of Initial CAS Disclosure
                            Statement
                            Frontier Finance International, Inc., Report on
0²000²12²003²D   12/12/11   Audit of Incurred Costs for Fiscal Years 2001
                            and 2002
                            International Business and Technical
0²000²12²004²D   12/19/11   Consultants, Inc., Report on Audit of Incurred       2         QC
                            Cost of Fiscal Years 2002 and 2003
                            Independent Audit of SkyLink Air & Logistic
                            (USA), Inc. Audit of Incurred Costs for Fiscal     14,850      QC
0²000²12²005²D   01/04/12
                            Years Ended December 31, 2003, 2004, and           14,850      UN
                            2005
                            Nathan Associates, Inc. Report on Audit of
0²000²12²006²D   01/13/12                                                      1,853       QC
                            Incurred Costs for Fiscal Year Ended 2004
                            CH2M HILL International Services, Inc. Report
                            on Audit of Final Indirect Rates and Corporate      45         QC
0²000²12²007²D   01/26/12
                            Home Office Allocations for Contractor Fiscal       37         UN
                            Year Ended December 31, 2006
                            Abt Associates, Inc. Report on Audit of
0²000²12²008²D   02/08/12   Incurred Costs for the Fiscal Year Ending
                            March 31, 2006
                            MacFadden & Associates, Inc. Report on              125        QC
0²000²12²009²D   03/01/12
                            Incurred Costs for Fiscal Year (FY) 2002            120        UN
                            MacFadden & Associates, Inc. Report on               55        QC
0²000²12²010²D   03/08/12
                            Incurred Costs for Fiscal Year (FY) 2003             3         UN
                            MacFadden & Associates, Inc. Report on the
                                                                                91         QC
0²000²12²011²D   03/06/12   Independent Fiscal Year (FY) 2004 Incurred
                                                                                79         UN
                            Cost Audit
                            Creative Associates International, Inc. Report
0²000²12²012²D   03/16/12   on Adequacy of Review of Disclosure
                            Statement




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 96
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Agency Contracted Audit of USAID Resources
                            Managed by Abt Associates Inc. Under Task
4²613²12²004²N   01/20/12   Order No. GPO²I²04²04²00007²00 of                  67         QC
                            Partnership Program for the Period From
                            October 1, 2007, to March 31, 2009




                                                                               190        QC
5²492²12²001²D   10/21/11
                                                                               189        UN




                            Income Earned and Used Under the Smiling
                            Sun Franchise Program (SSFP),
                                                                               388        QC
5²388²12²002²N   12/09/11   USAID/Bangladesh Contract No. 388²C²00²
                                                                               388        UN
                            07²00110²00, Managed by the Chemonics
                            International, Inc., for the Period From
                            October 1, 2007, to September 30, 2010
                            Close²out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            Chemonics International Inc., Under Contract
6²294²12²011²N   02/16/12   Number 294²C²00²00²00077²00, Civil                 407        QC
                            Society and Democracy Strengthening Project,
                            for the Period From October 1, 2005, to
                            March 31, 2007
                            Audit of the Cost Representation Statement of
                            USAID Resources Managed by Chemonics
6²294²12²012²N   02/28/12   Under Contract Number 294²C²00²08²
                            00225²00, Flagship Project, for the Period
                            From September 26, 2008, to June 30, 2010
                            Close²out Examination of APCO ArCon
                            Compliance With Terms and Conditions of
                            Indefinite Quantity Contract Number 294²I²
6²294²12²015²N   03/22/12   00²08²00221²00, Task Order Numbers 16,
                            17, 19, 21, 22, 23, 24, 25, 26, 30, 35 and 36,
                            Infrastructure Needs Program I, for the Period
                            From July 01, 2009, to December 02, 2010
                            Close²out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            Development Alternatives, Inc., Under Task
6²294²12²021²N   03/28/12   Order Number PCE²I²12(815)²99²00009²00,            58         QC
                            The Palestinian Enterprise Revitalization
                            Project, for the Period From October 1, 2005,
                            to June 30, 2006


     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 97
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Financial Audit of USAID Resources Managed
                            and Expenditures Locally Incurred by Cardno
                            Emerging Market Group Under "Health
                                                                                16         QC
E²267²12²001²N   10/06/11   Promotion Program in Iraq," USAID/Iraq Task
                                                                                2          UN
                            Order No. 267²GHS²I²03²07²00016, for the
                            Period From September 30, 2009, to
                            October 31, 2010
                            Independent Audit of Development
                            Alternatives, Inc. (DAI), Report on Costs
                            Incurred and Billed Under USAID Contract             1         QC
E²267²12²002²D   11/20/11
                            No. 267²C²00²07²00505²00 for the Period
                            September 28, 2007, Through September 30,
                            2008
                            Financial Audit of USAID Resources Managed
                            and Expenditures Locally Incurred by CHF
                            International, Under USAID Cooperative
E²267²12²002²N   10/16/11
                            Agreement Number 267²A²00²08²00503²00,
                            "Community Action Program," for the Period
                            From October 1, 2008, to September 30, 2010
                            Independent Audit of International Foundation
                            for Election Systems (IFES) Direct Costs
                            Incurred and Costs Billed from July 1, 2007, to
E²267²12²003²D   11/29/11   June 30, 2009, Under Subawards With IFES
                            Through the Consortium for Elections and
                            Political Process Strengthening Under Its
                            USAID Cooperative Agreement
                            Independent Audit of International Resources
                            Group, Ltd. (IRG) Report on Contract Costs
                                                                                879        QC
E²267²12²004²D   01/04/12   Incurred and Billed Under USAID Contract
                                                                                861        UN
                            No. 517²C²00²04²00106²00 for the Period of
                            October 1, 2006, Through December 31, 2007
                            Independent Audit of Black & Veatch Special
                            Projects Corporation (BVSPC) Direct Costs
                                                                               32,198      QC
F²306²12²001²D   12/20/11   Incurred and Billed on Contract No. 306²I²
                                                                               32,198      UN
                            00²06²00517²00 from August 25, 2006, to
                            September 30, 2008
                            Local Costs· Financial Audit of the Small and
                            Medium Sized Enterprise Development Activity
                            (ASMED) by Development Alternatives Inc.
F²306²12²002²N   10/10/11                                                       89         QC
                            (DA), Contract No. 306²C²00²07²00503²00,
                            for the Period October 1, 2009, to
                            September 30, 2010
                            Financial Audit on the Local (non²U.S.) Costs
                            (Costs Incurred and Paid in Afghanistan) Under
                            USAID Contract No. 306²I²00²06²00517²00
                                                                               2,197       QC
F²306²12²004²N   02/15/12   With the Joint Venture Louis Berger Group,
                                                                               2,082       UN
                            Inc./Black & Veatch Corp. (LBGI/B&V), for the
                            Period From October 1, 2009, to
                            September 30, 2010


     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 98
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                            Report Title                     Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Financial Audit of Costs Incurred in
                            Afghanistan Under USAID Contract No. 306²
F²306²12²005²N   03/15/12   DOT²I²01²08²00033²00 With Chemonics
                            International, Inc., for the Period From
                            October 1, 2009, to September 30, 2010
                                     U.S.²Based Grantees
                            Medical Care Development, Inc. and Affiliate,
0²000²12²001²T   11/04/11   OMB Circular A²133 Audit Report for Fiscal
                            Year Ended December 31, 2010
                            World Hope International, Inc. and Affiliates,
0²000²12²002²T   11/04/11   OMB Circular A²133 Audit Report for Fiscal
                            Year Ended December 31, 2010
                            Nazarene Compassionate Ministries, Inc., OMB
0²000²12²003²T   11/03/11   Circular A²133 Audit Report for Fiscal Year
                            Ended December 31, 2010
                            Desk Review of the Medical Care
                            Development, Inc. and Affiliates A²133 Audit
0²000²12²004²T   11/04/11
                            Report for Fiscal Year Ended December 31,
                            2009
                            Hadassah, The Women·s Zionist Organization
                            of America, Inc. and Related Entities, OMB
0²000²12²005²T   11/08/11   Circular A²133 Audit Report for Fiscal Year
                            Ended December 31, 2010
                            The J.F. Kapnek Charitable Trust, OMB
0²000²12²006²T   11/18/11   Circular A²133 Audit Report for Fiscal Year
                            Ended June 30, 2009
                            OMB Circular A²133 Audit Report of World
0²000²12²007²T   01/05/12   Learning Inc. for Fiscal Year Ended June 30,
                            2010
                            Volunteers for Economic Growth Alliance
0²000²12²008²T   12/28/11   OMB Circular A²133 Audit Report for Fiscal
                            Year Ended December 31, 2009
                            ChildFund International, USA, OMB Circular
0²000²12²009²T   01/04/12   A²133 Audit Report for Year Ended June 30,
                            2010
                            The Centre for Development and Population
0²000²12²010²T   01/13/12   Activities, OMB Circular A²133 Audit Report
                            for Fiscal Year Ended December 31, 2010
                            Population Services International, OMB
0²000²12²011²T   01/20/12   Circular A²133 Audit Report for Fiscal Year        35         QC
                            Ended December 31, 2008
                            Pact, Incorporated & Affiliate, OMB Circular
0²000²12²012²T   01/11/12   A²133 Audit Report for the Year Ended
                            September 30, 2010
                            ACDI/VOCA, OMB Circular A²133 Audit
0²000²12²013²T   01/17/12
                            Report for the Year Ended December 31, 2010



     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 99
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            International Republican Institute OMB 1²133
0²000²12²014²T   01/12/12   Supplementary Financial Report Year Ended
                            September 30, 2010
                            OMB Circular A²133 Audit Report of the
                            Catholic Relief Services United States
0²000²12²015²T   01/12/12                                                       42         QC
                            Conference for Fiscal Year Ended
                            September 30, 2010
                            Save the Children Federation, Inc., OMB
0²000²12²016²T   02/02/12   Circular A²133 Audit Report for Fiscal Year         302        QC
                            Ended December 31, 2010
                            CHF International and Related Entities OMB
0²000²12²017²T   01/18/12   Circular A²133 Audit Report for Fiscal Year
                            Ended September 30, 2010
                            IntraHealth International, Inc. OMB Circular
0²000²12²018²T   01/19/12   A²133 Audit Report for Fiscal Year Ended
                            June 30, 2010
                            A²133 Audit Report for Grassroot Soccer, Inc.
0²000²12²019²T   01/23/12
                            for Fiscal Year Ended December 31, 2010
                            International Rescue Committee, Inc. OMB
0²000²12²020²T   01/24/12   Circular A²133 Audit Report for the Fiscal
                            Year Ended September 30, 2010
                            National Democratic Institute for International
0²000²12²021²T   01/26/12   Affairs, OMB Circular A²133 Audit Report for
                            the Fiscal Year Ended September 30, 2010
                            American Near East Refugee Aid, Inc. OMB
0²000²12²022²T   01/30/12   Circular A²133 Audit Report for Fiscal Year
                            Ended May 31, 2011
                            JSI Research and Training Institute, Inc., OMB
0²000²12²023²T   02/01/12   Circular A²133 Audit Report for the Fiscal
                            Year Ended September 30, 2010
                            Program for Appropriate Technology in Health
                            (PATH) and Subsidiaries, OMB Circular A²133
0²000²12²024²T   02/02/12
                            Audit Report for Fiscal Year Ended
                            December 31, 2010
                            The Asia Foundation, OMB Circular A²133
0²000²12²025²T   02/02/12   Audit Report For Fiscal Year Ended
                            September 30, 2010
                            OBM Circular A²133 Audit Report of the
0²000²12²026²T   02/08/12   German Marshall Fund of the United States for
                            Fiscal Year Ended May 31, 2011
                            The Population Council Inc., OMB Circular A²
0²000²12²027²T   02/13/12   133 Audit Report for The Fiscal Year Ended
                            December 31, 2010
                            African Wildlife Foundation, OMB Circular A²
0²000²12²028²T   02/08/12   133 Audit Report For Fiscal Year Ended
                            June 30, 2011




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 100
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            OMB Circular A²133 Audit Report of the
0²000²12²029²T   02/13/12   Pathfinder International for Fiscal Year Ended
                            June 30, 2011
                            OMB Circular A²133 Audit of Winrock
                            International Institute for Agricultural
0²000²12²030²T   02/17/12
                            Development Fiscal Year Ended December 31,
                            2010
                            The Nature Conservancy, OMB Circular A²
0²000²12²031²T   02/09/12   133 Audit Report for Fiscal Year Ended
                            June 30, 2011
                            International City/ County Management
0²000²12²032²T   02/15/12   Association, OMB Circular A²133 Audit
                            Report, Fiscal Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report for Medical
0²000²12²033²T   02/15/12   Teams International for the Fiscal Year Ended
                            June 30, 2011
                            Project HOPE ² The People²To²People
                            Health Foundation, Inc., OMB Circular A²133
0²000²12²034²T   02/16/12
                            Audit Report for Fiscal Year Ended June 30,
                            2011
                            OMB Circular A²133 Audit Report of The
0²000²12²035²T   02/16/12   United States Pharmacopeial Convention, Inc.
                            for Fiscal Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report of World
                            Concern (A Division of CRISTA Ministries)
0²000²12²036²T   02/21/12   and World Concern Development
                            Organization for Fiscal Year Ended June 30,
                            2011
                            OMB Circular A²133 Audit Report of
0²000²12²037²T   02/22/12   Internews Network for Fiscal Year Ended
                            December 31, 2010
                            World Education, Inc., OMB Circular A²133
0²000²12²038²T   02/23/12   Audit Report for Fiscal Year Ended
                            June 30, 2011
                            East²West Management Institute, Inc. OMB
0²000²12²039²T   02/22/12   Circular A²133 Audit Report, Fiscal Year
                            Ended December 31, 2010
                            OMB Circular A²133 Audit Report Children·s
0²000²12²040²T   02/27/12   AIDS Fund, OMB Circular A²133 Audit Report
                            For Fiscal Year Ended December 31, 2010
                            Partnership for Supply Chain Management,
0²000²12²041²T   02/23/12   OMB Circular A²133 Audit Report For Fiscal
                            Year Ended September 30, 2010
                            Audit of People in Need, Under Agreement
                                                                                4         QC
0²000²12²042²R   03/02/12   No. RLA²A²00²09²00059²00 for Fiscal Year
                                                                                4         UN
                            Ended December 31, 2010




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 101
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            OMB Circular A²133 Audit Report of Viet²
0²000²12²042²T   02/24/12   Nam Assistance for the Handicapped for Fiscal
                            Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report of Ananda
0²000²12²043²T   02/28/12   Marga Universal Relief Team, Inc. for Fiscal
                            Year Ended December 31, 2010
                            Pathfinder International, OMB Circular A²133
                                                                                887        QC
0²000²12²044²T   03/01/12   Audit Report for Fiscal Year Ended
                                                                                887        UN
                            une 30, 2010
                            OMB Circular A²133 Audit Report of the
                                                                                61         QC
0²000²12²045²T   03/21/12   National Albanian American Council for Fiscal
                                                                                61         UN
                            Year Ended December 31, 2010
                            World Wildlife Fund, Inc., OMB Circular A²
0²000²12²046²T   03/05/12   133 Audit Report For Fiscal Year Ended
                            June 30, 2011
                            OMB Circular A²133 Audit Report of World
0²000²12²047²T   03/06/12   Learning Inc. for Fiscal Year Ended June 30,
                            2011
                            OMB Circular A²133 Audit Report of the
0²000²12²048²T   03/09/12   Christian Reformed World Relief Committee,
                            Inc., for Fiscal Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report of
0²000²12²049²T   03/07/12   Rainforest Alliance, Inc. for Fiscal Year Ended
                            June 30, 2011
                            Education Development Center, Inc., OMB
0²000²12²050²T   03/09/12   Circular A²133 Audit Report for the Fiscal
                            Year Ended September 30, 2011
                            Sesame Workshop and Subsidiaries, OMB
0²000²12²051²T   03/13/12   Circular A²133 Audit Report for the Fiscal
                            Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report of the Feed
0²000²12²052²T   03/22/12   the Children, Inc. and Subsidiaries for Fiscal
                            Year Ended June 30, 2011
                            OMB Circular A²133 Audit Report for
0²000²12²053²T   03/27/12   Christian Mission Aid, for Fiscal Year Ended
                            June 30, 2011
                            OMB Circular A²133 Audit Report for World
0²000²12²054²T   03/27/12   Resources Institute, for Fiscal Year Ended
                            September 30, 2011
                            International Relief & Development Holdings,
                            Inc. and Affiliates, OMB Circular A²133 Audit
0²000²12²055²T   03/28/12
                            Report For Fiscal Year Ended December 31,
                            2010




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 102
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of Subgrant Costs of Notre Dame
                            Foundation for Charitable Activities Inc. and
                            Women in Enterprise Development
                            (NDFCAI²WED) Billed to and Paid by USAID
                            Under its Prime Award to the Education
                            Development Center (EDC) to Implement               95         QC
5²492²12²002²D   10/21/11
                            Phase II of the Project Titled "Education           89         UN
                            Quality and Access to Learning and Livelihood
                            Skills" (EQuALLS), USAID/Philippines
                            Cooperative Agreement No. 492²A²00²06²
                            00024²00, for the Period From August 1, 2006,
                            to December 4, 2006
                            Audit of Subaward Costs of Notre Dame
                            Foundation for Charitable Activities Inc.²²
                            Women in Enterprise Development
                            (NDFCAI²WED) Billed to and Paid by USAID
                            Under its Prime Award to the International
                            Youth Foundation (IYF) to Implement Phase I
                                                                                125        QC
5²492²12²003²D   10/21/11   of the Project Titled "Education Quality and
                                                                                 75        UN
                            Access to Learning and Livelihood Skills"
                            (EQuALLS), USAID/Philippines Cooperative
                            Agreement No. 492²A²0004²00029²00
                            [Through Consuelo Foundation, Inc. (CFI)], for
                            the Period From January 4, 2005, to
                            December 11, 2006
                            Close²out Audit of the Locally Incurred Costs
                            of the Fund Accountability Statement of Relief
                            International, Sub²Grant Numbers ARDWBG
                            338, ARDWBG 351, and ARDWBG 372,
6²294²12²005²N   01/12/12   Under Associates in Rural Development, the
                            Civic Engagement Program II, Contract
                            Number DFD²I²04²05²00218²00, for the
                            Period From January 13, 2009, to October 20,
                            2009
                            Close²out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            American Near East Refugee Aid, Under
6²294²12²007²N   01/22/12
                            Cooperative Agreement Number 294²A²00²
                            04²00222²00, for the Period From October 1,
                            2005, to September 30, 2007
                            Audit of the Fund Accountability Statement of
                            Locally Incurred Costs of USAID Resources
                            Managed by Academy for Educational
                            Development, Cooperative Agreement
6²294²12²009²N   02/16/12
                            Number 294²A²00²08²00222²00, Expanded
                            and Sustained Access to Financial Services, for
                            the Period From September 30, 2008, to
                            June 30, 2009




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 103
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Audit of the Fund Accountability Statement for
                            USAID Resources Managed by Care
                            International, Cooperative Agreement Number
                            294²A²00²09²00207²00, An Eye to the
6²294²12²010²N   02/16/12
                            Future, Building Skills and Attitudes That
                            Underwrite and Promote Conflict Mitigation in
                            Gaza Program, for the Period from July 1,
                            2009, to June 30, 2010
                            Close²out Audit of Locally Incurred Costs of
                            USAID Resources, Under Sub²Grant Number
                            AW001, Managed by Internews Network,
                            Under Prime Private Agencies Collaborating
6²294²12²014²N   02/28/12   Together, Inc.·s Cooperative Agreement
                            Number 294²A²00²06²00208²00,
                            Independent Media Program in West Bank and
                            Gaza, for the Period From August 1, 2009, to
                            September 30, 2010
                            Close²out Audit of Locally Incurred Costs for
                            USAID Resources Managed by America²
                            Mideast Educational and Training Services, Inc.,
6²294²12²016²N   03/22/12   Cooperative Agreement Number 294²A²00²
                            06²00209²00, American Scholarship Fund
                            Program, for the Period From January 1, 2008,
                            to May 28, 2008
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Education
                            Development Center, Inc., Under Cooperative
6²294²12²019²N   03/22/12   Agreement Number 294²A²00²05²00241²00,
                            Palestinian Youth Empowerment Program
                            (RUWWAD), for the Period From July 1,
                            2008, to June 30, 2009
                            Close²out Audit of Locally Incurred Costs of
                            USAID Resources Managed by Cooperative
                            Housing Foundation, Under Cooperative
6²294²12²020²N   03/26/12
                            Agreement Number 294²A²00²07²00213²00,
                            Emergency Jobs Program, for the Period From
                            September 29, 2008, to January 31, 2011
                            Audit of USAID Resources Managed and
                            Expenditures Locally Incurred by Mercy Corps
                            Under "Community Action Program III (CAP
E²267²12²003²N   12/05/11
                            III)," USAID/Iraq Cooperative Agreement No.
                            267²A²00²08²00505²00, for the Period From
                            October 1, 2008, to September 30, 2010
                            Close²Out Financial Audit of USAID
                            Resources Managed and Expenditures Locally
                            Incurred by Air Serv International Under Grant      2,191       QC
E²267²12²004²N   12/14/11
                            Agreement Number DFD²G²00²04²00192²00                885        UN
                            "Aviation Support," for the Period From
                            February 28, 2009, to January 30, 2010


    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 104
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                           Report Title                    Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Independent Audit of Cooperative Housing
                            Foundation, International (CHF) Direct Costs
                            Incurred and Billed for the Period of
                                                                            15,331      QC
E²267²12²005²D   03/01/12   October 1, 2007, Through December 31,
                                                                            14,780      UN
                            2008, Under Cooperative Agreement No.
                            267²A²00²06²00507²00 Community Action
                            Program (CAP II)




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 105
                      USAID Office of Inspector General




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 106
                              USAID Office of Inspector General



                                 Performance Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                           USAID
                            October 1, 2011²March 31, 2012
                                                                             Amt. of
  Report         Date of                                                                Type of
                                            Report Title                     Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                                     Economy and Efficiency
                              Audit of USAID/Haiti·s Social Marketing
1²521²12²001²P   10/13/11
                              Project
                              Audit of USAID/Haiti·s Community Health
1²521²12²002²P   12/30/11
                              and AIDS Mitigation Project
                              Audit of USAID/Southern Africa·s Regional
4²632²12²001²P   10/06/11
                              HIV/AIDS Program in Lesotho
                              Audit of USAID/Kenya·s Assistance to
4²615²12²002²P   11/10/11
                              Orphans and Other Vulnerable Children
                              Audit of USAID/Rwanda·s Implementation of
4²696²12²003²P   11/16/11
                              the President·s Malaria Initiative
                              Audit of USAID/Southern Africa·s Regional
4²645²12²004²P   12/07/11
                              HIV/AIDS Program in Swaziland
                              Audit of USAID/Malawi·s Implementation of
4²612²12²005²P   01/25/12
                              the President·s Malaria Initiative
                              Audit of USAID/Angola·s Public²Private
4²654²12²006²P   02/27/12
                              Partnerships for Development
                              Audit of USAID/Tajikistan·s Productive
5²119²12²001²P   10/28/11
                              Agriculture Program
                              Audit of USAID/Philippines· Growth with
5²492²12²002²P   12/01/11
                              Equity in Mindanao (GEM²3) Program
                              Audit of USAID/Cambodia·s Program on
5²442²12²003²P   01/31/12
                              Rights and Justice II
                              Audit of USAID/Regional Development
5²493²12²004²P   02/27/12
                              Mission for Asia·s Sapan Program in Thailand
                              Audit of Selected Payments by USAID/Egypt
                                                                                5         QC
6²263²12²001²P   12/13/11     for Evacuation Travel and Related
                                                                                3         UN
                              Allowances
                              Audit of USAID/Jordan·s Design for
6²278²12²002²P   12/22/11     Sustainability In Its Water Resources
                              Program
                              Audit of USAID/West Bank and Gaza·s
6²294²12²003²P   01/05/12     Palestinian Health Sector Reform and
                              Development Project
                              Audit of USAID/Lebanon·s Landmines and
6²268²12²004²P   01/18/12                                                      203        QC
                              War Victims Program



    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 107
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID/Egypt·s Emergency
6²263²12²005²P   02/09/12   Preparedness and Evacuation Travel                4         QC
                            Payments
                            Audit of USAID/Democratic Republic of
7²660²12²001²P   11/23/11
                            Congo·s HIV/AIDS
                            Audit of USAID/Morocco·s Economic
7²608²12²002²P   12/15/11
                            Competitiveness Project
                            Audit of USAID/Sierra Leone·s Agricultural       866        QC
7²636²12²003²P   12/20/11
                            Activities                                        72        UN
                            Audit of USAID·S HIV/AIDS Activities in
7²681²12²004²P   03/06/12
                            Cote d·Ivoire
                            Audit of USAID·s Unliquidated Obligations
9²000²12²001²P   01/09/12   for Selected Expired Awards at the Bureau
                            for Global Health
                            Audit of the Management of Grants
9²000²12²002²P   03/19/12   Awarded by USAID·s Office of American
                            Schools and Hospitals Abroad
                            Audit of Selected Activities Under USAID·s
9²000²12²003²P   03/29/12
                            Higher Education for Development Program
                            Audit of USAID·s Fiscal Year 2011
A²000²12²003²P   11/15/11   Compliance With the Federal Information
                            Security Management Act of 2002
                            Audit of USAID/Iraq·s Community Action
E²267²12²001²P   11/15/11   Program Activities Implemented by                26         QC
                            International Relief and Development
                            Audit of the Sustainability of USAID/Iraq²
E²267²12²002²P   03/21/12
                            Funded Information Technology Systems
                            Audit of USAID/Iraq·s Electoral Technical
E²267²12²003²P   03/22/12
                            Assistance Program
                            Audit of USAID/Afghanistan·s Afghanistan
F²306²12²001²P   11/13/11                                                   6,512       QC
                            Stabilization Initiative for Southern Region
                            Audit of USAID/Afghanistan·s Skills Training
F²306²12²002²P   02/07/12
                            for Afghan Youth Project
                                                                            1,359       QC
G²391²12²001²P   11/03/11   Audit of USAID/Pakistan·s Firm Project
                                                                            1,359       UN
                            Audit of USAID/Pakistan·s Energy Efficiency
G²391²12²002²P   11/23/11
                            and Capacity Program
                            Audit of USAID·s Pakistan Transition
G²391²12²003²P   02/03/12
                            Initiative Program
                            Audit of USAID/Pakistan·s Pre²Service
G²391²12²004²P   03/19/12
                            Teacher Education Program




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 108
                              USAID Office of Inspector General



                                   Miscellaneous Reports
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                           USAID
                            October 1, 2011²March 31, 2012
                                                                         Amt. of
  Report         Date of                                                            Type of
                                          Report Title                   Findings
  Number         Report                                                             Findings
                                                                          ($000)
                                     Quality Control Reviews
                              Quality Control Review of two Audits of
                              Nawalife Trust Under Cooperative
                              Agreement No. 690²A²00²07²00103²00            1         QC
4²673²12²001²Q   10/20/11
                              for the Four Months Ended February 29,        1         UN
                              2008, and the Year Ended February 28,
                              2009
                              Quality Control Review (QCR) of the
                              Audit of Right to Care Under
                              Cooperative Agreement Nos. 674²A²
4²674²12²002²Q   10/20/11
                              00²08²00007²00 and 674²A²00²09²
                              00001²00, for the Year Ended September
                              30, 2010
                              Quality Control Review of the Audit of
                              USAID Resources Managed by Egerton
                              University²Tegemeo Institute Under the
4²615²12²003²Q   10/25/11     Development Assistance Grant
                              Agreement No. 615²007, Implementation
                              Letter No. 14, for the Period October 1,
                              2008, to June 30, 2010
                              Quality Control Review (QCR) of the
                              Audit of USAID Resources Managed by
4²674²12²004²Q   10/26/11     Mindset Network Under Agreement No.
                              674²A²00²04²00071²00 for the Period
                              From January 1, 2006, to August 31, 2008
                              Quality Control Review of USAID
                              Resources Managed by Inter²Religious
                              Council of Uganda Under Contract Nos
4²617²12²005²Q   11/16/11
                              CRTA²06²10, 617²C²00²06²00292²00
                              and IRCU 060101BB for the Year Ended
                              December 31, 2008




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 109
                            USAID Office of Inspector General


                                                                         Amt. of
  Report         Date of                                                            Type of
                                        Report Title                     Findings
  Number         Report                                                             Findings
                                                                          ($000)
                            Quality Control Review (QCR) of the
                            Audit of Deloitte Consulting Ltd ²
                            TUNAJALI Program Under HIV/AIDS
                            Care and Treatment and Rapid Funding
                            Envelope Contract No. 621²C²007²
                            00002²00, the Community Care for
                            PLWA and OVC Cooperative Agreement
4²621²12²006²Q   12/02/11
                            No. 621²A²00²07²00023²00, and Quick
                            Start Care and Treatment and Rapid
                            Funding Envelope for HIV/AIDS Under
                            Strategic Objective Agreement No.
                            621001²01, Contract No. 623²C²00²03²
                            00004²00 for the Year Ended
                            December 31, 2008
                            Quality Control Review of the Audit of
                            Pastoral Activities and Services for
                            People with AIDS Dar es Salaam
4²621²12²007²Q   12/09/11   Archdiocese (PASADA) Under
                            Development Assistance Grant
                            Agreement No. 621²A²00²06²00011²00
                            for the Year Ended December 31, 2009
                            Quality Control Review of the Audit of
                            USAID Resources Managed by Regional
                            Centre for Quality Health Care Under
                            Strategic Objective Agreement Number
4²623²12²008²Q   12/09/11
                            623²0011.02²60088 and the Close²Out
                            Audit of Limited Scope Grant Agreement
                            Number 6230010.40²00002 the Year
                            Ended June 30, 2009
                            Quality Control Review (QCR) of the
                            Audit of USAID Resources Managed by
                            American National Red Cross Society
                            and Subgranted to Tanzania Red Cross
                            Society Under Grant Agreement No.
4²621²12²009²Q   01/06/12   GPO²A²00²04²00005²00 for Scaling²Up
                            Together We Can: A Proven Peer
                            Education Program and Community
                            Mobilization Strategy for Youth HIV
                            Prevention Project for the Period April 1,
                            2006, to March 31, 2009
                            Quality Control Review of Talal Abu²
                            Ghazaleh & Co. International, West Bank
                            & Gaza, Closeout Audit of the Fund
                            Accountability Statement of Locally
                            Incurred Costs of USAID Resources
6²294²12²001²Q   02/29/12   Managed by Economic Cooperation
                            Foundation, Grant Number 294²G²00²
                            09²00206²00, Improving Conditions for
                            Trade and Economic Development in the
                            West Bank Project, for the Period
                            June 22, 2009, to December 31, 2010


    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 110
                            USAID Office of Inspector General


                                                                       Amt. of
  Report         Date of                                                          Type of
                                         Report Title                  Findings
  Number         Report                                                           Findings
                                                                        ($000)
                            Quality Control Review of the Financial
                            Audit conducted by the Directorate
                            General Audit, Federal Government,
                            Department of the Auditor General of
                            Pakistan, of the Merit and Need Based
G²391²12²001²Q   02/17/12
                            Scholarship Project, USAID/Pakistan
                            Agreement No. 391²G²00²04²01023²
                            00, for the Period From July 2, 2004, to
                            June 30, 2010, Managed by the Higher
                            Education Commission
                                             Other
                            Independent Auditor·s Report on
                            USAID·s Compliance With the Improper
0²000²12²001²S   03/16/12
                            Payments Elimination and Recovery Act
                            of 2010
                            Review of USAID·s Compliance With
2²000²12²001²S   10/26/11   Procedures for Approving Conference           5         BU
                            Expenses
                            Review of Audits of Foreign
2²000²12²002²S   12/28/11   Organizations Expending Centrally
                            Funded Assistance
                            Review of Whether Selected Missions
2²000²12²003²S   01/06/12   Are Making Duplicate Travel
                            Reimbursements
                            Proposed Solutions for Storing the
2²000²12²004²S   03/08/12   Household Effects of USAID Direct²Hire
                            Employees
                            Review of USAID/Egypt·s Contractors·
6²263²12²001²S   12/29/11   Compliance With the Trafficking Victims
                            Protection Reauthorization Act of 2008
                            Survey of USAID/Iraq·s Awards and
E²267²12²001²S   11/30/11
                            Subawards
                            Review of Responses to Internal Audit
                                                                        6,571       QC
F²306²12²001²S   12/26/11   Findings on the Local Governance and
                                                                        3,424       UN
                            Community Development Project




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 111
                                          USAID Office of Inspector General



  Statistical Table of Reports With Questioned and Unsupported Costs
                                                         USAID
                                      October 1, 2011²March 31, 2012

                                                                          Questioned                    Unsupported
                                          Number of
             Reports                                                        Costs                          Costs1
                                         Audit Reports
                                                                             ($)                            ($)

A. For which no management
   decision had been made as of                    57                       48,924,6862,3                  26,225,0332,3
   October 1, 2011
B. Add: Reports issued
   October 1, 2011²March 31,                      130                      109,650,0774                     83,713,3334
   2012

Subtotal                                         187                       158,574,763                     109,938,366

C. Less: Reports with a
   management decision made
                                                 1145                       58,294,2336                     32,293,2566
   October 1, 2011²March 31,
   2012

    Value of recommendations
                                                                             10,024,585                      3,451,392
    disallowed by Agency officials

    Value of recommendations
                                                                             48,269,648                     28,841,864
    allowed by Agency officials

D. For which no management
   decision had been made as of                    78                      100,280,5307                     77,645,1107
   March 31, 2012
1Unsupported   costs, a subcategory of questioned costs, are reported separately as required by the Inspector General Act.
2The ending balances on September 30, 2011, for questioned costs totaling $49,116,465 and for unsupported costs totaling
$26,228,534 were decreased by $191,779 and $3,501 respectively, to reflect adjustments in recommendations from prior
periods.
 3Amounts   include $6,630,735 in questioned costs and $268,578 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 4Amounts  include $66,134,833 in questioned costs and $63,287,660 in unsupported costs for audits performed for OIG by
 other federal audit agencies.
 5Unlikethe monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports counted here
 may be counted again in the figure below it because some reports have multiple recommendations and fall into both categories.
 6Amounts   include $7,174,016 in questioned costs and $628,379 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 7Amounts   reflect $65,591,552 in questioned costs and $62,927,859 in unsupported costs for audits performed for OIG by other
 federal audit agencies.




           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 112
                                     USAID Office of Inspector General



                Statistical Table of Reports With Recommendations
                              That Funds Be Put to Better Use
                                                  USAID
                                 October 1, 2011²March 31, 2012
                                                                       Number of       Value
                               Reports
                                                                      Audit Reports     ($)

A. For which no management decision had been made as of October
                                                                           1          9,440,000
   1, 2011


B.    Add: Reports issued October 1, 2011²March 31, 2012                   1           4,980


     Subtotal                                                              2          9,444,980


C. Less: Reports with a management decision made October 1,
                                                                           2          9,444,980
   2011²March 31, 2012


             Value of recommendations agreed to by Agency officials                   9,444,980


             Value of recommendations not agreed to by Agency
             officials


D. For which no management decision had been made as of March
                                                                           0
   31, 2012




        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 113
                           USAID Office of Inspector General



 Reports Over 6 Months Old With No Management Decision
                                       USAID
                       October 1, 2011²March 31, 2012


During this reporting period, there were no reports over 6 months old with no management
decision.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 114
                                USAID Office of Inspector General




            Significant Revisions of Management Decisions
                                           USAID
                          October 1, 2011²March 31, 2012



   Section 5(a) (11) of the Inspector General Act requires a description and explanation of
   the reasons for any significant revised management decision during the reporting period.

   During this reporting period, USAID did not make any significant revisions of
   management decisions.




         Management Decisions With Which the Inspector
                     General Disagrees
                                           USAID
                          October 1, 2011²March 31, 2012




  Section 5 (a) (12) of the Inspector General Act of 1978, as amended, requires semiannual
  reports to include information concerning any significant management decisions with
  which the inspector general disagrees.

  During this reporting period, the Inspector General agreed with all management decisions.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 115
                              USAID Office of Inspector General



   Noncompliance with the Federal Financial Management
               Improvement Act of 1996
                                         USAID
                        October 1, 2011²March 31, 2012



Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
update on issues outstanding under a remediation plan required by the Federal Financial
Management Improvement Act of 1996 (FFMIA), (Public Law 104±208, Title VIII, codified
at 31 U.S.C. 3512 note). FFMIA requires agencies to comply substantially with (1) federal
financial management system requirements, (2) federal accounting standards, and (3) the
U.S. Standard General Ledger at the transaction level. An agency that is not substantially
compliant with FFMIA must prepare a remediation plan.

USAID had no instances of noncompliance to report during this reporting period.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 116
                                          USAID Office of Inspector General



                                     Significant Findings From
                                       Contract Audit Reports
                                                   USAID
                                  October 1, 2011²March 31, 2012



          The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110±181, Section
          845) requires inspectors general to submit information on contract31 audit reports that
          contain significant audit findings in semiannual reports to the Congress.

          The aFWGHILQHV³VLJQLILFDQWDXGLWILQGLQJV´WRLQFOXGHXQVXSSRUWHGTXHVWLRQHGRU
          disallowed costs in excess of $10 million and other findings that the Inspector General
          determines to be significant.

          On OIG¶s behalf, the Defense Contract Audit Agency conducted the ³Audit of Black &
          Veatch Special Projects Corporation (BVSPC) of Direct Costs Incurred and Billed under
          Contract No. 306±I±00±06±00517±´and questioned $32,198,382 in costs incurred and
          billed by Black & Veatch. The purpose of the contract was to provide USAID/Afghanistan
          a full range of technical assistance, physical support, and infrastructure services to
          rehabilitate Afghanistan in the following four infrastructure sectors: (1) energy and natural
          resources, (2) transport, (3) urban development/water sanitation, and (4) public buildings.
          The purpose of the audit was to determine the allowability of the direct costs claimed and
          billed on the contract. DCAA questioned $32,039,155 in costs that were not adequately
          supported. In addition, DCAA questioned travel costs of $159,227 that were greater than
          the lowest standard airfare and were not adequately documented or justified. OIG
          recommended determining the allowability of the questioned costs and recover, as
          appropriate, unsupported questioned costs. A management decision has not been reached.




31
     Includes grants and cooperative agreements.

           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 117
                      USAID Office of Inspector General




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 118
                                       USAID Office of Inspector General


                              Significant Findings and Activities

                              Millennium Challenge Corporation

           Good Governance                                countries whose TIP rankings did not improve or

Review of the Millennium Challenge                        were downgraded.

Corporation·s Approach to Address and                     A management decision and final action has
Deter Trafficking in Persons (Report No.
                                                          been made on the one recommendation.
M²000²12²001²S). The U.S. Department of
State¶s June 2011 Trafficking in Persons Report                       Economic Growth
(TIP) VWDWHGWKDWIRUWKHSDVW\HDUV³WUDIILFNLQJ    Audit of the Millennium Challenge
LQSHUVRQV´DQG³KXPDQWUDIILFNLQJ´KDYHEHHQ            Corporation·s Funding of Activities in
used as umbrella terms for activities involved            Mongolia (M²000²12²001²P). In October
when one person obtains or holds another                  2007, MCC signed a 5±year, $285 million
person in compelled service. However, people              compact with the Government of Mongolia
may be trafficking victims regardless of whether          aimed at reducing poverty and promoting
they were born into a state of servitude or were          sustainable economic growth through
transported to the exploitative situation, whether        investments in four projects. At the request of
they once consented to work for a trafficker, or          the Government of Mongolia, one of the
whether they participated in a crime as a direct          activities, a $188 million rail project, was later
result of being trafficked.                               canceled and two new projects were added
                                                          through an amendment to the compact in
OIG found that MCC had designed controls to
                                                          January 2010.
help prevent TIP in its projects by adopting a
zero±tolerance policy, putting in procurement             Two of the projects are problematic. An
mechanisms that included stronger TIP language,           $80 million project to construct a 176±kilometer
addressing TIP when selecting countries eligible          road between the cities of Choir and Sainshand
for MCC funding, and including activities and             and to construct and rehabilitate bridges and a
actions designed to minimize the risk of TIP              road near Ulaanbataar is behind schedule by at
(principally seeking to deter potential offenders)        least 1 year and faces significant risks to
in its compact development and implementation             completing and achieving its project activity
phases, and sharing TIP knowledge. However,               goals. Only a nominal amount of work on the
MCC did not provide warning letters to several            road project has been completed, and no work
                                                          on the construction and rehabilitation of bridges

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 119
                                       USAID Office of Inspector General


and a road near Ulaanbataar occurred during the           activity will register fewer new land plots because
2011 construction season. The project has                 MCC relied on unverified data during its due
suffered delays because of difficulties with              diligence process. MCC used data results from an
contractors and the time required for the                 information management system created by
procurement process. For example, the                     another donor. However, during project
contractor initially hired to build the Choir±            implementation, MCC found that the data were
Sainshand road entered into bankruptcy and was            inaccurate, and as a result it had to change the
terminated after 1 year on the job. MCA±                  design of the project to include data verification.
Mongolia (MCA±M) then hired three smaller
                                                          OIG made four recommendations. Management
road contractors to perform a nominal amount of
                                                          decisions have been made on three
work in an attempt to salvage some of the
                                                          recommendations, and final action has been
construction season. However, the contractors
                                                          taken on one.
were relatively inexperienced, and MCC expects
that they will finish only about 20 percent of the             Other MCC Programs and
work planned.                                                        Operations

In addition, the procedures established by MCA±
                                                                       Audits and Reviews
M did not ensure that subcontracts worth more             Follow²up Audit on the Millennium
than $100,000 were approved. Without accurate             Challenge Corporation·s Implementation
information and the appropriate approval of               of Selected Audit Recommendations.
subcontractors, MCC funds could be used to hire           (Report No. M²000²12²003²P). In
unqualified or banned subcontractors, thereby             accordance with Government Accountability
jeopardizing project completion. Further, OIG             Office audit standards, OIG periodically follows
was unable to determine how many subcontracts             up on previous audit recommendations to ensure
worth more than $100,000 had even been                    that all necessary actions have been taken. This
awarded on the road project.                              audit of MCC¶s response to four specific OIG
                                                          recommendations found that MCC did, in fact,
According to the compact, the Property Rights
                                                          take appropriate corrective action.
Project will privatize and register approximately
75,000 land plots of low± and middle±income               However, OIG found some weaknesses in MCC¶s
households with the Government of Mongolia.               management of the process for responding to
This activity is behind schedule and may not              audit recommendations, as evidenced by the
meet its goal because no land plots had been              Corporation¶s (1) reporting final action months
registered by September 2011. The project                 before the action actually occurred, (2) not acting

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 120
                                       USAID Office of Inspector General


upon a recommendation in a timely manner, and             that acknowledges the source of the funding.
(3) not establishing timelines for final actions.         Instead, the MCAs used the American flag in
OIG made four recommendations for MCC to                  their logos without any accompanying language
improve these processes, including verifying final        referring to the American people. In another
actions on recommendations for fiscal years 2010          inconsistency, MCC¶s branding and marking
and 2011 and establishing a procedure to address          requirements were not clear on the length of time
time±sensitive recommendations. Management                project signs should remain at project sites.
decisions have been reached on all of the                 Further, MCA draft communication strategies
recommendations.                                          did not fully convey MCC¶s key messages and did
                                                          not contain the same types of information and
Review of the Millennium Challenge
                                                          the same level of detail.
Corporation·s Branding and Marking
Policies and Practices (Report No. M²                     MCC was not able to provide OIG with the
000²12²002²S). MCC requires all partners                  branding costs expended in each compact
managing branding and marking of U.S.                     country. MCC officials indicated that branding
Government assistance funded by the                       costs are classified as general administrative costs
corporation to understand the value and                   or can be included in the cost of fixed±price
importance of communicating the following two             contracts, largely for projects. As a result, MCC
key messages to the public: MCC¶s compacts are            does not have the cost information needed to
a partnership for poverty reduction with                  help oversee branding and marking overseas and
countries committed to improving the lives of its         to determine whether insufficient, sufficient, or
citizens, and MCC¶s compacts are grants made              excessive amounts of compact funding are being
possible by the generosity of the people of the           spent on branding and marking efforts in each
United States.                                            compact country.

OIG found that MCC has branding and marking               OIG made seven recommendations.
policies and practices in place for its investments       Management decisions have been made on six,
in its compact countries, but improvements could          and final action has been taken on one.
be made to better communicate that its
                                                          Follow²up Audit of the Millennium
development projects are funded by the
                                                          Challenge Corporation·s Implementation
American people. OIG¶s review of MCA logos in
                                                          of Key Components of a Privacy Program
El Salvador, Ghana, Mali, Mongolia, Morocco,
                                                          for Its Information Technology Systems
Namibia, and Tanzania found that the MCA
                                                          (Report No. M²000²12²002²P). Violations
logos did not contain language, such as a tag line,

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 121
                                       USAID Office of Inspector General


of an individual¶s privacy by U.S. Government             In addition, although MCC provided a method
agencies can carry substantial penalties. To              for users to get comparable information to what
comply with laws, regulations, and Office of              was available on third±party Web sites and
Management and Budget requirements, agencies              applications and applied appropriate MCC
must have viable privacy programs to protect              branding for those sites, the Corporation
individuals¶ private information. A privacy               generally did not implement controls for the sites
program must have four key components: (1) a              to mitigate the risk of violating individuals¶
privacy management structure, (2) policies and            privacy. Specifically, MCC did not collect
procedures, including a violation response, (3)           personally identifiable information only for
awareness and training, and (4) monitoring for            legitimate business needs nor meet requirements
compliance.                                               for privacy policies and notices on its Web sites.

In a July 2010 report,32 OIG found that MCC               OIG made 24 recommendations to address the
had not implemented the key components of a               findings. Management decisions were reached on
privacy program for its information technology            all of them.
systems to mitigate the risk of violations.
Moreover, in some instances, MCC may have                         Financial Management
violated the privacy of individuals. In that report,
                                                          Audit of the Millennium Challenge
OIG made 18 recommendations to correct the
                                                          Corporation·s Financial Statements,
extensive weaknesses identified. MCC agreed
                                                          Internal Controls, and Compliance for
with 17 of the recommendations.
                                                          the Period Ending September 30, 2011,
In this follow±up audit, OIG found that                   and 2010 (Report No. M²000²12²001²C).
although MCC addressed nine recommendations               OIG contracted with an independent public
selected for review, MCC¶s actions did not fully          accounting firm to audit MCC¶s financial
address five others. OIG identified weaknesses            statements as of September 30, 2011. The firm
with MCC¶s privacy policy, privacy training, and          expressed an unqualified opinion on the
implementation of controls to protect                     financial statements but identified two issues that
individuals¶ privacy.                                     were considered material weaknesses and two
                                                          other issues that were considered significant
                                                          deficiencies.
32
 $XGLWRIWKH0LOOHQQLXP&KDOOHQJH&RUSRUDWLRQ¶V         The two material weaknesses related to
Implementation of Key Components of a Privacy
Program for Its Information Technology Systems            weaknesses in MCC¶s financial reporting process
(Audit Report No. M±000±10±003±P, July 9, 2010).

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 122
                                        USAID Office of Inspector General


and its process for calculating and reporting              15±ton crane, which the investigation
accrued expenses, retentions, and advances. With           determined cost $34,480 less than what the
regard to MCC¶s financial reporting process,               contractor claimed. The contractor was asked to
MCC¶s heavy reliance on the manual                         provide a copy of the actual invoice and proof of
compilation of financial reports, staffing                 payment for the crane, which confirmed the
limitations, and tight compilation and reporting           inflated price. The contractor claimed that after
timelines resulted in an ineffective quality               submitting the quote, he was able to renegotiate
assurance process. With respect to MCC¶s                   down the price even lower. However, based on
process for calculating and reporting accruals, the        the terms and conditions of the contract, the
auditors noted significant accrual errors at all six       contractor should have claimed only the actual
MCAs for which testing was performed.                      cost. The contractor reimbursed the difference to
                                                           the program.
The two significant deficiencies related to
required documentation from MCAs that was
                                                                 Fund Accountability Statements
not submitted, reviewed, or approved in a timely
manner (including audit reports, quarterly                 OIG reviews and issues fund accountability
disbursement requests, and compact closure                 statement audits to account for compact funds
plans) and USAID¶s reconciliation of its fund              under recipient government management.
balance with the Department of the Treasury.33             These fund accountability statement audits are
                                                           conducted by independent public auditors.
OIG made 15 recommendations to address the
                                                           Under the terms of MCC compacts, funds
above weaknesses, and management decisions
                                                           expended by a recipient country must be audited
have been made on all of them.
                                                           at least annually but are usually audited twice a
Contractor for MCC in Armenia is Asked                     year. The recipient establishes an agency, usually
for Reimbursement. An OIG investigation                    an MCA, that produces financial statements
involving an MCC contractor in Armenia                     documenting account activity. The audit of a
revealed that the contractor was reimbursed for a          fund accountability statement is conducted by a
                                                           firm that OIG has approved.
33
  USAID administers the Threshold Program for
0&&86$,'¶V3KRHQL[ILQDQFLDOPDQDJHPHQW                 The selected audit firm issues an opinion on
system is the accounting system of record, but many of
                                                           whether the financial statements present fairly, in
the cash balances recorded in Phoenix do not
correspond with balances reported by the U.S.              all material respects, the program revenues and
Treasury.                                                  costs incurred and reimbursed, in conformity
                                                           with the terms of a compact agreement and

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 123
                                        USAID Office of Inspector General


related supplemental agreements for the period             approximately $21.2 million in compact funds,
being audited.                                             $1.8 million in 609g funds34 and $465,073 in
                                                           compact implementation funds for the period
In addition, the audit firm is required to employ
                                                           January 1 to December 31, 2010. MCC¶s
generally accepted government auditing standards
                                                           $465 million compact and a $9.4 million 609g
in performing the audits. All audit reports are
                                                           agreement with the Government of Burkina Faso
reviewed, approved, and issued by OIG.
                                                           fund projects related to the governance of rural
During this reporting period, OIG issued                   land, agriculture, roads, and schools.
56 recommendations for the 15 fund
                                                           Independent auditors reported that the fund
accountability statement audits conducted.
                                                           accountability statement presented fairly in all
Benin (Report No. M²000²12²014²N). The                     material respects the program revenues and costs
independent audit of MCA±Benin covered                     incurred. However, the audit identified
incurred costs totaling approximately                      significant deficiencies pertaining to internal
$83.8 million for the period January 1 to                  controls and material weaknesses related to
June 30, 2011. The $307 million compact with               compliance with laws and regulations. Internal
the Government of the Republic of Benin funds              control weakness involved the management of
training for farmers in the production and                 petty cash accounts and controls over the
marketing of high±value horticultural crops,               submission of travel documents. Compliance
expands farmer access to credit through technical          issues concerned outstanding advances.
assistance to financial institutions and loans,
                                                           Cape Verde (Report No. M²000²12²005²
constructs and rehabilitates roads, and
                                                           N). The independent audit of MCA±Cape
strengthens the institutional environment for
                                                           Verde covered compact expenditures totaling
businesses and investment by improving the
                                                           approximately $26.8 million for the period from
judicial system to resolve claims.
                                                           July 1, 2010, to January 17, 2011. The 5±year,
The auditors reported that the fund                        $110 million compact with the Government of
accountability statement presented fairly, in all          the Republic of Cape Verde intends to foster
material respects, program revenue and                     economic growth through programs designed to
expenditures for the period audited.                       improve agriculture productivity, increase access

Burkina Faso (Report No. M²000²12²004²                     34
                                                             Section 609g of the Millennium Challenge
                                                           Corporation Act of 2003 allows MCC to facilitate the
N). The independent audit of MCA±Burkina
                                                           development and implementation of the compact
Faso covered incurred costs totaling                       between the United States and the country receiving
                                                           the compact.

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 124
                                       USAID Office of Inspector General


to markets, reduce transportation costs, and              in the financial statements. Additionally, in the
develop the private sector.                               review of compliance with loan agreements,
                                                          auditors found material noncompliance related
Independent auditors reported that the fund
                                                          to outstanding loan balances of approximately
accountability statement presented fairly, in all
                                                          $2 million. OIG issued two recommendations to
material respects, the program revenues and costs
                                                          address the findings related to updating loan
incurred for the period audited. No significant
                                                          repayment transactions in the financial records
items of internal control or noncompliance were
                                                          and establishing a system to address the recovery
identified.
                                                          of past due loans from beneficiaries.
Ghana ²Three Audits
                                                          (Report No. M²000²12²009²N)
(Report No. M²000²12²007²N)
                                                          Ghana¶s MiDA manager also signed a grant
Ghana is the recipient of a $547 million compact          agreement with the Alliance for Green
managed by the Millennium Development                     Resolution for Africa to improve and sustain
Authority (MiDA). The 5±year compact is                   incomes derived from agricultural activities
designed to increase farmerV¶ income through              though facilitation of low interest loans. The
programs to increase production of high value             fund accountability statement for the $2.5
cash and food crops and to enhance exports of             million guarantee was audited for the period
selected crops. MiDA signed a $5.4 million grant          March 1 to December 31, 2010. The guarantee is
agreement with Sea±Freight Pineapple Exports±             set aside to provide $25 million in bank loans.
Ghana (SPEG) for postharvest equipment to
benefit farmers. The independent audit of                 Auditors reported that the fund accountability

resources managed by SPEG covered                         statement presented fairly, in all material

approximately $2.1 million disbursed under the            respects, program revenues, costs incurred and

first phase of the grant over the period July 1 to        reimbursed directly by MiDA, as well as

December 31, 2010.                                        commodities and technical assistance directly
                                                          procured by MCC, for the 10±month period
The auditors reported that the fund                       ending December 31, 2010.
accountability statement presented fairly, in all
material respects, program revenues, costs, and           However, the auditors identified significant

assets directly procured with MCC funds for the           deficiencies involving internal controls related to

period audited. However, the auditors identified          the management of day±to±day operations of

a material weakness in internal controls related to       grants and the need to promote awareness and

loan repayments that were not properly reflected          interest in the program. Additionally, the

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 125
                                        USAID Office of Inspector General


auditors found material weaknesses regarding               provides development assistance to the water,
noncompliance with grant terms. Specifically,              health, and private sectors.
(1) documents were inadequate to justify
                                                           Auditors reported that, except for ineligible
expenditures for a special vehicle, (2) records
                                                           questioned costs of $102,975, the fund
were inadequate to ascertain whether seeds were
                                                           accountability statement presented fairly, in all
distributed to small farmers, and (3) accounting
                                                           material respects, the program revenues and costs
for interest earned did not meet grant agreement
                                                           incurred for the period audited. The ineligible
provisions.
                                                           costs pertained to those that exceeded budget
(Report No. M²000²12²011²N)                                limits.

The independent audit of MiDA±Ghana covered                The auditors also identified significant
MiDA±incurred costs in the amount of                       deficiencies in the internal control structure
$71,955,605 for the period from July 1 to                  involving contract award evaluation panels, price
December 31, 2010. The independent auditor                 reviews, failure to document requests for budget
reported that, except for questioned costs                 overruns, procurement actions in excess of MCC
totaling, $50,429, the fund accountability                 limits, deficiencies in contract deliverables,
statement presented fairly, in all material                deficient payment vouchers, and problems with
respects, program revenues and expenditures for            payment guarantees. In addition, the auditors
the period audited.                                        identified material instances of noncompliance

The independent auditors reported a significant            pertaining to deficiencies related to receipts for

deficiency in internal control involving                   contracts tendered, a review for excluded parties,

inadequate monitoring of employee travel                   and uncertainty over severance pay.

advances and material instances of                         Mongolia (Report No. M²000²12²002²N).
noncompliance matters involving areas such as              The independent audit of MCA±Mongolia
untimely refunds, statutory deductions, and                covered incurred costs totaling approximately
contractors omitted from the awards publication.           $28.8 million for the period from January 1 to

Lesotho (Report No. M²000²12²001²N).                       December 31, 2010. The compact with the

The independent audit of MCA±Lesotho covered               Government of Mongolia consists of projects

incurred costs totaling approximately                      expected to have a significant direct impact

$26.5 million for the period from July 1 to                through the creation of new economic

December 31, 2010. The 5±year, $362.6 million              opportunities for individuals and groups to

compact with the Government of Lesotho                     participate in economic growth. Elements of the


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 126
                                       USAID Office of Inspector General


economic growth program include (1) property              The 5±year, $697.5 million compact with the
rights projects, such as the registration of land         Government of Morocco targets investments in
plots, (2) vocational education projects and the          agriculture, small±scale fisheries, artisan crafts,
creation of competency standards, (3) health              small business, and financial services.
projects targeting issues of labor force
                                                          Auditors reported that, except for the ineligible
productivity, (4) road construction and
                                                          questioned cost of $2,096, the fund
rehabilitation, and (5) energy and environmental
                                                          accountability statement presented fairly, in all
projects seeking benefits from the development
                                                          material respects, the program revenues and costs
of renewable energy sources and the use of energy
                                                          incurred for the period audited. There were no
efficient devices.
                                                          material instances of noncompliance with the
Auditors reported that the fund accountability            terms of the compact.
statement presented fairly, in all material
                                                          Mozambique (Report No. M²000²12²
respects, the program revenues and costs incurred
                                                          008²N). The independent audit of MCA±
for the period audited, and there were no
                                                          Mozambique covered incurred costs totaling
instances of noncompliance with rules,
                                                          approximately $24.2 million from the compact
regulations, or grant terms identified. However,
                                                          fund for the period from January 1 to
the auditors identified material weaknesses in the
                                                          December 31, 2010.
internal control structure related to the
preparation of contractor performance reports             The 5±year, $507 million compact with the
and an instance where a contractor with                   Government of Mozambique is directed to
unsatisfactory past performance received a new            projects related to water, roads, land tenure, and
contract. OIG issued two recommendations to               agriculture. The projects target selected provinces
correct the identified problems, including                in northern Mozambique with programs to
updating the procurement operations manual                increase income and reduce malnutrition.
used by MCA±Mongolia to comply with MCC¶s
                                                          Auditors reported that, except for the ineligible
program procurement guidelines.
                                                          questioned cost of $807,837, the fund
Morocco (Report No. M²000²12²003²N).                      accountability statement presented fairly, in all
The independent audit of MCA±Morocco                      material respects, the program revenues and costs
covered incurred costs totaling approximately             incurred for the period audited. The questioned
$35.5 from the compact fund for the period from           costs resulted from advances to employees that
July 1 to December 31, 2010.                              were not justified, questionable conversion rates



        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 127
                                      USAID Office of Inspector General


for local currency, and petty cash amounts that          The independent auditors identified multiple
were not correctly recorded.                             significant deficiencies in internal controls
                                                         involving weaknesses related to MCA¶s Senegal¶s
Regarding compliance, the auditors disclosed
                                                         computerized accounting system that does not
material instances of noncompliance with
                                                         ensure adequate data security. Additionally, in
regulations involving incorrect payment of taxes,
                                                         the review of compliance with spending
incorrect registration of employees in the social
                                                         authority, the auditors noted that MCA±Senegal
security system, and advances that were not
                                                         did not use an approved budget but instead used
liquidated.
                                                         an expired spending authority.
The auditors also identified significant
                                                         Tanzania²Two Audits
deficiencies in internal controls. The deficiencies
included inadequate documentation for vehicle            (Report No. M²000²12²010²N). The

logs and time sheets.                                    independent audit of MCA±Tanzania covered
                                                         nearly $33.4 million in compact and 609g funds
Senegal (Report No. M²000²12²015²N).
                                                         from January 1 to June 30, 2010. The 5±year,
OIG¶s audit of MCA±Senegal audit covered
                                                         $698 million agreement with the Government of
incurred costs of $4.2 million ($3.5 million for
                                                         the United Republic of Tanzania is intended to
609g and $0.7 million for compact
                                                         stimulate economic growth through investments
implementation funding) for the period April 1,
                                                         in the transportation, energy, and water sectors.
2009, to December 31, 2010. The $540 million
compact aims to rehabilitate major national              Auditors reported that the fund accountability

roads, invest in irrigation and water resource           statement presented fairly, in all material

management, and conduct policy reforms.                  respects, the program revenues and costs incurred
                                                         for the period audited. However, the auditors
The auditors reported that, except for the
                                                         identified significant deficiencies pertaining to
ineligible questioned cost of $45,299, the fund
                                                         internal controls and material weaknesses related
accountability statement presented fairly, in all
                                                         to compliance with laws and regulations. Three
material respects, program revenues and costs
                                                         internal control findings, which were recurring
incurred for the audited period. Of the
                                                         weaknesses identified in earlier reports, related to
questioned ineligible costs, $26,299 related to a
                                                         the timely filing of travel vouchers, discrepancies
payment made through an expired spending
                                                         in fuel consumption, and notification of
authority, and $19,000 related to office furniture
                                                         supervisors upon return from leave. Regarding
that was maintained at the supplier¶s location.
                                                         compliance, auditors found that disbursements


        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 128
                                       USAID Office of Inspector General


against the 609g account were $325,938 greater            The purpose of the 5±year, $65.7 million
than available balances.                                  compact with the Government of Vanuatu is to
                                                          develop public transportation infrastructure on
(Report No. M²000²12²013²N)
                                                          eight islands and provide technical assistance to
OIG¶s MCA±Tanzania audit covered incurred                 the public works department.
costs of $83.5 million for the period July 1 to
                                                          Auditors reported that, except for questioned
December 31, 2010. Activities are designed to
                                                          costs of $36,872, the fund accountability
improve roads, improve the provision of electric
                                                          statement presented fairly, in all material
power, and increase the availability of potable
                                                          respects, the program revenues and costs incurred
water.
                                                          for the period audited. The questioned costs
The auditors concluded that MCA±Tanzania¶s                resulted from a material weakness in the internal
fund accountability statement presented fairly, in        control structure involving an advance payment
all material respects, program revenues, costs            made for services that had not been fully
incurred and reimbursed, and commodities and              completed. The report did not identify any
technical assistance procured directly by MCC             problems related to compliance with laws,
for the period audited.                                   regulations, or compact terms.

However, the independent auditors identified              (Report No. M²000²12²012²N)
significant deficiencies involving internal controls
                                                          OIG¶s audit of MCA±Vanuatu covered incurred
that resulted from a lack of review by MCA±
                                                          costs of $820,701 for the period January 1 to
Tanzania¶s management. Specifically,
                                                          April 28, 2011.
management failed to perform a proper review of
the bank reconciliation statements. In addition,          The auditors reported that, except for the
vehicle logbooks were not properly authorized             ineligible questioned cost of $36,872, the fund
and the auditors identified non±compliance with           accountability statement presented fairly, in all
MCA±Tanzania¶s procurement implementation                 material respects, program revenues and costs
plan.                                                     incurred for the audited period. The ineligible

Vanuatu²Two Audits                                        questioned cost related to advance payments
                                                          made before completion of the deliverable.
(Report No. M²000²12²006²N). The
independent audit of MCA±Vanuatu covered                  The independent auditors identified a material
incurred costs totaling approximately $820,701            weakness in the internal control structure
for the period from January 1 to April 28, 2011.


         Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 129
                                     USAID Office of Inspector General


involving an advance payment for services that
had not been fully completed.


     Management Capabilities

           Employee Misconduct

Three Employees Terminated. Three
former Millennium Challenge Account±
Mongolia (MCA±Mongolia) employees were
terminated for accepting travel benefits from a
contractor during an official trip. The employees
allegedly pressured a MCA partner to pay for an
all±expenses±paid trip to the implementer¶s
office in Denmark before approving the award of
a contract. The employees also reportedly coerced
the same implementer into leasing an apartment
owned by an MCA employee¶s husband. The
employees were terminated, and the terminations
were upheld by the MCA±Mongolia Board of
Directors. In addition, MCC in Washington,
DC, withheld more than $22,000 in salary and
severance payments from two of the three
employees involved.




        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 130
                                  USAID Office of Inspector General




              Significant Recommendations Described Previously
                                     Without Final Action
                                                  MCC
                              October 1, 2011²March 31, 2012

Section 5(a)(3) of the Inspector General Act of 1978 requires semiannual reports to identify each
significant recommendation described in previous semiannual reports on which corrective action
has not been completed.

                                                                                  Final Action
     Report                                        Issue     Rec. Management
                       Subject of Report                                             Target
     Number                                        Date      No. Decision Date
                                                                                      Date
                     The Office of Inspector
                     General·s Final Report on
                     the Review of Millennium
  M²000²11²004²S     Challenge Corporation²                   1       05/12/11       05/31/12
                                                  05/31/11
                     Funded Contracts with                    2       05/12/11       05/31/12
                     Government²Owned
                     Enterprises in Mali

                                                              1       05/23/11       05/31/12
                     The Review of Millennium                 2       05/23/11       05/31/12
                     Challenge Corporation²                   3       05/23/11       05/31/12
  M²000²11²005²S     Funded Contracts with        05/31/11    4       05/23/11       05/31/12
                     Government²Owned                         5       05/23/11       05/31/12
                     Enterprises in Namibia                   6       05/23/11       05/31/12
                                                              7       05/23/11       05/31/12
                                                              8       05/23/11       05/31/12
                     The Review of Millennium
                     Challenge Corporation²
  M²000²11²006²S     Funded Contracts with        05/31/11    1       05/31/11       05/31/12
                     Government²Owned
                     Enterprises in Tanzania

                     The Office of Inspector
                     General·s Final Report on
                     the Survey of the
                                                                      05/10/11
                     Millennium Challenge                     1                      04/01/12
  M²000²11²007²S                                  06/01/11            05/10/11
                     Corporation·s                            2                      04/01/12
                                                                      05/10/11
                     Implementation of Selected               4                      04/01/12
                     Controls Over Personal
                     Digital Assistants




       Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 131
                              USAID Office of Inspector General



                                                                             Final Action
  Report                                       Issue     Rec. Management
                  Subject of Report                                             Target
  Number                                       Date      No. Decision Date
                                                                                 Date

                 The Risk Assessment of the
                 Millennium Challenge                      4      09/01/11     06/30/12
                 Corporation·s Information                11      09/01/11     04/30/12
M²000²11²001²O                                06/01/11
                 Technology Governance                     5      09/01/11     06/01/12
                 Over Its Information                      6      09/01/11     06/01/12
                 Technology Investments                    3      09/01/11     12/31/12



                 Review of the Millennium
                 Challenge Corporation·s
M²000²11²002²S
                 Compact with the             06/03/11    3       09/21/11     09/21/12
                 Government of Mali

                 Limited Scope Review of
                 the Millennium Challenge
                 Corporation (MCC)
                 Resources Managed by the
M²000²11²011²S   Millennium Development
                                              09/21/11    10      09/21/11     09/21/12
                 Authority (MiDA), Under
                 the Compact Agreement
                 Between the MCC and the
                 Government of Ghana

                 Audit of the Millennium
                 Challenge Corporation²                   1       09/20/11     09/20/12
M²000²11²005²P                                            2       09/20/11     09/30/12
                 Funded Programs in El        09/30/11
                                                          3       09/20/11     09/20/12
                 Salvador                                 4       09/20/11     09/30/12




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 132
                            USAID Office of Inspector General




                 Incidents in Which OIG Was Refused
                       Assistance or Information
                                         MCC
                        October1, 2011²March 31, 2012




Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
report to the head of the agency whenever requested information or assistance is
unreasonably refused or not provided.

During this reporting period, there were no reports to the MCC Board of Directors
regarding instances in which information or assistance was unreasonably refused or not
provided.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 133
                            USAID Office of Inspector General



                                  Financial Audits
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                          MCC
                        October 1, 2011²March 31, 2012
                                                                        Amt. of
  Report         Date of                                                           Type of
                                        Report Title                    Findings
  Number         Report                                                            Findings
                                                                         ($000)
                            Audit of the Millennium Challenge
                            Corporation·s Financial Statements,
M²000²12²001²C   11/15/11   Internal Controls, and Compliance for the
                            Period Ending September 30, 2011, and
                            2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account²Lesotho
M²000²12²001²N   10/21/11   (MCA²Lesotho, Under the Compact               103        QC
                            Agreement Between the MCC and the
                            Government of Lesotho from July 1, 2010,
                            to December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account²
M²000²12²002²N   11/30/11   Mongolia (MCA²Mongolia), Under the
                            Compact Agreement Between the MCC
                            and the Government of Mongolia from
                            January 1, 2010, to December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account²
                            Morocco (MCA²Morocco) under the
M²000²12²003²N   12/15/11                                                  2         QC
                            Compact Agreement Between MCC and
                            the Government of Morocco for the
                            period from July 1, 2010, to December 31,
                            2010




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 134
                            USAID Office of Inspector General


                                                                       Amt. of
  Report         Date of                                                          Type of
                                        Report Title                   Findings
  Number         Report                                                           Findings
                                                                        ($000)

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by MCA²Burkina Faso Under the
M²000²12²004²N   1/24/12    COMPACT Agreement dated November              7         QC
                            22, 2007 Between MCC and the                  7         UN
                            Government of Burkina Faso from
                            January 1, 2010, to December 31, 2010


                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources managed
                            by Millennium Challenge Account²Cape
M²000²12²005²N   02/06/12   Verde (MCA²Cape Verde), under the
                            Compact Agreement between the MCC
                            and the Government of Cape Verde from
                            July 1, 2010, to January 17, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources managed
                            by Millennium Challenge Account²Vanutu
M²000²12²006²N   02/10/12   (MCA²Vanutu), under the Compact               37        QC
                            Agreement Between the MCC and the
                            Government of Vanuatu from January 1,
                            2011, to April 28, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Sea²Freight Pineapple Exporters Ghana
M²000²12²007²N   02/24/12   (SPEG), a Covered Provider Under the
                            Grant Agreement Between the Millennium
                            Development Authority (MiDA) and SPEG
                            from July 1, 2010, to December 31, 2010




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 135
                            USAID Office of Inspector General


                                                                          Amt. of
  Report         Date of                                                             Type of
                                         Report Title                     Findings
  Number         Report                                                              Findings
                                                                           ($000)
                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by MCA Mozambique Under the Compact
M²000²12²008²N   02/24/12   Agreement Between MCC and the                   808        QC
                            Government of Mozambique for the Base
                            Period and Optional Period 1 from
                            January 1, 2010, to December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Alliance for Green Resolution for Africa
                            (AGRA) A Covered Provider under the
M²000²12²009²N   02/24/12
                            Grant Agreement between the Millennium
                            Development Authority Audit (MiDA) and
                            AGRA for the Period March 1, 2010, to
                            December 31, 2010

                            Audit of Millennium Challenge Corporation
                            (MCC) Resources Managed by Millennium
                            Challenge Account²Tanzania (MCA²
M²000²12²010²N   03/08/12   Tanzania), Under the Compact Agreement
                            Between the MCC and the Government of
                            United Republic of Tanzania from
                            January 1, 2010, to June 30, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            By Millennium Development Authority
M²000²12²011²N   03/16/12   (MiDA) under the Compact Agreement
                            Between the MCC and the Government of
                            Ghana for the Period from July 1, 2010, to
                            December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by MCA²Vanuatu Under the Compact
M²000²12²012²N   03/16/12
                            Agreement Between MCC and the
                            Government of Vanuatu from April 29,
                            2011, to August 26, 2011




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 136
                            USAID Office of Inspector General


                                                                        Amt. of
  Report         Date of                                                           Type of
                                        Report Title                    Findings
  Number         Report                                                            Findings
                                                                         ($000)
                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account Tanzania
                            (MCA²Tanzania), Under the Compact
M²000²12²013²N   03/20/12
                            Agreement Between the MCC and the
                            Government of United Republic of
                            Tanzania from July 1, 2010, to
                            December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by the Millennium Challenge Account
                            Benin (MCA²Benin), Under the Compact
M²000²12²014²N   03/23/12
                            Agreement Between the MCC and the
                            Government of the Republic of Benin for
                            the Period January 1, 2011, to June 30,
                            2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account²Senegal
M²000²12²015²N   03/29/12   (MCA²Senegal), Under the Compact               45        QC
                            Agreement Between the MCC and the
                            Government of Senegal from April 1, 2009,
                            to December 31, 2010




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 137
                            USAID Office of Inspector General



                              Performance Audits
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                          MCC
                        October 1, 2011²March 31, 2012
                                                                  Amt. of
  Report         Date of                                                     Type of
                                     Report Title                 Findings
  Number         Report                                                      Findings
                                                                   ($000)
                            Audit of the Millennium Challenge
M²000²12²001²P   03/22/12   Corporation·s Funding of Activities
                            in Mongolia

                            Follow²up Audit of the Millennium
                            Challenge Corporation·s
M²000²12²003²P   03/30/12
                            Implementation of Selected Audit
                            Recommendations




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 138
                            USAID Office of Inspector General



                             Miscellaneous Reports
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                          MCC
                        October 1, 2011²March 31, 2012
                                                                 Amt. of
  Report         Date of                                                    Type of
                                     Report Title                Findings
  Number         Report                                                     Findings
                                                                  ($000)
                                   Quality Control Reviews
                            Follow²up Audit of the Millennium
                            Challenge Corporation·s
                            Implementation of Key
M²000²12²002²P   03/30/12
                            Components of a Privacy Program
                            for Its Information Technology
                            Systems

                                           Other
                            Review of the Millennium Challenge
                            Corporation·s Approach to
M²000²12²001²S   12/20/11
                            Address and Deter Trafficking in
                            Persons




   Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 139
                                      USAID Office of Inspector General



                           Statistical Table of Reports With
                          Questioned and Unsupported Costs
                                             MCC
                                October 1, 2011²March 31, 2012

                                                      Number
                                                              Questioned                     Unsupported
                                                        of
                    Reports                                     Costs                           Costs
                                                       Audit
                                                                 ($)                             ($) 1
                                                      Reports
A. For which no management decision had                                 7,508,398                7,129,037
                                                           12
   been made as of October 1, 2011

B. Add: Reports issued October 1, 2011²                                 1,052,408
                                                            7                                       6,900
   March 31, 2012
                                                                        8,560,806                7,135,937
Subtotal                                                   19

C. Less: Reports with a management decision                             7,508,398                7,129,037
                                                           12
   made October 1, 2011²March 31, 2012

               Value of recommendations
                                                                             0                        0
               disallowed by agency officials

                                                                        7,508,398
               Value of recommendations                                                          7,129,037
               allowed by agency officials

D. For which no management decision had                                 1,052,408
                                                            7                                       6,900
   been made as of March 31, 2012
1Unsupported    costs, a subcategory of questioned costs, are reported separately as required by the Inspector
General Act.




  Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 140
                               USAID Office of Inspector General



                        Statistical Table of Reports With
                         Recommendations That Funds
                              Be Put to Better Use
                                             MCC
                           October 1, 2011²March 31, 2012
                                                                Number of
                                                                            Value
                            Reports                               Audit
                                                                             ($)
                                                                 Reports

A. For which no management decision had been made as of
                                                                    0         0
   October 1, 2011


                                                                              0
B.    Add: Reports issued October 1, 2011²March 31, 2012            0

                                                                              0
     Subtotal                                                       0


C. Less: Reports with a management decision made October 1,                   0
                                                                    0
   2011²March 31, 2012

             Value of recommendations agreed to by agency                     0
                                                                    0
             officials

             Value of recommendations not agreed to by agency
             officials


D. For which no management decision had been made as of                       0
                                                                    0
   March 31, 2012




 Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 141
                                 USAID Office of Inspector General




                          Reports Over 6 Months Old With
                             No Management Decision
                                              MCC
                             October 1, 2011²March 31, 2012



During this reporting period, there were no reports over 6 months old without a management
decision.




     Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 142
                               USAID Office of Inspector General




          Significant Revisions of Management Decisions
                                          MCC
                        October 1, 2011²March 31, 2012



Section 5(a)(11) of the Inspector General Act of 1978 requires semiannual reports to
include a description and explanation of the reasons for any significant revised management
decision made during the reporting period. During the reporting period, MCC did not
make any significant revisions of previous management decisions.



               Management Decisions With Which the
                   Inspector General Disagrees
                                          MCC
                        October 1, 2011²March 31, 2012



Section 5(a)(12) of the Inspector General Act of 1978 requires semiannual reports to
include information concerning any significant management decisions with which the
inspector general disagrees.

During this reporting period, the Inspector General agreed with all significant
management decisions.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 143
                              USAID Office of Inspector General



   Noncompliance With the Federal Financial Management
                Improvement Act of 1996
                                           MCC
                        October 1, 2011²March 31, 2012



Section 5(a)(13) of the Inspector General Act of 1978 requires semiannual reports to
include an update on issues outstanding under a remediation plan required by FFMIA,
(Public Law 104±208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires
agencies to comply substantially with (1) federal financial management system requirements,
(2) federal accounting standards, and (3) the U.S. Standard General Ledger at the
transaction level. An agency that is not substantially compliant with FFMIA must prepare a
remediation plan.

OIG had no instances of MCC noncompliance to report during the reporting period.


            Significant Findings From Contract Audit Reports
                                           MCC
                        October 1, 2011²March 31, 2012



 The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110±181, Section
 842) requires inspectors general to submit information on contract audit reports that
 contain significant audit findings in semiannual reports to Congress. The act defines
 ³VLJQLILFDQWDXGLWILQGLQJV´WRLQFOXGHXQVXSSRUWHGTXHVWLRQHGRUGLVDOORZHGFRVWVLQ
 excess of $10 million and other findings that inspectors general determine to be significant.

 During the reporting period, OIG had no significant findings from MCC contract audit
 reports.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 144
                                        USAID Office of Inspector General


                                          Significant Findings

                  United States African Development Foundation

Audit of the U.S. African Development                      contracts disclosed no instances of
Foundation·s Financial Statements for                      noncompliance. Two recommendations were
Fiscal Years 2011 and 2010 (Audit Report                   made.
No. 0²ADF²12²003²C). USADF, created in
                                                           Audit of the U.S. African Development
1980, is an independent federal agency
                                                           Foundation·s Fiscal Year 2011
established to support African±designed and
                                                           Compliance With the Federal
African±driven solutions that address grassroots
                                                           Information Security Management Act of
economic and social problems in conflict and
                                                           2002 (Report No. A²ADF²12²002²P). An
post±conflict communities. USADF provides
                                                           audit was conducted to determine whether
grants of up to $250,000 directly to indigenous
                                                           USADF implemented selected security controls
African organizations that benefit underserved
                                                           for its information systems as required by the
and marginalized groups. As of September 30,
                                                           Federal Information Security Management Act of
2011, USADF had more than 400 active project
                                                           2002 (FISMA).35
grants and small grants in 23 countries,
representing more than $60 million invested in             OIG concluded that USADF had generally
enterprises, farmer associations, cooperatives, and        implemented selected security controls over
community groups that improve food                         selected systems in support of the act but found
production, increase income levels, and improve            areas where USADF could improve its program.
social benefits in poor communities.                       OIG made recommendations for improvements,
                                                           and management decisions were made on all of
OIG contracted with an independent public
                                                           them.
accounting firm to audit USADF¶s financial
statements. During the audit, the auditor noted
that USADF¶s financial statements were
presented fairly, in all material respects, the
financial position of USADF as of September 30,
2011. The auditors also noted a material
weakness in USADF¶s internal control over
financial reporting. However, the results of the
tests of compliance with laws, regulations and             35
                                                                E±Government Act of 2002, P.L. 107±347, Title III.

        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 145
                                USAID Office of Inspector General




           Significant Recommendations Described Previously
                                  Without Final Action
                                              USADF
                            October 1, 2011²March 31, 2012

                                                                     Management          Final Action
  Report                                         Issue      Rec.
                     Subject of Report                                Decision              Target
  Number                                         Date       No.
                                                                        Date                 Date
                   Follow-up Audit of the
                   Awarding and Monitoring of
7²ADF²08²006²P                                  06/12/08      16          06/12/08           12/31/12
                   Grants by the African
                   Development Foundation

                   Audit of the African                       1          09/17/08*           12/31/12
                   Development                                7          09/17/08*           12/31/12
7²ADF²08²007²P                                  09/17/08
                   Foundation/Ghana Project                  14          09/17/08**          12/31/12
                   Activities                              17.4          09/26/08            12/31/12

                                                                   *Revised management decision 6/30/2011
                                                                  **Revised management decision 5/03/2011




          Incidents in Which OIG Was Refused Assistance or
                             Information
                                              USADF
                           October 1, 2011²March 31, 2012


     Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
     report to the head of the agency whenever requested information or assistance is
     unreasonably refused or not provided.

     During this reporting period, there were no reports regarding instances in which
     information or assistance was unreasonably refused or not provided.




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 146
                              USAID Office of Inspector General




                                    Financial Audits
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                           USADF
                            October 1, 2011²March 31, 2012
                                                                             Amt. of
  Report         Date of                                                              Type of
                                             Report Title                    Findings
  Number         Report                                                               Findings
                                                                              ($000)
                                    Programs and Operations
                              Audit of the U.S. African Development
0²ADF²12²003²C   11/15/11     Foundation·s Financial Statements for Fiscal
                              Years 2011 and 2010




                                  Performance Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                            USADF
                            October 1, 2011²March 31, 2012
                                                                             Amt. of
  Report         Date of                                                                Type of
                                              Report Title                   Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                                      Economy and Efficiency
                                Audit of the U.S. African Development
                                Foundation·s Fiscal Year 2011 Compliance
A²ADF²12²002²P    11/08/11
                                With the Federal Information Security
                                Management Act of 2002




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 147
                            USAID Office of Inspector General



                            Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and
  Value of Recommendations That Funds Be Put to Better
                          Use
                                       USADF
                       October 1, 2011²March 31, 2012

 During the reporting period, no miscellaneous reports were issued with associated
 questioned costs, unsupported costs, or recommendations that funds be put to better use.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 148
                           USAID Office of Inspector General




        Statistical Table of Reports With Questioned and
                        Unsupported Costs
                                      USADF
                        October 1, 2011²March 31, 2012



During the reporting period, no reports were issued with questioned or unsupported costs.




             Reports With Recommendations That Funds
                      Be Put to Better Use
                                      USADF
                        October 1, 2011²March 31, 2012



 During the reporting period, no reports were issued with recommendations that funds be
 put to better use.

       Reports Over 6 Months Old With No Management
                          Decision
                                      USADF
                        October 1, 2011²March 31, 2012


 During the reporting period, there were no reports more than 6 months old without a
 management decision.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 149
                             USAID Office of Inspector General




            Significant Revisions of Management Decisions
                                        USADF
                        October 1, 2011²March 31, 2012


  Section 5(a) (11) of the Inspector General Act requires a description and explanation
  of the reasons for any significant revised management decision during the reporting
  period.

  During this reporting period, USADF did not make any significant revisions of
  management decisions.




       Management Decisions With Which the Inspector
                   General Disagrees
                                        USADF
                       October 1, 2011²March 31, 2012



 The Inspector General Act of 1978, as amended, requires semiannual reports to include
 information concerning any significant management decisions with which the inspector
 general disagrees.

 During this reporting period, the Inspector General agreed with all significant
 management decisions.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 150
                                          USAID Office of Inspector General



               Noncompliance with the Federal Financial Management
                           Improvement Act of 1996
                                                   USADF
                                     October 1, 2011²March 31, 2012



            Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
            update on issues outstanding under a remediation plan required by FFMIA, (Public Law
            104±208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to
            comply substantially with (1) federal financial management system requirements, (2)
            federal accounting standards, and (3) the U.S. Standard General Ledger at the transaction
            level. An agency that is not substantially compliant with FFMIA must prepare a
            remediation plan.

            USADF had no instances of noncompliance to report during this reporting period.


                                         Significant Findings From
                                          Contract Audit Reports
                                                     USADF
                                      October 1, 2011²March 31, 2012


            The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110±181,
            Section 845) requires inspectors general to submit information on contract36 audit reports
            that contain significant audit findings in semiannual reports to the Congress.

            7KHDFWGHILQHV³VLJQLILFDQWDXGLWILQGLQJV´WRLQFOXGHXQVXSSRUWHGTXHVWLRQHGRU
            disallowed costs in excess of $10 million and other findings that an inspector general
            determines to be significant.

            USADF had no significant findings from contract audit reports.



36
     Includes grants and cooperative agreements.

           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 151
                      USAID Office of Inspector General




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 152
                                        USAID Office of Inspector General


                                          Significant Findings

                                   Inter²American Foundation

Audit of the Inter²American                                Audit of the Inter²American
Foundation·s Fiscal Year 2011Compliance                    Foundation·s Financial Statements for
With the Federal Information Security                      Fiscal Years 2011 and 2010 (Report No.
Management Act of 2002 (Report No. A²                      0²IAF²12²003²C). IAF responds to innovative,
IAF²12²001²P). FISMA requires agencies to                  participatory, and sustainable self±help
develop, document, and implement an agency±                development projects proposed by grassroots
wide information security program to protect               groups and organizations that support them in
their information and information systems,                 Latin America and the Caribbean. It also
including those provided or managed by another             encourages partnerships among community
agency, contractor, or other source.                       organizations, businesses, and local governments

OIG determined that IAF had implemented                    directed at improving the quality of life for poor

many security controls over its information                people and strengthening democratic practices.

systems; however, one weakness was identified in           In fiscal year 2011, the Inter±American

IAF¶s information security program.                        Foundation had a total budget of approximately
                                                           $27 million.
Although IAF was not encrypting data on backup
tapes to be transferred offsite, it took steps to fix      IAF contracted with an independent public

the problem immediately. As a result, OIG made             accounting firm that was monitored by OIG, to

no recommendations.                                        audit IAF¶s financial statements and expressed an
                                                           unqualified opinion that found no material
                                                           weaknesses or significant deficiencies in IAF¶s
                                                           internal control over financial reporting and no
                                                           instances of noncompliance with selected
                                                           provisions of applicable laws and regulations. No
                                                           recommendations were made.




        Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 153
                             USAID Office of Inspector General




       Significant Recommendations Described Previously
                              Without Final Action
                                           IAF
                        October 1, 2011²March 31, 2012


 During the reporting period, there were no significant recommendations described
 previously without final action.



      Incidents in Which OIG Was Refused Assistance or
                         Information
                                          IAF
                        October 1, 2011²March 31, 2012


 Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
 report to the head of the agency whenever requested information or assistance is
 unreasonably refused or not provided.

 During this reporting period, there were no reports regarding instances in which
 information or assistance was unreasonably refused or not provided.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 154
                              USAID Office of Inspector General




                                    Financial Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                              IAF
                            October 1, 2011²March 31, 2012
                                                                               Amt. of
  Report         Date of                                                                Type of
                                             Report Title                      Findings
  Number         Report                                                                 Findings
                                                                                ($000)
                                    Programs and Operations
                              Audit of the Inter²American Foundation·s
0²IAF²12²003²C   11/14/11     Financial Statements for Fiscal Years 2011 and
                              2010




                                 Performance Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                               IAF
                            October 1, 2011²March 31, 2012
                                                                               Amt. of
  Report         Date of                                                                  Type of
                                              Report Title                     Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                                      Economy and Efficiency
                                Audit of the Inter²American Foundation·s
                                Fiscal Year 2011 Compliance With the
A²IAF²12²001²P    10/21/11
                                Federal Information Security Management
                                Act of 2002




    Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 155
                            USAID Office of Inspector General




                            Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use
                                          IAF
                       October 1, 2011²March 31, 2012


 During the reporting period, no miscellaneous reports were issued with associated
 questioned costs, unsupported costs, or recommendations that funds be put to better use.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 156
                           USAID Office of Inspector General




         Statistical Table of Reports With Questioned and
                         Unsupported Costs
                                          IAF
                        October 1, 2011²March 31, 2012




During the reporting period, no reports were issued with questioned or unsupported costs.




                 Reports With Recommendations That
                      Funds Be Put to Better Use
                                         IAF
                        October 1, 2011²March 31, 2012



 During the reporting period, no reports were issued with recommendations that funds be
 put to better use.



        Reports Over 6 Months Old With No Management
                           Decision
                                         IAF
                        October 1, 2011²March 31, 2012



 During the reporting period, there were no reports more than 6 months old without a
 management decision.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 157
                             USAID Office of Inspector General




          Significant Revisions of Management Decisions
                                           IAF
                        October 1, 2011²March 31, 2012




 Section 5(a) (11) of the Inspector General Act requires a description and explanation of the
 reasons for any significant revised management decisions during the reporting period.

 During the reporting period, there were no significant revisions of management decisions.




        Management Decisions With Which the Inspector
                    General Disagrees
                                           IAF
                        October 1, 2011²March 31, 2012



 The Inspector General Act of 1978, as amended, requires semiannual reports to include
 information concerning any significant management decisions with which the inspector
 general disagrees.

 During this reporting period, the Inspector General agreed with all significant
 management decisions.




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 158
                                          USAID Office of Inspector General



                Noncompliance with the Federal Financial Management
                            Improvement Act of 1996
                                                       IAF
                                      October 1, 2011²March 31, 2012



            Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
            update on issues outstanding under a remediation plan required by FFMIA, (Public Law
            104±208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to
            comply substantially with (1) federal financial management system requirements, (2)
            federal accounting standards, and (3) the U.S. Standard General Ledger at the transaction
            level. An agency that is not substantially compliant with FFMIA must prepare a
            remediation plan.

            IAF had no instances of noncompliance to report during this reporting period.




                                        Significant Findings From
                                         Contract Audit Reports
                                                       IAF
                                     October 1, 2011²March 31, 2012


            The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110±181,
            Section 845) requires inspectors general to submit information on contract37 audit reports
            that contain significant audit findings in semiannual reports to the Congress.

            7KHDFWGHILQHV³VLJQLILFDQWDXGLWILQGLQJV´WRLQFOXGHXQVXSSRUWHGTXHVWLRQHGRU
            disallowed costs in excess of $10 million and other findings that the Inspector General
            determines to be significant.

            IAF had no significant findings from contract audit reports.

37
     Includes grants and cooperative agreements.

           Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 159
                      USAID Office of Inspector General



                             Abbreviations


      BU           funds recommended to be put to better use

      DCAA         Defense Contract Audit Agency

      FAR          Federal Acquisition Regulation

      FATA         Federally Administered Tribal Areas

      FFMIA        Federal Financial Management Improvement Act of 1996

      FISMA        Federal Information Security Management Act

      IAF          Inter±American Foundation

      MCA          Millennium Challenge Account

      MCC          Millennium Challenge Corporation

      NGO          nongovernmental organization

      OIG          Office of Inspector General

      OMB          Office of Management and Budget

      PEPFAR       President¶s Emergency Program for AIDS Relief

      PMI          President¶s Malaria Initiative

      QC           questioned costs

      SAI          Supreme Audit Institution

      TIP          trafficking in persons

      UN           unsupported costs

      USADF        United States African Development Foundation

      USAID        United States Agency for International Development




Semiannual Report to the Congress: October 1, 2011²March 31, 2012 ¾ 160
